<html>
<title> - OVERSIGHT OF THE FEDERAL BUREAU OF INVESTIGATION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
            OVERSIGHT OF THE FEDERAL BUREAU OF INVESTIGATION

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            December 7, 2017

                               __________

                           Serial No. 115-72

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        




      Available via the World Wide Web: http://judiciary.house.gov
      
      
      
                           _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 33-359                 WASHINGTON : 2018          
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR SMITH, Texas                   ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr., 
TRENT FRANKS, Arizona                    Georgia
LOUIE GOHMERT, Texas                 THEODORE E. DEUTCH, Florida
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
TED POE, Texas                       KAREN BASS, California
JASON CHAFFETZ, Utah                 CEDRIC L. RICHMOND, Louisiana
TOM MARINO, Pennsylvania             HAKEEM S. JEFFRIES, New York
TREY GOWDY, South Carolina           DAVID CICILLINE, Rhode Island
RAUL LABRADOR, Idaho                 ERIC SWALWELL, California
BLAKE FARENTHOLD, Texas              TED LIEU, California
DOUG COLLINS, Georgia                JAMIE RASKIN, Maryland
RON DeSANTIS, Florida                PRAMILA JAYAPAL, Washington
KEN BUCK, Colorado                   BRAD SCHNEIDER, Illinois
JOHN RATCLIFFE, Texas
MARTHA ROBY, Alabama
MATT GAETZ, Florida
MIKE JOHNSON, Louisiana
ANDY BIGGS, Arizona

          Shelley Husband, Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
       
                            C O N T E N T S

                              ----------                              

                            DECEMBER 7, 2017
                           OPENING STATEMENTS

                                                                   Page
The Honorable Bob Goodlatte, Virginia, Chairman, Committee on the 
  Judiciary......................................................     1
The Honorable Jerrold Nadler, New York, Ranking Member, Committee 
  on the Judiciary...............................................     3

                               WITNESSES

The Honorable Andrew McCabe, Director, Federal Bureau of 
  Investigation
    Oral Statement...............................................     6


            OVERSIGHT OF THE FEDERAL BUREAU OF INVESTIGATION

                              ----------                              


                       THURSDAY, DECEMBER 7, 2017

                        House of Representatives

                       Committee on the Judiciary

                             Washington, DC

    The committee met, pursuant to call, at 10:00 a.m., in Room 
2141, Rayburn House Office Building, Hon. Bob Goodlatte 
[chairman of the committee] presiding.
    Present: Representatives Goodlatte, Chabot, Issa, King, 
Franks, Gohmert, Jordan, Poe, Marino, Gowdy, Labrador, 
Farenthold, Collins, DeSantis, Buck, Ratcliffe, Roby, Gaetz, 
Johnson of Louisiana, Biggs, Rutherford, Handel, Nadler, 
Lofgren, Jackson Lee, Cohen, Johnson of Georgia, Deutch, Bass, 
Richmond, Jeffries, Cicilline, Swalwell, Lieu, Raskin, Jayapal, 
and Schneider.
     Staff Present: Shelley Husband, Staff Director; Branden 
Ritchie, Deputy Staff Director; Zach Somers, Parliamentarian 
and General Counsel; Bobby Parmiter, Chief Counsel, 
Subcommittee on the Constitution and Civil Justice; Danielle 
Brown, Minority Parliamentarian and Chief Legislative Counsel; 
Aaron Hiller, Minority Chief Oversight Counsel; Joe 
Graupensperger, Minority Chief Counsel, Subcommittee on Crime, 
Terrorism, Homeland Security and Investigations; Arya 
Hariharan, Minority Counsel; and Veronica Eligan, Minority 
Professional Staff Member.
    Chairman Goodlatte. The Judiciary Committee will come to 
order, and without objection the chair is authorized to declare 
recesses of the committee at any time. We welcome everyone to 
this morning's hearing on Oversight of the Federal Bureau of 
Investigations, and I will begin by recognizing myself for an 
opening statement.
    Thank you, Director Wray, for appearing for your first time 
in front of this committee and thank you for your service to 
our country in your new position. There is much to discuss 
today, and we look forward to your answers.
    The President recently tweeted that the FBI ``is in 
tatters.'' While some will take umbrage with President Trump's 
assertion, it does appear to me that, at the very least, the 
FBI's reputation as an impartial, nonpolitical agency has been 
called into question recently. We cannot afford for the FBI, 
which has traditionally been dubbed the ``premier law 
enforcement agency in the world,'' to become tainted by 
politicization or the perception of a lack of even-handedness.
    Questions regarding the FBI's impartiality first came to 
light under the Obama administration surrounding the handling 
of the investigation into the Clinton email server scandal. 
You, Director Wray, have a unique opportunity to repair the 
damage of the reputation of the FBI, and we encourage you in 
the strongest terms to do so.
    Director Comey's decision to weigh in on the fate of the 
investigation into the mishandling of classified emails by 
former Secretary of State Hillary Clinton was one that brought 
criticism to the Bureau from all sides. The FBI's decision to 
recommend no charges against the former Secretary, or anyone 
connected to her, continues to raise serious concerns that our 
Nation's system of justice applies differently to the rich, 
powerful, and well-connected than to everyone else.
    Many on this committee have repeatedly called on Attorney 
General Sessions and Deputy Attorney General Rosenstein to name 
a second special counsel to review the voluminous, unresolved 
inconsistencies and perceived improprieties with regard to 
normal FBI and DOJ investigatory practice that arose during the 
Clinton email investigation.
    Despite our requests, the Department has not appointed a 
second special counsel. While we still request the appointment 
of a second special counsel, we have now also opened our own 
joint investigation with the House Oversight and Government 
Reform Committee to review FBI and DOJ's handling of that 
investigation.
    The Attorney General has recently committed to provide us 
relevant documents, and I hope to hear directly from you that 
you will ensure your agency provides a fulsome response of 
documents to enable unimpeded congressional oversight.
    Even more recently, reports on the bias of some of the 
career agents and lawyers on current Special Counsel Mueller's 
team are also deeply troubling to a system of blind and equal 
justice. Investigations must not be tainted by individuals 
imposing their own personal political opinions. We do not know 
the magnitude of this insider bias on Mr. Mueller's team nor do 
we have a clear understanding of the full magnitude of bias 
reflected in the Russia investigation and prior Clinton email 
investigation.
    One thing is clear, though: it is absolutely unacceptable 
for FBI employees to permit their own political predilections 
to contaminate any investigation. Even the appearance of 
impropriety will devastate the FBI's reputation. We hope to 
hear from you today about an action plan for making sure this 
never happens again, that individuals are held accountable, and 
whether you plan to reevaluate prior decisions in light of the 
prejudice shown by officials in integral roles on past and 
ongoing investigations.
    Concerning substantive legislative measures, we find 
ourselves only weeks before a critical program for our national 
security expires--FISA section 702. This committee passed on an 
overwhelmingly bipartisan basis a reauthorization of section 
702 that maintains the integrity of the program while 
protecting cherished civil liberties. We ensured that the FBI 
is not hindered by having to obtain a warrant before performing 
a search for information that the Agency has inside its 
databases. However, we also put in place protections to ensure 
that law enforcement cannot short cut Americans' civil 
liberties by reading Americans' emails without a warrant when 
looking for evidence of run-of-the-mill crimes.
    This committee's legislation struck a balance that will 
promote national security and civil liberties. So, I hope to 
hear from you that you will work with us to make any perfecting 
changes to the legislation so that section 702 can be 
reauthorized on time.
    Needless violence on the home front is also a concern for 
all Americans who value and expect safety and security as they 
go about their day-to-day lives. We have seen horrific violence 
in the past year, including the worst mass shooting in U.S. 
history. Violence has hit this very body when our colleague, 
Congressman Scalise, and others were shot.
    We also see many of our major cities stricken by daily 
murders and excessive violence. Is this the new normal? I am 
unwilling to accept that. While we have disagreements over 
policy for addressing this violence, we can all agree that it 
is existentially important for us to understand and address the 
underlying causes. If we neglect this duty, we do a disservice 
for generations to come.
    Director Wray, in addition to punishing individuals who 
have already committed criminal acts, I hope the FBI is also 
committed to crime-prevention initiatives. I am interested to 
know what steps Federal law enforcement is taking to address 
the underlying causes of violence, and whether Congress can 
offer any additional resources to ensure that we can faithfully 
say that we have done what we can to battle gratuitous violence 
in all of its forms.
    I believe that this committee's Criminal Justice Reform 
legislation will help address these problems, including helping 
to rehabilitate offenders so that they can become productive 
members of society once released.
    Notwithstanding the question of the impartiality and 
independence of the FBI, I am often astounded by the efforts 
that the men and women of the FBI contribute on a daily basis 
toward keeping our country safe from foreign and domestic 
threats.
    There are many successes that never see the light of day 
for which the FBI cannot receive public credit due to the 
sensitivity of the FBI's methods and operations. We are truly 
grateful and hope that the line agents, analysts, and support 
staff of the FBI know that their jobs are sincerely appreciated 
and greatly valued.
    Again, Director Wray, thank you for appearing today, and I 
now yield to the ranking member of the committee, the gentleman 
from New York, Mr. Nadler, for his opening statement.
    Mr. Nadler. Thank you, Mr. Chairman, and welcome to the 
House Judiciary Committee, Director Wray.
    Earlier this week in a message to your agents and 
employees, you gave us your vision of what the FBI is supposed 
to be. ``We find ourselves under the microscope each and every 
day and rightfully so. We do hard work for a living. We are 
entrusted with protecting the American people and upholding the 
Constitution and laws of the United States. Because of the 
importance of our mission, we are also entrusted with great 
power, and we should expect and welcome people asking tough 
questions about how we use that power. That goes with the job 
and always has,'' from your statement.
    I appreciate that sentiment, but it cannot be a coincidence 
that you sent this message to your agents just hours after 
President Trump launched an online tantrum aimed largely at the 
Bureau as an institution and their individual agents. Early 
Saturday morning the President tweeted, ``So, General Flynn 
lies to the FBI and his life destroyed, while crooked Hillary 
lies many times, and nothing happens to her? Rigged system, or 
just a double standard?'' He went on, ``After years of Comey, 
with the phony and dishonest Clinton investigation, running the 
FBI, its reputation is in tatters, worst in history.''
    These outbursts exemplify two key characteristics of the 
administration: a cheapening and coarsening of our dialogue, 
and baseless but entirely predictable political attacks against 
Hillary Clinton, political opponents, the Department of 
Justice, and the FBI.
    I fear that this demeaning language has infected much of 
our work here on this committee. And I suspect, Mr. Director, 
that many of my Republican colleagues will take a similar 
approach in attempting to shift the conversation away from 
questions they have largely ignored, like obstruction of 
justice, election security, and the rise in hate crimes.
    Indeed, I predict that these attacks on the FBI will grow 
louder and more brazen as the special counsel does his work, 
and the walls close in around the President, and evidence of 
his obstruction and other misdeeds becomes more apparent.
    In this moment, Director Wray, your responsibility is not 
only to defend the Bureau, but to push back against the 
President when he is so clearly wrong--both on the facts and as 
a matter of principle. When he says, ``The FBI person really 
reports directly to the President of the United States,'' it is 
your job to tell him that the director of the FBI has reported 
to the Attorney General since the founding of the Bureau, and 
that Presidents should not comment on pending cases.
    When he claims that you should focus on, ``crooked 
Hillary,'' instead of his closest associates, or when my 
colleagues argue for a new special counsel to do the same, it 
is your responsibility to remind us that, absent sufficient 
evidence of a crime, there is no investigation to which a 
special counsel can be assigned.
    And when he tells you that you need to ``clean house,'' 
that your agents are ``phony and dishonest,'' and that your 
``reputation, or the reputation of the Bureau, is in tatters''' 
and ``the worst in history,'' you should do more than send a 
private email to your employees. Your job then is to stand up 
to the President of the United States.
    As former Acting Attorney General Sally Yates has said, 
``The only thing in tatters is the President's respect for the 
rule of law. The dedicated men and women of the FBI deserve 
better.''
    Or as former Attorney General Eric Holder said, ``You will 
find integrity and honesty at FBI headquarters and not at 1600 
Pennsylvania Avenue right now.'' Or as Thomas O'Connor, 
President of the FBI Agents Association, said, ``The FBI 
continues to be the premier law enforcement agency in the 
world. FBI agents are dedicated to their mission. Suggesting 
otherwise is simply false,'' unquote.
    I am curious if you think their defense of the Bureau is 
wrong or misplaced, and I hope you will address the matter in 
your testimony today. Your job requires you to have the courage 
in these circumstances to stand up to the President. That 
responsibility is far more than a matter of politics. There are 
real consequences for allowing the President to continue his 
attacks on the FBI and to continue unchecked in this manner.
    For example, FBI statistics released last month show a 
marked increase in the rate of hate crimes in the United 
States. Your data indicate 6,121 hate crimes against 7,615 
victims last year alone. Last week, about 70 of our colleagues 
wrote to me and to Chairman Goodlatte asking us to ``convene 
immediate hearings to determine what can be done to stem the 
tide'' of this violence.
    I agree completely. This committee should address the 
matter without delay, and I ask that the letter I have be made 
a part of the record.
    Chairman Goodlatte. Without objection, it will be made part 
of the record.
    Mr. Nadler. Thank you. I am certain that more than one 
factor is to blame for this rise in violence. But I cannot help 
but look to a President who has tacitly, and sometimes 
explicitly, created an environment that is more hostile to the 
most vulnerable among us.
    As a candidate, he denigrated women, characterized 
immigrants as rapists, and openly mocked the disabled. As 
President, he cracked a Pocahontas joke at a ceremony honoring 
the contributions of Native Americans in combat defending this 
country, circulated unverified anti-Muslim videos produced by 
far-right, fascist extremists in Great Britain, and asked us to 
remember the ``very fine people'' among the racists and white 
nationalists at Charlottesville. According to reports, he has 
even resurrected the question of President Obama's birthplace, 
a pernicious, racist lie from the start.
    We are looking for leaders who can supply some moral 
authority to lead this country. I hope you will be among them, 
Director Wray. I look forward to your testimony today. I thank 
the Chairman, and I yield back.
    Chairman Goodlatte. The chair thanks the gentleman. We 
welcome our distinguished witness, and if you will please rise, 
I will begin by swearing you in.
    Do you swear that the testimony that you are about to give 
shall be the truth, the whole truth, and nothing but the truth, 
so help you God? Thank you very much. Let the record show that 
the witness answered the affirmative.
    Mr. Christopher Wray was sworn in as the 8th Director of 
the FBI on August 2, 2017. A New York City native, Mr. Wray 
graduated from Yale University and subsequently earned his law 
degree from Yale Law School. Mr. Wray began his Department of 
Justice career in 1997 as Assistant U.S. Attorney for the 
Northern District of Georgia where he prosecuted cases ranging 
from public corruption to gun trafficking and financial fraud.
    In 2001, he joined the Office of the Deputy Attorney 
General where he served as Associate Deputy Attorney General 
and then Principal Associate Deputy Attorney General. In 2003, 
Mr. Wray was nominated by President George W. Bush to serve as 
Associate Attorney General for the Criminal Division.
    At the conclusion of his tenure, Mr. Wray was awarded the 
Edmund J. Randolph Award, the Department of Justice's highest 
award for leadership and public service. Mr. Wray went on to 
practice law before returning to the public sector as Director 
of the FBI.
    Mr. Wray, your written statement will be entered into the 
record in its entirety and we ask that you summarize your 
testimony in 5 minutes. Welcome.

  STATEMENT OF CHRISTOPHER WRAY, DIRECTOR, FEDERAL BUREAU OF 
                         INVESTIGATION

    Mr. Wray. Thank you, Mr. Chairman. Mr. Chairman, Ranking 
Member Nadler, and members of the committee, thank you for 
having me here today. This is my first opportunity to appear 
before this committee, and I look forward to our discussion.
    Let me start by saying that it is, for me, the honor of a 
lifetime to be here representing the men and women of the FBI. 
There is no finer institution than the FBI and no finer people 
than the men and women who work there and are its very beating 
heart.
    Almost 37,000 men and women with a fierce commitment to 
protecting the American people and upholding the rule of law in 
all 50 States and in about 80 countries around the world. Men 
and women who face the darkest that life has to offer with 
unyielding integrity, and honesty, and dedication. And I am 
both humbled and inspired to be back in public service working 
alongside them.
    I would like to take a step back to consider the serious 
challenges that we are facing and to remember the millions of 
people that we are protecting. On the national security front, 
we confront individuals who want to harm the United States in 
whatever way they can. Terrorists hellbent on striking us with 
IEDs, vehicles, guns, and knives.
    For example, as we speak, the Bureau has about 1,000 active 
ISIS investigations in all 50 States. We have nation states 
actively seeking our technology, our military secrets, our 
research and development to build their own economic process 
and prowess, and to tear ours down. Cyber criminals who are 
using sophisticated means to infiltrate our systems and steal 
every piece of data that they can get their hands on. These 
threats are real, they are many, and they are a great threat to 
all Americans.
    But for the people we serve, these are not the threats that 
they encounter the most in their everyday lives. Threats like 
violent crime and the national opioid epidemic impact everyday 
people trying to lead everyday lives. They do not want to have 
to worry about a terrorist driving a truck down a busy walkway. 
They do not want to worry about an active shooter opening fire 
on a crowded public gathering. And they certainly do not want 
to worry about whether their kids are safe from gangs and drug 
dealers and predators.
    We all need to be aware of the world around us and of the 
threats we face, but we in the FBI are trying to do everything 
we can to make sure that the American people can go about 
living their lives while we focus on trying to keep them safe.
    I would like to highlight just a couple recent 
investigations that illustrate just a small, small part of our 
work, together with our law enforcement partners and our 
colleagues in the Justice Department. In October, through 
Operation Cross Country, which the FBI conducted in 44 States 
and the District of Columbia, we arrested 120 sex traffickers 
and recovered 84 sexually exploited juveniles, including a 3-
month-old girl and her 5-year-old sister who were recovered 
from a family friend who was trying to sell them for sex for 
$600.
    And through our Top 10 Most Wanted Fugitives program, we 
have apprehended just in the last couple of years 10 of the 
most particularly dangerous offenders. In late August, we were 
able to work with our Mexican counterparts to capture Luis 
Macedo, a gang member charged with first degree murder for 
beating, then shooting, then setting on fire a 15-year-old boy 
in Illinois who refused to show a gang sign.
    And then earlier this year, the pressure of being added to 
our Top 10 list led fugitive Robert Van Wisse to turn himself 
in to FBI agents in Texas for the 1983 murder of a young woman 
with a 1-year-old daughter. For 33 years, that little girl, now 
all grown-up, had hoped and prayed for his arrest and he was 
finally captured on her birthday. A cold comfort, I suspect, 
but we hope that his capture provides some measure of peace and 
justice to her.
    The work that we do is not easy, to put it mildly, but the 
FBI is mission-focused and passionate about the work we do. We 
are determined to be the very best at protecting the American 
people and upholding the rule of law and I, for one, could not 
be more proud to be part of it.
    I want to thank you and this committee for your support. We 
could not do what we do without the funding that you all help 
us secure, without the investigative tools and authorities that 
you granted us, including, as you noted, Mr. Chairman, section 
702 of the Foreign Intelligence Surveillance Act, which is at 
risk and set to expire very soon.
    We need every tool and every authority we have got to keep 
people safe and to pursue justice. And as always, we are 
committed to using those authorities lawfully and appropriately 
for the good and protection of the American people. So, thank 
you for having me here today and I look forward to your 
questions.
    Chairman Goodlatte. Thank you, Director Wray. I will begin 
by recognizing myself for questions. Mr. Director, I am sure 
you are aware of the recent media reports indicating that Peter 
Strzok, who is a Special Agent at the FBI, changed the words 
``grossly negligent'' to ``extremely careless'' in former 
Director Comey's statement closing the Clinton investigation. 
Are you aware of that?
    Mr. Wray. I have heard some of the same information you 
have.
    Chairman Goodlatte. Great. Do you know, by chance, what the 
criminal intent standard is under the Espionage Act? In 
particular, 18 U.S.C. section 793(f).
    Mr. Wray. I have not studied the statute recently, but I 
believe it is gross negligence.
    Chairman Goodlatte. That is right. It is gross negligence. 
So, would it be accurate to say that a senior FBI official 
changed the wording of the director's statement to ensure that 
Secretary Clinton was not liable under the Espionage Act?
    Mr. Wray. Well, Mr. Chairman, as you may know, the handling 
of the investigation into Secretary Clinton is currently the 
subject of an outside, independent investigation by the 
inspector general, and I think it would not be appropriate for 
me to speculate about what the inspector general will or will 
not find.
    Chairman Goodlatte. That is probably appropriate, but it is 
still not at all inappropriate to ask you to draw a legal 
conclusion about a standard in the law that was changed in a 
statement that your predecessor put out as a justification for 
closing the investigation of the former Secretary of State.
    Mr. Wray. As I said, Mr. Chairman, I believe the standard 
is gross negligence. I leave it to others to conclude whether 
extremely careless and gross negligence are the same thing. But 
I will say that the particulars of the investigation and the 
decisions that were made and whether or not it was handled 
appropriately is, as I think it should be, the subject of an 
outside, independent investigation by the inspector general. I 
look forward to his findings, as I am sure the committee does 
as well.
    Chairman Goodlatte. In July of 2016, the State Department 
revealed that former Secretary of State Hillary Clinton 
exchanged on her unsecured private server nearly two dozen top 
secret emails with three State Department officials. The 
classification ``top secret'' means, in part, the unauthorized 
disclosure of which reasonably could be expected to cause 
exceptionally grave damage to national security.
    Can you explain to the American people how the FBI could 
not be investigating actions taken by individuals like those 
named in 2016--Jacob Sullivan, Cheryl Mills, William Burns--
that threatened grave damage to the national security?
    Mr. Wray. Well, as I said, Mr. Chairman, the handling of 
the investigation, and in particular, whether or not decisions 
made in that investigation were the product of any improper 
considerations is precisely what the outside, independent 
inspector general is investigating. And, when we get his 
findings, I will look and see what appropriate action we can 
take at the FBI in response to that.
    Chairman Goodlatte. Can anyone on this committee set up a 
private server now and conduct classified business on it, since 
not a single person has been prosecuted or held accountable for 
the Clinton email investigation?
    Mr. Wray. No.
    Chairman Goodlatte. Thank you. Director Wray, what are you 
doing to ensure that the top ranks of the Federal Bureau of 
Investigation are cleared of individuals who are tainted by 
bias or those who have exhibited indiscretion by failing to 
demonstrate the integrity Americans expect from their top law 
enforcement officials?
    Mr. Wray. Well, the first thing I am doing is respecting 
the outside, independent investigations that are underway. My 
preference is to be one of these people who is not an ``act 
first and ask questions later'' kind of guy, but an ``ask 
questions first and then act'' kind of guy. And so, I think 
these matters are being looked at, as they should be, by 
somebody outside the FBI. And, when those findings come to me, 
I will take appropriate action, if necessary.
    In the meantime, I am emphasizing in every audience I can 
inside the Bureau that our decisions need to be made based on 
nothing other than the facts, and the law, and our rules and 
our processes, and our core values. And not based on any 
political considerations by any side of the aisle.
    Chairman Goodlatte. Thank you. Does the FBI obtain a 
warrant before accessing and reading Americans' email?
    Mr. Wray. It depends on the situation, but yes.
    Chairman Goodlatte. So, can you explain why you obtain a 
criminal search warrant before reading an email of someone 
under investigation for a crime?
    Mr. Wray. I am sorry, can you repeat the question?
    Chairman Goodlatte. Can you explain why you obtain a 
criminal search warrant before reading an email of someone 
under investigation for a crime?
    Mr. Wray. Well, in the situations where a search warrant is 
required, and of course, under the Fourth Amendment, there are 
plenty of situations where a search warrant is not required. 
There are all sorts of aspects to the Fourth Amendment, but in 
those situations where we seek a warrant, it is because the 
Fourth Amendment requires it.
    Chairman Goodlatte. Section 702, as you and I both noted, 
is up for renewal within a few weeks. It is a critical national 
security tool that must be reauthorized. You and I agree on 
that, as well. But it is just that: a national security tool, 
not a criminal tool.
    Is it reasonable, when accessing content that shows 
evidence of a routine crime and is located in the FBI's 702 
database, that agents should obtain some process, as is 
required in criminal cases?
    Mr. Wray. Mr. Chairman, I have appreciated our discussions 
on section 702. My own view is that section 702, as currently 
drafted, which is the view shared by the courts that have 
looked at the question is fully constitutional and lawful. And 
I would say to you that our handling of clearing of the 
information in the 702 database is clearing of information that 
is already lawfully and constitutionally in the FBI's 
possession and is most useful at the earliest stages, when 
information is coming in in fragments and the Bureau is trying 
to make assessments of what do we have?
    Is this a real threat? Where is this going? And I would 
implore the committee and the Congress not to begin rebuilding 
the wall that existed before 9/11.
    Chairman Goodlatte. Well, thank you. My time is expired, 
but I will add that we share that concern as well. And that is 
why we have drawn a clear distinction between national security 
and solving domestic crimes.
    And when it comes to the query, we allow that to move 
forward. But when you then find that there is something related 
to the investigation of a domestic crime, then you should go 
ahead and get a search warrant. And we have protected the FBI's 
ability to access that database for the purpose of a query.
    But then, if you are going to take it further and actually 
read the contents of the emails if they are national security, 
go right ahead, because you may be stopping a terrorist attack. 
But if you are solving a domestic crime, whatever it might be, 
then I think you need to respect the civil liberties of 
American citizens and get a warrant. I now recognize the 
gentleman from New York, Mr. Nadler, for his questions.
    Mr. Nadler. Thank you. Let me say part of my statement, 
that I totally agree with the chairman in his observations on 
702 and on the distinctions we made in our bill between 
national security and counterintelligence operations on the one 
hand, investigations of domestic crimes on the other. Where you 
should get a warrant when you would normally need a warrant.
    Director Wray, I would like to ask you for your help 
putting events in the last few days into context. To set the 
stage, over the summer in an interview with the New York Times, 
President Trump stated, ``When Nixon came along, out of 
courtesy the FBI started reporting to the Department of 
Justice. But the FBI person really reports directly to the 
President of the United States.'' Director Wray, you have one 
direct report to the Executive Branch. To whom do you directly 
report?
    Mr. Wray. I directly report to the Deputy Attorney General, 
who then reports to the Attorney General.
    Mr. Nadler. Thank you. Has President Trump ever asked you 
to sidestep the chain of command and report directly to him?
    Mr. Wray. No.
    Mr. Nadler. Also over the summer, former Director Comey 
testified that during a private dinner President Trump told 
him, ``I need loyalty. I expect loyalty.'' Has President Trump 
ever asked you for loyalty?
    Mr. Wray. I have never been asked by the President to take 
any kind of loyalty oath. My loyalty is to the Constitution, to 
the laws of this country, and to the, you know, the good men 
and people of America.
    Mr. Nadler. Thank you. Last week, former National Security 
Advisor Michael Flynn pleaded guilty to one felony count of 
lying to the FBI about conversations he had with the Russian 
Ambassador. I would like to put President Trump's initial 
Twitter reaction up on the screen. I will not read it, but I 
will simply say he claims here to have known that General Flynn 
committed a crime at the time General Flynn was fired.
    There is some controversy as to whether the President 
actually wrote this tweet. The White House later claimed that 
it came from the President's private attorney. But I am not 
sure that it matters who wrote it, given the Department of 
Justice's litigating position that these tweets are ``official 
statements of the President of the United States.''
    A few clarifying questions, Mr. Director. In your 
experience at the Department of Justice, have you ever 
prosecuted a case involving a charge of obstruction of justice?
    Mr. Wray. Yes.
    Mr. Nadler. In Sections 1503, 1505, and 1512 of Title 18, 
make it a crime if someone corruptly ``obstructs, influences, 
or impedes any official proceeding.'' What does it mean to 
corruptly obstruct, influence, or impeded an official 
proceeding?
    Mr. Wray. Well, Congressman, that would require me to get 
into kind of a legal discussion and it has been a while since I 
looked at the case law on the subject. I do know, as somebody 
who has been both a line prosecutor and a senior Justice 
Department official, and a defense attorney that sometimes the 
language of that statute can be trickier than folks first 
appreciate.
    Mr. Nadler. Okay, fair enough. Fair enough. And I am glad 
you respect the fact that we have 5 minutes. Does obstruction 
of justice require specific intent? In other words, does a 
prosecutor have to establish that the defendant had knowledge 
of the official proceeding and intended to obstruct it?
    Mr. Wray. Sitting here right now, Congressman, I do not 
remember the specifics of exactly what the intent requirement 
is.
    Mr. Nadler. Okay. Does it matter that a suspect has 
knowledge of a crime when he attempts to waive off criminal 
investigators? In other words, if a suspect has knowledge of a 
crime and he attempts to waive off criminal investigators, does 
that constitute obstruction of justice?
    Mr. Wray. Well, certainly the defendant's knowledge and 
state of mind and intent is a critical element of the offense.
    Mr. Nadler. Okay. Later that day, the President tweeted 
this claim--open up there--and in effect, he accuses former 
Director Comey of giving false testimony. Mr. Comey testified 
that President Trump urged him to be lenient with Michael 
Flynn, producing a note in which he quoted the President 
saying, ``I hope you can let this go.''
    In multiple appearances before Congress, Attorney General 
Sessions appears to have corroborated both the fact of the 
meeting and the gist of the conversation between the President 
and Director Comey.
    Director Wray, do you have reason to doubt the testimony of 
Director Comey or Attorney General Sessions on this point?
    Mr. Nadler. Congressman, the questions you are asking go 
directly to what Special Counsel Mueller is investigating, and 
I do not think it would be appropriate for me to be weighing in 
on that in this setting.
    Mr. Nadler. You do not think you can say whether you have 
reason to doubt the veracity of his statement because that 
might be under investigation?
    Mr. Wray. Congressman, the question you are asking me--and 
I appreciate the reasons for the question--but the questions 
you are asking me would be asking me to weigh in on witnesses 
in a course of investigation that is ongoing and I do not think 
that is appropriate for me to do.
    Mr. Nadler. All right. Fair enough. At your confirmation 
hearing, you testified that you would ``consider any effort to 
tamper with Director Mueller's investigation unacceptable and 
inappropriate, that any such effort would need to be dealt with 
very sternly and appropriately indeed.'' Since your 
confirmation, has the President ever contacted you about the 
special counsel's investigation? Has the Attorney General or 
anybody else at the White House?
    Mr. Wray. No.
    Mr. Nadler. Okay. My final question is: the President's 
tirade ended with one final tweet where he says your reputation 
is in tatters. And to use--well, Director Wray--it is up there. 
We have heard other veterans of the FBI and the Department of 
Justice push back against this attack on the reputation of the 
FBI. We have not heard from you; with the time I have left, 
will you respond to this tweet by the President? Is the FBI's 
reputation in tatters?
    Mr. Wray. Mr. Chairman, may I have time to answer this 
question because it is something that matters to me a great 
deal?
    Chairman Goodlatte. Yes, go ahead, please.
    Mr. Wray. Congressman, there is no shortage of opinions out 
there. What I can tell you is that the FBI that I see is tens 
of thousands of agents, and analysts, and staff working their 
tails off to keep Americans safe from the next terrorist 
attack, gang violence, child predators, spies from Russia, 
China, North Korea, and Iran. The FBI that I see is tens of 
thousands of brave men and women who are working as hard as 
they can to keep people that they will never know safe from 
harm.
    And the FBI that I see is reflected in folks like the new 
class of agents that I swore in at Quantico 2 days ago, hard-
charging, high-integrity people. People like the Hostage Rescue 
Team and SWAT teams that we send out into all sorts of danger 
with almost no notice. The FBI that I see is people, decent 
people, committed to the highest principles of integrity, and 
professionalism, and respect.
    The FBI that I see is respected and appreciated by our 
partners in Federal, State, and local law enforcement; in the 
intelligence community; our foreign counterparts, both law 
enforcement; and national security in something like 200 
countries around the globe. That is the FBI that I see.
    Now, do we make mistakes? You bet we make mistakes, just 
like everybody who is human makes mistakes. And when we make 
mistakes, there are independent processes like that of the 
outside, independent inspector general that will drive and dive 
deep into the facts surrounding those mistakes. And when that 
independent fact-finding is complete, we will hold our folks 
accountable, if that is appropriate.
    Mr. Nadler. That is very fine. Thank you very much. I yield 
back.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Ohio, Mr. Chabot, for 5 minutes.
    Mr. Chabot. Thank you, Mr. Chairman. Director Wray, you 
have mentioned that the IG, the inspector general, is 
investigating matters related, for example, to the Clinton 
email server scandal, et cetera. But is it not a fact that the 
IG does not have prosecutorial powers?
    Mr. Wray. Well, under certain circumstances the inspector 
general works with prosecutors to bring criminal cases.
    Mr. Chabot. What about in this case?
    Mr. Wray. Well, this is a matter that is under review at 
the moment, looking into the facts surrounding all those 
decisions.
    Mr. Chabot. So, the bottom line is the IG is looking into 
the matter and investigating it but has no prosecutorial powers 
per se at this time?
    Mr. Wray. The inspector general does not, himself, have 
prosecutorial power, yes.
    Mr. Chabot. Thank you. Thank you. The President of the 
United States, as the chairman mentioned, recently expressed 
the opinion that the FBI's reputation was ``in tatters. Now, as 
someone who sat on this committee--the Judiciary Committee that 
has oversight of the Justice Department and the FBI--for over 
20 years now, such a statement is at least at first shocking. 
But when you look at a few facts, it is understandable why the 
President might make such a statement.
    A former head of the FBI, Robert Mueller, is put in charge 
of an important investigation, and who does he pick to be on 
his team? Well, you would want people who are experienced, and 
smart, and most importantly, unbiased. Because whatever you do 
the result is going to be second-guessed. One side or the other 
is going to be dissatisfied and critical. So, above all things, 
they have got to at least appear to be fair and unbiased. So, 
who does Mueller pick?
    He picks 16 attorneys. Nine of the 16, more than half, have 
given money to the Obama campaign or the Clinton campaign, or 
both. And nobody has given a cent to Donald Trump or his 
campaign. Does that show a lack of bias? Does that show 
fairness? I think the American people can decide that for 
themselves.
    And perhaps even more shocking, we recently learned that 
one of those supposedly unbiased investigators on the Mueller 
team was a guy named Peter Strzok. It turns out Strzok was 
sending out anti-Trump, pro-Clinton messages. So, he ultimately 
got canned from the investigation.
    The question is, how did this guy get on your supposedly 
unbiased team in the first place? When you consider that this 
is the same guy that had a key position investigating the 
Hillary Clinton email server scandal, and apparently had a hand 
in altering the FBI's conclusion that Clinton was gross 
negligent down to extremely careless, so she could escape 
prosecution and thus stay in the race against Donald Trump.
    And now we learn that the number two guy on Mueller's team, 
Andrew Weissmann, is just as biased as Strzok. He made an anti-
Trump communication to the since fired Sally Yates--and the 
depths of this anti-Trump bias on the Mueller team just goes on 
and on. It is absolutely shocking.
    Director Wray, I know all this took place before you took 
the helm at the FBI. But none other than the President of the 
United States has said that an organization that most 
Americans, including myself, hold in the highest esteem, the 
FBI, is in tatters. What can you do--what will you do--to 
restore confidence in the premier law enforcement agency in the 
world?
    Mr. Wray. Congressman, I appreciate the question and the 
reason for the question. It goes to the heart of whether or not 
the Bureau is following its processes, and the rules, and the 
guidelines, and adhering to the independence, and objectivity, 
and professionalism that we all come to expect and respect from 
the FBI. And I think the best way that I can validate the trust 
of the American people in the FBI is to ensure that we bring 
that same level of professionalism, and integrity, and 
objectivity, and adherence to process in everything we do.
    As I said at the beginning, I think it is important that we 
not jump first and ask questions later. So, the second thing 
that I think can be done is when there are fair questions to be 
asked about things. Like whether or not some of the decisions 
made in the 2016 investigation were handled appropriately or 
were subject or based on any kind of improper considerations.
    Rather than have the FBI investigate itself, having an 
outside inspector general do the investigation and report to 
all of us on the findings I think is one of the best things I 
can do. And then, based on that information, I will not 
hesitate to take appropriate action, based on what it is he 
finds.
    Mr. Chabot. Thank you, and I am almost out of time. But let 
me ask you, would you as FBI Director, for example, ever permit 
associates of someone under investigation who themselves could 
also be under investigation sit and interview with the accused?
    Mr. Wray. Well, I will say this, having been, as I said to 
Congressman Nadler, both a line prosecutor and a Justice 
Department official, but then also a defense attorney, that 
that is not my experience as the normal practice. I am also, 
however, reluctant to ever answer questions, as you can 
appreciate, with a hypothetical about whether I would ever do 
something because every investigation is subject to its own 
unique circumstances.
    Mr. Chabot. I certainly understand it because that is 
exactly what happened in the so-called investigation of Hillary 
Clinton. And I yield back my time.
    Chairman Goodlatte. The chair recognizes the gentlewoman 
from California, Ms. Lofgren, for 5 minutes.
    Ms. Lofgren. Well, thank you, Mr. Chairman, and thank you, 
Mr. Director, for being here today, and thanks to you for your 
leadership of this agency and to the men and women who work so 
hard to protect our country and to serve the United States. We 
all appreciate it, even though we might have a few questions.
    My question--my first question--has to do with cyber 
security. You know, there is a rapidly growing threat of cyber 
attacks at all levels, Federal, State, and local business, 
personal level. And I was really concerned to learn in November 
of a report highlighting the FBI's failure to notify multiple 
government officials that they were the target of a Russian 
hacking campaign.
    Now, at least according to this report, 500 people were 
targeted in the past year, including officials as high profile 
as the former head of the Defense Intelligence Agency, the 
former head of the Airforce Intelligence. Many of these people 
still had security clearances or worked for the government.
    So, I would like to know, the FBI, as I understand it--
correct me if I am wrong--of these efforts for at least a year. 
But I am advised it informed only two of the targets. Can you 
explain why these individuals had to learn from the Associated 
Press that they were targets of an aggressive Russian hacking 
effort, and do we know if any classified information was 
stolen?
    Were any members of Congress or congressional staff a 
target? And what mechanisms or additional resources need to be 
put in place so that targeted officials know they are at risk 
when there is a foreign operation such as this?
    Mr. Wray. Well, Congresswoman, I think I am not comfortable 
trying to discuss the specific victim engagements in a 
particular investigation, at least in this setting. But I think 
what I can tell you, which might be helpful in response, is 
that we have very well-established criteria and policies and 
procedures for questions of victim notification in cyber 
matters.
    And the questions--and I probably cannot repeat them to you 
verbatim, but I can give you the gist of them. The questions go 
to things like number one, can we identify the victim? Which in 
a lot of cases, is harder than you might think. Number two, is 
the information that we have at that point in the investigation 
actionable for the victim? Is there something they can do with 
it? You know, could sharing the information actually protect 
somebody, prevent a loss, et cetera? We also look at whether or 
not sharing the information at the time in question would 
potentially compromise or jeopardize an existing investigation 
or reveal sources and methods, which is often the case in these 
kinds of investigations.
    And the last point I guess I would make is that, when you 
have a large number of people, it is much easier for us to 
provide victim notification when we have official, or 
government, or corporate accounts where we can contact the 
chief information security officer and then they can 
communicate to all the people who are on that server. When you 
talk about Gmail accounts and things like that, it gets a lot 
harder because a lot of people's addresses do not have, you 
know, Wray, C-W-R-A-Y, or you know, Lofgren or, you know.
    Ms. Lofgren. Right, but for example, I assume if what you 
are describing is the current practice, when the Democratic 
National Committee was hacked by the Russians, the FBI 
contacted an intern. They never contacted the chairman of the 
DNC. She found out, you know, months later. So, hopefully, 
those types of procedures have been revised. Do you know that?
    Mr. Wray. I think the procedures themselves remain the 
same, and the procedures themselves, I think, are pretty sound. 
But if you think about what they are, they are questions that 
the investigators have to ask in each victim notification 
context.
    Ms. Lofgren. When we had the Attorney General here 
recently, we asked, ``There is an ongoing effort to hack into 
the election system. We know that from various reports.'' And 
the Attorney General said really nothing was going on. That he 
had not been able to pay--I am paraphrasing--he would say, ``It 
is really important. We have not spent enough time on it.''
    I am getting the sense that that is true across the 
government; in fact, we have got systems that were hacked 
within a half an hour at DEFCON by State voting systems. What 
is the FBI doing relative to preserving the integrity of the 
voting structure itself for the next election?
    Mr. Wray. Mr. Chairman, I see my time----
    Chairman Goodlatte. Yes.
    Mr. Wray. May I answer that one? Thank you. Well, I think 
the FBI is actually very focused on this subject. It is one of 
the things that I have tried to insist on upon arriving. We 
have a Foreign Influence Task Force that we stood up that 
brings together both our Counterintelligence Division, our 
Cyber Division, and our Criminal Division, as well as some 
other parts of the Bureau. We are in coordination through that 
Task Force with DHS, which of course has responsibility for a 
lot of the election infrastructure, along with States.
    We are in contact with our foreign partners because, as you 
know, efforts to interfere with elections are occurring in 
other countries as well. And so, by doing that with our close 
relationships with our foreign counterparts, we learn more 
about trade craft methods and things like that. So, we are 
acutely focused on looking out for signs of interference in the 
2018 or 2020 election cycles.
    Ms. Lofgren. If I may, Mr. Chairman? I know my time is up, 
but I would hope that there is an effort of the Bureau to 
communicate with State election officers, who oftentimes have 
been kept in the dark, and I yield back.
    Chairman Goodlatte. The chair recognizes the gentleman from 
California, Mr. Issa, for 5 minutes.
    Mr. Issa. Thank you, Mr. Chairman. Director Wray, a couple 
of questions. One is one that I am sure you are aware of, and I 
am just going to ask it as a ``do you agree'' and it is not 
hypothetical, but it is nonspecific. Do you agree that persons 
should not have their assets forfeited without due process and 
a provable link to criminal activity?
    Mr. Wray. Well, Congressman, it has been a while since I 
looked at the law on asset forfeiture, so I want to be 
careful----
    Mr. Issa. Well, this is a constitutional not a statutory 
question.
    Mr. Wray. Well, I believe that in the context of asset 
forfeiture we should respect the Constitution.
    Mr. Issa. Okay, so it is fair to say that if somebody has 
$10,000 in their van, they have it taken from them and they 
have to sue to get it back, even though they were never charged 
with a crime that would be wrong under due process in the 
Constitution?
    Mr. Wray. Well, again, I am not trying to make this 
difficult but, you know, to me, asset forfeiture questions 
raise a kinds of complicated case law questions about due 
process, et cetera. What I do believe, due process and 
adherence to the Constitution are incredibly important in the 
asset forfeiture context as in elsewhere.
    Mr. Issa. Thank you, Director. Now, switching to matter of 
Peter Strzok. And I had a long time working with your folks on 
the personnel side over at Oversight, where we oversee a lot of 
those things--and I just want to make the record straight now 
that you are in addition to being the chief, from a law 
enforcement standpoint, you are also sort of the ultimate head 
of H.R. for those tens of thousands of people who are working 
so hard for us. Is an FBI agent allowed to have a political 
opinion?
    Mr. Wray. Yes.
    Mr. Issa. Is an FBI agent allowed to communicate that 
political opinion to their wife or even their mistress?
    Mr. Wray. Yes.
    Mr. Issa. So, nothing in a text simply communicating a 
political opinion would be cause for firing or any other action 
under the ordinary rules of the FBI or any Federal person, 
correct?
    Mr. Wray. I think each question would have to be based on 
its own circumstances. Certainly, I can imagine situations as 
you are describing where it would not be, and I can imagine 
situations where it might be.
    Mr. Issa. So, that brings us to a situation now in which an 
individual is key to the question of whether or not there 
should be a full de novo review of the FBI's actions as to 
Hillary Clinton and a decision not to prosecute her, since he 
was actively involved in that.
    So, my question to you is, since it is clear that whatever 
Peter Strzok did was sufficient to have him relieved, something 
that in the ordinary course of simply communicating a political 
opinion, would not cause that and would be inappropriate to 
relieve somebody simply for having a political opinion. Will 
you make available to this Committee upon the Chairman's 
obvious request the ability to see any or all of those 10,000 
texts sufficient to understand why this individual was 
dismissed and how it might be relevant to the question of the 
objectivity of Director Comey's investigation and conclusions?
    Mr. Wray. Well, there is a couple of parts to your 
question, if I might. But first, I want to be clear that the 
individual in question has not been dismissed or----
    Mr. Issa. He has not been dismissed but he has been 
relieved----
    Mr. Wray. But what happened was----
    Mr. Issa [continuing]. From the duties he had, and he is 
now in H.R., which----
    Mr. Wray. Reassigned. He was reassigned away from the 
special counsel investigation, which is different than 
disciplinary action. Second, as to the question of access to 
the text messages. We would be happy to try to work with the 
committee on that. I want to be sensitive to the fact that 
there is an active--very active--outside, independent 
investigation by the inspector general. And the last thing I 
want to do, and the last thing this committee would want to do, 
is somehow compromise or interfere with that.
    So, we will have to go through a process to assess how we 
can be sensitive to those operational considerations while at 
the same time, as we should be, be responsive to Congress and 
this committee and its oversight responsibility.
    Chairman Goodlatte. Would the gentleman yield on that?
    Mr. Issa. Of course, I would yield to the Chairman.
    Chairman Goodlatte. I thank the gentleman for yielding. We 
have been in communication with the inspector general. We very 
much respect the investigation that is taking place there. And 
we have asked the Department of Justice and through them, the 
Federal Bureau of Investigation, for all of the 1.2 million 
documents that have been provided to the inspector general, 
minus those that relate to any particular ongoing grand jury 
investigation.
    Now, I have received back from the Assistant Attorney 
General, Mr. Boyd, a letter indicating that they will make a 
fulsome response to that request. So, I would like, in 
following up with Mr. Issa's question, to hear you tell us that 
you will also provide us with honoring of that fulsome request 
because most of those documents that the Department has 
committed to provide are coming from the Federal Bureau of 
Investigation.
    Mr. Wray. Sir, I do not mean to suggest that we would not 
be fully responsive and cooperative with the committee. I am 
simply saying that we would work with the Justice Department in 
making sure that we have considered all the appropriate factors 
and we need to make sure that we are not doing something in 
terms of unintended consequences with ongoing investigations. 
But we have no desire to frustrate the very legitimate 
oversight request of this committee.
    Mr. Nadler. Will the chairman yield for a moment?
    Chairman Goodlatte. Yes, I yield to the gentlemen.
    Mr. Nadler. Thank you. I just want to ask the director, can 
this kind or does this kind of document request of the 
inspector general on an ongoing investigation, could it 
interfere with that investigation? Or is it proper to respond 
fulsomely? I mean, what are the limitations here?
    Mr. Wray. Well, I think a lot of that requires, as the 
chairman referenced, us to make sure that we are touching base 
with the inspector general, since it is his investigation and 
not ours. If the inspector general is comfortable with the 
information being provided and it is not going to interfere 
with or impede his investigation, then that is one very, very 
significant consideration that can be put to the side.
    Mr. Nadler. But if he is not----
    Mr. Wray. I can commit that our staff will work with the 
Justice Department staff and your staff to make sure that we 
are doing everything we possibly can to be responsive while at 
the same time making sure that we are not in some way 
jeopardizing or compromising an ongoing investigation or 
revealing something about, you know, a grand jury matter or 
anything like that.
    Chairman Goodlatte. We asked for it, minus grand jury 
material. Obviously, it takes some time to do that. Mr. Boyd 
committed to a date of January 15, and he is going to require 
your cooperation. So, we want to have your assurance that 
cooperation in meeting that date will be forthcoming. We would 
tend to follow up with further letters on clarifying this.
    But it is very important that we have this information very 
quickly. The inspector general is completely cooperative with 
us and his investigation, but they are not his documents. They 
are the FBI and the Department of Justice. So, the question is 
not directed at him, it is directed to the Department, and we 
need to have full response.
    Mr. Wray. We intend to be fully cooperative with both this 
committee and the inspector general.
    Chairman Goodlatte. I robbed the gentleman of California a 
bit of his time, so I am going to----
    Mr. Nadler. I have to say I yield back.
    Mr. Issa. I will be brief, Mr. Chairman.
    Chairman Goodlatte. The gentleman is recognized for an 
additional minute.
    Mr. Issa. Thank you. Director, at this time, as far as you 
know, you are not asserting or believe there is any privilege 
as to those documents? Is that correct?
    Mr. Wray. Well, I have not reviewed the however many 
million documents that----
    Mr. Issa. I am only saying at this time you know of no 
privilege?
    Mr. Wray. I am not aware of it, but I really have not asked 
the question yet, to be honest.
    Mr. Issa. Okay. I appreciate that. And then, lastly, 
since--in the case of Peter Strzok and other statements, 
because this information was not made available to us at a time 
in which your predecessor, Mr. Comey, specifically said he was 
breaking precedent and being open and transparent as to the 
investigation of Hillary Clinton's taking from government 
possession documents under the Federal Records Act and 
classified documents--do you agree that a de novo review at 
some point by someone is clearly warranted as to whether or not 
the decision not to prosecute was appropriate?
    Mr. Wray. Well, Congressman, I think what I would say to 
that is there is what I would consider a de novo, outside, 
independent review by the inspector general into whether or not 
decisions made--including charging or not charging decisions--
in the matter that you are referring to, were based on any kind 
of improper considerations or political considerations. And 
depending on what the inspector general finds, there could be 
any range of possible steps that we or others would have to 
take in response to those findings.
    Mr. Issa. So, it is not a de novo review by the inspector 
general but a review of whether or not impropriety occurred 
and, as such, a de novo review of that decision not to 
prosecute Hillary Clinton would be the question?
    Chairman Goodlatte. The time of the gentleman has expired.
    Mr. Wray. I think I can----
    Chairman Goodlatte. The director may answer.
    Mr. Wray. Yeah, I think I can briefly respond, which is I 
think of the inspector general's investigation as de novo in 
one sense, which is that it is objective, arm's length, no skin 
in the game, if you will. But you are right, the inspector 
general is not second-guessing prosecutorial decisions and 
things like that.
    However--however--the inspector general is looking at the 
very important question of whether or not improper political 
considerations factored into the decisionmaking. If he were to 
conclude that that is what happened, then I think at that point 
we are in a situation where we have to assess what else might 
need to be done to unring that bell, if you will.
    Mr. Issa. Thank you. I yield back.
    Chairman Goodlatte. The chair recognizes the gentlewoman 
from Texas, Ms. Jackson Lee, for 5 minutes.
    Ms. Jackson Lee. I thank the chairman, and I welcome you, 
Director, and I thank you for your service.
    I am holding in my hand right now the mission of the FBI 
which reads, ``The mission of the FBI is to protect and defend 
the United States against terrorists and foreign intelligence 
threats, to uphold and enforce the criminal laws of the United 
States, and to provide leadership in criminal justice services 
to Federal, State, municipal, and international agencies and 
partners, and to perform these responsibilities in a manner 
that is responsive to the needs of the public and is faithful 
to the Constitution of the United States.'' Do you adhere to 
that mission?
    Mr. Wray. Yes, ma'am.
    Ms. Jackson Lee. Does that mission include your responding 
to the political bias and comments of politicians?
    Mr. Wray. I do not think it is part of my responsibility to 
respond to opinions and biases, if they are out there by 
politicians.
    Ms. Jackson Lee. Then forgive me, for the time period that 
I have. If Director Comey made a statement that there would be 
no prosecution against a former Secretary of State, would that 
statement have been reviewed by the Department of Justice?
    Mr. Wray. Well, Congresswoman, I think that--how that whole 
decisionmaking was handled----
    Ms. Jackson Lee. But is that--let me----
    Mr. Wray [continuing]. Is part of what the inspector 
general is looking at.
    Ms. Jackson Lee. No. Is that the protocol? You indicated 
that you report to the Deputy Attorney General, he reports to 
the Attorney General. And so, in the normal protocol, a 
statement that you would have made, or any other FBI Director 
would have made--Director Mueller, when he was the FBI 
directly--reviewed by that protocol? Is that the likely 
protocol?
    Mr. Wray. Likely protocol, sure.
    Ms. Jackson Lee. Let me move on to indicate that it was 
stated earlier that the former Secretary disclosed top secrets 
into emails and asked the question whether that should be 
investigated. The present President disclosed top secret 
classified information to the Russian Ambassador and foreign 
minister in the Oval Office. Is the FBI investigating those 
disclosures?
    Mr. Wray. Congresswoman, I would not confirm or suggest the 
existence of any ongoing investigation.
    Ms. Jackson Lee. Just a few years ago, this committee 
considered and eventually moved on an obstruction of justice an 
element in an impeachment proceeding. Do you believe--yes or 
no--can a sitting President commit obstruction of justice?
    Mr. Wray. Congresswoman, legal questions, especially legal 
questions regarding impeachment, are not something that I am 
equipped to answer in this setting as an FBI Director.
    Ms. Jackson Lee. This is separate and apart from 
impeachment. Do you believe that a sitting President can commit 
obstruction of justice?
    Mr. Wray. That also is a legal question. And I would defer 
to the lawyers on that one. I am a now reformed lawyer, as an 
FBI Director.
    Ms. Jackson Lee. I understand. Is it your opinion that if a 
sitting President commits a crime, then it becomes a noncrime?
    Mr. Wray. I am sorry. I could not hear you.
    Ms. Jackson Lee. If a sitting President commits a crime, 
does it become a noncrime?
    Mr. Wray. Same answer.
    Ms. Jackson Lee. Let me move on to the idea of the quote 
from the President of the United States. And do you believe 
that the FBI's reputation is in tatters? What impact did that 
have on the FBI? If you would move quickly; I know you gave a 
long assessment. But what impact would that have on the FBI if 
that is a statement made nationally and also to the world, that 
the FBI is in tatters?
    Mr. Wray. Congresswoman, the agents, analysts, and staff of 
the FBI are big boys and girls. We understand that we will take 
criticism from all corners, and we are accustomed to that. I 
believe, personally, based on what I have seen that our 
reputation with our counterparts in law enforcement--Federal, 
State, and local--our counterparts in the intelligence 
community, our counterparts around the world, the communities 
that we serve, the victims that we protect, the judges we 
appear before, the scientists we interact with in the 
laboratory services space, for example----
    Ms. Jackson Lee. I have another question.
    Mr. Wray. My experience has been that our reputation is 
quite good.
    Ms. Jackson Lee. Thank you very much. I want it to be 
assured to the American people that Andrew Weissmann and Peter 
Strzok, who were removed from their posts, that that will not 
sabotage Bob Mueller's investigation into the Trump campaign's 
collusion with Russia. Their removal.
    Mr. Wray. I am sorry. I----
    Ms. Jackson Lee. That their removal--Peter Strzok and Mr. 
Weissmann--will not sabotage Mueller's investigation into 
Russian collusion. Their removal from the investigation.
    Mr. Wray. I am not aware of any effort by anyone to 
sabotage--or less, even--Special Counsel Mueller's 
investigation.
    Ms. Jackson Lee. Thank you. Let me ask the question on the 
Clack identity extremists. We have had some conversations. Let 
me indicate to you that a report that was done August 14th, 
2017 said that during the same period of this report, they 
found that rightwing extremists were behind nearly twice as 
many incidents--115--and just over a third of these incidents 
were foiled than those who might be considered Islamists or 
might be considered others. There is a Black extremist identity 
report.
    Again, I ask the question, would you see that that report 
be clarified, and would you take notice that the convictions 
dealing with violence are more for the--looking for my chart--
are more dealing with Islamist and leftwing, and less for 
rightwing? So, rightwing extremists are not being prosecuted. 
Black identity extremists, as declared by the FBI, are, in 
fact, subjected to a report.
    And if I might say, an FBI that is not diverse, that I know 
that we would like to work on to make it diverse, but they are 
not being prosecuted the way rightwing. Rightwing has the 
lowest amount of prosecutions in the United States. Percent of 
domestic terror incidents involving Federal prosecution, the 
rightwing is the lowest. The leftwing is prosecuted 100 
percent.
    Ms. Jackson Lee. Can you explain that?
    Chairman Goodlatte. The time of the gentlewoman has 
expired; the director is permitted to answer the question.
    Mr. Wray. Look, Congresswoman, I have to look at the 
statistics that you saw. I can tell you that in our domestic 
terrorism program, that the last time I looked, we have about 
50 percent more white supremacists--the category we would call 
white supremacist investigations--than we do in the Black 
identity extremist category.
    The other point I would make is that in all of these 
context, in the domestic terrorism arena, that we only 
investigate if there are three things: one, Federal criminal 
activity, credible evidence of a Federal crime; two, credible 
information suggesting an attempt to use force or violence; and 
three, those things in furtherance of a political or social 
goal. If we do not have that, we do not investigate, it does 
not matter whether they are rightwing, leftwing, or any other 
wing.
    Ms. Jackson Lee. Thank you, Mr. Chairman. I would like a 
report back on that question, please. Thank you very much.
    Chairman Goodlatte. The gentleman from Iowa, Mr. King, is 
recognized for 5 minutes.
    Mr. King. Thank you, Mr. Chairman. And thank you, Director, 
for your testimony here today, and your service to our country. 
A number of curiosities I come here with this morning, as all 
of us do. And one of them is that in the FBI interview and 
investigation of General Flynn, are there notes from those 
interviews? Do you know?
    Mr. Wray. Number one, I do not know, but beyond that, I 
would not want to comment on an ongoing investigation being run 
by the special counsel.
    Mr. King. And in a normal circumstance like that, would you 
expect there to be notes in any other case?
    Mr. Wray. It is our normal practice to memorialize 
interviews.
    Mr. King. And do so by notes?
    Mr. Wray. Well, it usually get reflected in what is called 
an FBI-302. How agents go from the process of this spoken 
conversation to the 302 varies. And then, there are other 
settings where it is a different kind of format.
    Mr. King. When one agent sits someone down for that kind of 
interview, notes would be normal in most cases. But there also 
would be an audiotape recorded?
    Mr. Wray. Actually, I think an audiotape would be unusual.
    Mr. King. Or a videotape would fit that same category----
    Mr. Wray. Likewise, also unusual.
    Mr. King [continuing]. Of unusual? Thank you. And--but you 
do not know whether they are available for General Flynn. I 
bring this up because of the interview of Hillary Clinton. And 
when we interviewed some of the members of the former 
administration that were familiar with the interview, the 
matter, we use their word--and I will call it now the 
investigation of Hillary Clinton--and we learned here in this 
room that there were no notes available to us, that there were 
no audio and no video available to us. And in fact, they had 
not been made available to the Attorney General, Loretta Lynch, 
and neither had they been made available or at least reviewed 
by Former Director Comey.
    And it was curious to me that a heavy decision in one of 
the highest investigations in the history of this country, the 
people who made the decision on it did not review the 
materials. They just simply received a briefing of the people 
that they had appointed to do the investigation.
    I guess I will ask you--you are going to tell me you do not 
have an opinion on that--would you conduct similar 
investigations in a similar manner? Would not that sound off an 
alarm bell to you if that were going on within your department 
today?
    Mr. Wray. Well, I think what I would say is that I think 
investigations are best conducted by taking appropriate 
memorialization of an interview. What I will also say is that 
in the particular investigation, I think your question goes to 
whether or not the handling of the investigation was skewed or 
tainted in some way by improper political considerations. And I 
think that is what the outside inspector general is looking at, 
and I am looking forward to seeing what he finds.
    Mr. King. And I believe the question has already been 
asked, about the principals that were in the room during that 
investigation, and one as counsel, and at the same time being a 
subject of the investigation. I will pass that along and put 
some more information out here before this committee.
    In October 2015, President Obama referenced the lack of 
intent on the part of Hillary Clinton, that she would not 
jeopardize national security, would never intend to do so. That 
was October of 2015. April of 2016, he made a similar 
statement, that Hillary Clinton was an outstanding Secretary of 
State. She would never intentionally put America in any kind of 
jeopardy. We also noticed that the language has been moved from 
``gross negligence'' to ``extreme carelessness.'' That 
carelessness was also language that President Obama used in his 
public discussions of the matter.
    Now, I am going to make the point here that it looks to me 
that the get-out-of-jail free card that Hillary Clinton 
received is rooted clear back in Barack Obama and his 
introduction of the word ``intent'' or ``lack of intent'' as a 
requirement for 18 U.S.C. 793(f). And that has been brought up 
here.
    And so, I would ask you again, surely you have examined the 
definition and the distinction between ``extreme carelessness'' 
and the ``gross negligence'' that is within the statute. You 
are really going to tell us today that you do not have an 
opinion on that distinction?
    Mr. Wray. ``Gross negligence'' is the language in the 
statute, I believe. But I believe also that almost anybody who 
grabbed a thesaurus would say that gross negligence and 
extremely careless are pretty darn close to each other. I will 
also say that whether or not the handling, including the 
handling of the statement that Director Comey issued is exactly 
what the inspector general is investigating. As he should. It 
is better that the FBI not investigate itself on this, and I 
think that is what the inspector general is doing. So, that 
would be my response to that question.
    Mr. King. And it does do a clarification to your earlier 
response, and I appreciate that. I would like to follow-up with 
this, that there is a report that there are investigations 
going on, on 27 potential leakers within the FBI.
    And I want to also ask if the unmasking that was ordered by 
the executive branch of government that took place shortly 
before the election--and I will say September, October of 2016 
and on throughout the transition period, until the 
inauguration, and even beyond, perhaps--of President Trump: has 
any investigative committee in Congress had access to the full 
list of those unmasking requests? And how much of that is 
classified?
    Mr. Wray. Congressman, I do not know what access committees 
have had to unmasking requests, specific committees. I would be 
happy to have my staff take a look at that. I will say that 
unmasking requests get made not just by parts of the 
intelligence community, but congressional committees themselves 
often ask for unmasking so that they can digest the 
information.
    A lot of times, concerns--legitimate concerns--about 
unmasking are really almost more about, to me, a problem that I 
take very seriously, which is leaks of information. And that is 
something that we have now a dedicated unit, since I have taken 
over, that is focused specifically on that.
    We have also recently issued a new media policy that clamps 
down and tightens up the rules about interaction with the media 
inside the FBI. And that is something that I think we take 
very, very, very seriously.
    Mr. King. Well, thank you. Just, in conclusion, we know as 
much about the conversation on the Phoenix tarmac, between 
President Clinton and Loretta Lynch, as we do about the 
interview of Hillary Rodham Clinton within the FBI.
    Chairman Goodlatte. The time of the gentleman has expired.
    Mr. Wray. Thank you. I yield back.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Tennessee, Mr. Cohen, for 5 minutes.
    Mr. Cohen. Thank you, Mr. Chair. Director Wray, we in 
Memphis have been blessed with good FBI agents, and I believe 
the FBI has an outstanding reputation and has probably, other 
than some laws with J. Edgar Hoover, historically had a great 
reputation.
    In Memphis, I had a situation where there was a county 
employee named Mickey Wright, who was murdered. The FBI worked 
on that case and saw to it that justice was found, and he got a 
life sentence. And it was the FBI that did that.
    They recently arrested a man named Costello, Lorenzo 
Costello, and got him for 15 pounds of meth--which is the drug 
you ought to be looking at, drugs like opioids, and meth, and 
crack, and heroin, not so much cannabis--and $4,000, and had 10 
people arrested and convicted. And they also got Larry Bates, 
who swindled a lot of people in church out of millions and 
millions--I think $68 million--and got him 22 years in jail.
    So, the FBI has done a great job. After the President 
said--which I disagree with--that the FBI was in tatters, 
Director Comey tweeted, ``I must let the American people know 
the truth: The FBI is honest. The FBI is strong. And the FBI is 
and always will be independent.'' Did you welcome his tweet, 
and do you agree with it?
    Mr. Wray. Well, I believe that description of the FBI 
aligns with my own description. As my folks would tell you, I 
am not really a Twitter guy. I have never tweeted, do not have 
any plans to tweet, and do not really engage in tweeting.
    Mr. Cohen. You have been at the FBI long enough to know the 
reputation of previous Directors. What was the reputation of 
Director Comey within the agents of the FBI?
    Mr. Wray. Well, my experience with Director Comey was 
that--when I worked with him, which was back in the early 
2000s--was that he was a smart lawyer, a dedicated public 
servant, and somebody that I enjoyed working with. We have not 
stayed in as much touch over the last several years. And of 
course, there is now the ongoing investigation. But my 
experiences have all been positive.
    Mr. Cohen. Do you know the reputation of Director Mueller 
within FBI agents and FBI lore?
    Mr. Wray. My experience has been that Director Mueller is 
very well respected within the FBI.
    Mr. Cohen. You were interviewed by President Trump before 
you were appointed, is that not the case?
    Mr. Wray. Yes. Not exclusively, but yes.
    Mr. Cohen. What questions did he ask you?
    Mr. Wray. My recollection is the conversations were more 
about my background. And, in particular, we talked a lot about 
my desire to join the war on counter-terror, as somebody who 
had been in the Justice Department and in FBI headquarters on 
the day of 9/11 itself, and having met--I talked a lot about my 
interaction with the victims of 9/11, and my last law 
enforcement experience, and my desire to return to public 
service to keep people safe.
    Mr. Cohen. He did not ask you any questions about Russia, 
or about Mr. Comey, or Mr. Mueller, or any other questions like 
that at all?
    Mr. Wray. No.
    Mr. Cohen. Good. Very good. The FBI concentrates on 
situations that presently are a threat to the United States or 
to safety of the public. Is that correct?
    Mr. Wray. Yes.
    Mr. Cohen. So, the issues concerning the current President 
would be more important to you than the issues concerning the 
person who he defeated, who is now not in office. Would that be 
an accurate assessment?
    Mr. Wray. Well, I am reluctant to try to compare one matter 
to another in that way. What I would tell you is that we take 
any effort to interfere with our election very seriously. I 
take any effort to mishandle classified information very 
seriously.
    Mr. Cohen. Well, thank you. Benjamin Franklin said that he 
gave the American people a Republic, ``if you can keep it.'' 
You are the heir to the legacy of Griffin Bell, having worked 
at King & Spalding. And you have an excellent reputation, if 
you can keep it. You will be tested. You will rise to the task, 
but you will be tested. I yield back the balance of my time.
    Chairman Goodlatte. The chair thanks the gentleman and 
recognizes the gentleman from Ohio, Mr. Jordan, for 5 minutes.
    Mr. Jordan. Thank you. Director, was Agent Peter Strzok the 
former deputy head of counterintelligence at the FBI?
    Mr. Wray. I do not remember his exact title, but I believe 
that is correct.
    Mr. Jordan. And he is the same Peter Strzok who was a key 
player in the Clinton investigation, the same Peter Strzok who 
interviewed Cheryl Mills, Huma Abedin, participated in 
Secretary Clinton's interview, and he is also the same Peter 
Strzok who now, we know, changed Director Comey's exoneration 
letter--changed the term ``gross negligence''--which is a 
crime--to ``extreme carelessness.'' Is that the same guy?
    Mr. Wray. Well, Congressman, I do not know every step that 
the individual you mentioned was involved in. But certainly, I 
know that he was heavily involved in the Clinton email 
investigation.
    Mr. Jordan. Thank you. And is this the same Peter Strzok 
who was a key player in the Russian investigation and the same 
Peter Strzok who was put on Mueller's team, Special Counsel Bob 
Mueller's team?
    Mr. Wray. I certainly know that he was working on the 
special counsel's investigation. Whether or not he would be 
characterized as a key player on that investigation, that is 
really not for me to say.
    Mr. Jordan. Okay. And the same Peter Strzok that we 
learned, this past weekend, was removed from the special 
counsel team because he exchanged text messages with a 
colleague at the FBI that displayed a pro-Clinton bias. Is that 
accurate?
    Mr. Wray. Yes.
    Mr. Jordan. We are talking about the same guy.
    Mr. Wray. Yes.
    Mr. Jordan. Okay. Well, here is what I am not getting. 
Peter Strzok is selected to be on Mueller's team, after all 
this history, put on Mueller's team, and then he is removed for 
some pro-Clinton text messages.
    I mean, there are all kinds of people on Mueller's team who 
are pro-Clinton. There has been all kind of stories. PolitiFact 
reported 96 percent of the top lawyers' contributions went to 
Clinton or Obama.
    But Peter Strzok, the guy who ran the Clinton 
investigation, interviewed Mills, Abedin, interviewed Secretary 
Clinton, changed ``gross negligence''--a crime--to the term 
``extreme carelessness,'' who ran the Russian investigation, 
who interviewed Mike Flynn, gets put on Mueller's team. And 
then he gets kicked off for a text message that is anti-Trump.
    If he kicked everybody off Mueller's team who was anti-
Trump, I do not think there would be anybody left. There has 
got to be something more here. It cannot just be some text 
messages that show a pro-Clinton, anti-Trump bias. There has 
got to be something more and I am trying to figure out what it 
is.
    But my hunch is, it has something to do with the dossier. 
Director, did Peter Strzok helped produce and present the 
application to the FISA court to secure a warrant to spy on 
Americans associated with the Trump campaign?
    Mr. Wray. Congressman, I am not prepared to discuss 
anything about a FISA process in this setting.
    Mr. Jordan. We are not talking about what happened in the 
court; we are talking about what the FBI took to the court, the 
application. Was he involved in taking that to the court?
    Mr. Wray. I am not going to discuss, in this setting, 
anything to do with the FISA court applications.
    Mr. Jordan. Well, let's remember a couple things, Director, 
and I know you know this. We have all been made aware of this 
in the last few weeks. Let's remember a couple things about the 
dossier.
    The Democrat National Committee and the Clinton campaign--
which we now know were one and the same--paid the law firm, who 
paid Fusion GPS, who paid Christopher Steele, who then paid 
Russians to put together a report that we call a dossier, full 
of all kinds of fake news, National Enquirer garbage.
    And it has been reported that this dossier was all dressed 
up by the FBI, taken to the FISA court, and presented as a 
legitimate intelligence document, that it became the basis of 
granting a warrant to spy on Americans. And I am wondering if 
that actually took place. It sure looks like it did.
    And the easiest way to clear it up is for you guys to tell 
us what was in that application and who took it there.
    Mr. Wray. Congressman, our staffs have been having 
extensive interaction with both intelligence committees on our 
interaction with the FISA court, and I think that is the 
appropriate setting for those questions.
    Mr. Jordan. Here is what I think, Director Wray. I think 
Peter Strzok, head of counterintelligence at the FBI; Peter 
Strzok, the guy who ran the Clinton investigation, did all the 
interviews; Peter Strzok, the guy who was running the Russian 
investigation at the FBI; Peter Strzok, Mr. Super Agent at the 
FBI, I think he is the guy who took the application to the FISA 
court.
    I mean, think, if this happened, if you had the FBI working 
with a campaign--the Democrats' campaign--taking opposition 
research, dressing it all up, and turning it into an 
intelligence document, and taking it to the FISA court so they 
could spy on the other campaign: if that happened, that is as 
wrong as it gets.
    And you know what? Maybe I am wrong. You can clear it all 
up. You can clear it all up for all of us here, all the 
Congress who wants to know--and frankly, all of America who 
wants to know. We sent you a letter two days ago; just release 
the application. Tell us what was in it. Tell us if I am wrong. 
But I do not think I am. I think that is exactly what happened. 
And if it did, it is as wrong as it could be. And people who 
did that need to be held accountable.
    Mr. Wray. Congressman, we will not hesitate to hold people 
accountable after there has been an appropriate investigation--
independent and objective--by the inspector general, into the 
handling of the prior matter. And based on that, I will look at 
all available remedies, depending on what the facts are and 
when they are found.
    As to the access to the dossier, that is something that is 
a subject of ongoing discussion between my staff and the 
various intelligence committees.
    Mr. Jordan. There is nothing prohibiting you, Director. Is 
there anything prohibiting you from showing this committee what 
was presented to the FISA court? The application you all put 
together at the FBI, that was presented to the FISA court, is 
there anything preventing you from showing us that?
    Chairman Goodlatte. The time of the gentleman has expired. 
The director can respond.
    Mr. Wray. I do not believe that I can legally and 
appropriately share a FISA court submission with this 
committee.
    Mr. Jordan. I am talking about what the FBI put together, 
not what the court had. What you took there. The process put 
together, what you presented, what you took to the court.
    Mr. Wray. When I sign FISA applications, which I have to do 
almost every day of the week, they are all covered with a 
classified information cover. So, that is part of why I will 
not be discussing it here.
    Mr. Jordan. Director, is it likely that Peter Strzok played 
a part in the application presented to the FISA court?
    Chairman Goodlatte. The gentleman's time has expired. 
However, I do want to follow-up on your last response to the 
gentleman. This committee, the House Judiciary Committee, has 
primary jurisdiction over the Foreign Intelligence Surveillance 
Court. So, any request for documents coming to any part of the 
Congress should include the House Judiciary Committee.
    And if it is classified in any way, shape, or form, it can 
be provided to us in a classified setting. But that is 
information that we are very much interested in and very much 
want to receive.
    Mr. Jordan. A question to the chairman. Yeah, I do not 
think there is anything prohibiting the FBI from giving us what 
they use to put together what was taken to the FISA court. That 
is what we are asking for. And there is nothing prohibiting him 
from doing that.
    Chairman Goodlatte. I do not think there is either. The 
time of the gentleman has expired, however. Do you care to 
respond to that, Director Wray?
    Mr. Wray. No. I think I have covered it.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Georgia, Mr. Johnson, for 5 minutes.
    Mr. Johnson of Georgia. Thank you. Director Wray, you have 
led a distinguished career as an assistant U.S. attorney for 
the Northern District of Georgia, Atlanta. We are homeboys on 
that part. Justice Department associate, Deputy Attorney 
General, even serving as an Assistant Attorney General heading 
up the criminal division of the entire Justice Department, and 
then as a litigation partner at the international and premier 
law firm of King & Spalding.
    You headed up the special matters and government 
investigations practice group, which involved sophisticated 
government investigatory matters, involving your clients. And 
also, you even represented Governor Christie during the 
Bridgegate scandal successfully, I presume, at this point.
    So, you have a long career in criminal law and in matters 
involving government. And I find it hard to believe that you 
have not pondered the question of whether or not a President 
can be guilty of obstruction of justice. You have pondered that 
question, have you not?
    Mr. Wray. To be honest, it is really not something have 
pondered. That is a question that involves complicated 
questions of separation of powers. And I have----
    Mr. Johnson of Georgia. Well, do you----
    Mr. Wray. This committee will not be shocked to learn, 
quite a lot on my plate as it is. So, I do not have a whole lot 
of time to do a lot of pondering.
    Mr. Johnson of Georgia. Well, let me just ask you the 
question. Is it your belief that a sitting President can be 
guilty of obstructing justice?
    Mr. Wray. That is a legal question that I have not tried to 
evaluate.
    Mr. Johnson of Georgia. All right. Thank you, sir. Within 
the last few days, the House Intelligence Committee has 
requested documents from you and other government officials 
from the so-called Steele Dossier. To date, you and other 
government officials have refused to comply with the production 
of these documents. Why have you failed to produce these 
documents?
    Mr. Wray. We are having extensive interaction with multiple 
committees about these issues. They involve complicated 
questions, not just of classification. They also affect ongoing 
investigations, in particular the special counsel's 
investigation. And in particular, in many instances, we are 
dealing with very, very dicey questions of sources and methods, 
which is the lifeblood of foreign intelligence and for our 
liaison relationships with our foreign partners.
    Mr. Johnson of Georgia. Thank you. Director Wray, earlier 
this year the FBI opened an investigation into the 
vulnerabilities of the State of Georgia's election systems. 
Thereafter, Georgia's citizens filed a lawsuit over the 
security--or lack thereof--of Georgia's elections systems, 
which were then outsourced by Georgia's Secretary of State to 
the Center for Election Systems.
    Four days after that lawsuit was filed, Georgia election 
officials wiped clean or deleted the election data on CES 
servers. One month later, two additional servers were wiped 
clean.
    So, evidence that is critical to the issues raised in the 
lawsuit and to the FBI investigation, perhaps, that information 
has been destroyed. Can you confirm that the FBI obtained 
copies of the data on Georgia's election servers prior to the 
data being destroyed by Georgia election officials?
    Mr. Wray. Congressman, I cannot discuss what the FBI may or 
may not have obtained in the course of any particular 
investigation in this setting.
    Mr. Johnson of Georgia. Can you confirm that there is an 
ongoing investigation into this matter?
    Mr. Wray. Again, I do not want to confirm or deny----it is 
important that I put both those words in there--the existence 
of a specific investigation.
    Mr. Johnson of Georgia. Would you be willing, upon your 
investigation's completion--if there is an investigation--would 
you be willing to provide this committee with an update on this 
issue?
    Mr. Wray. If there is information that we could 
appropriately share on the topic that you are answering about, 
I would be happy to see if there is something we can do to be 
helpful and responsive to the committee.
    Mr. Johnson of Georgia. Thank you, sir. The Department of 
Justice recently admitted in court that they are treating the 
President's disturbing and combative tweets as ``official 
statements of the President of the United States.''
    Considering the DOJ's position and the President repeatedly 
demanding that the FBI investigate his political opponent, do 
you consider these tweets to be orders that the FBI must 
follow?
    Mr. Wray. That is a legal question, and I will be guided by 
the lawyers on that one.
    Mr. Johnson of Georgia. So have your lawyers given you an 
opinion as to whether or not the President's tweets are 
official statements?
    Mr. Wray. Well, without discussing, you know, attorney-
client communications, I am still following the ordinary course 
of business, in terms of what orders we follow.
    Mr. Johnson of Georgia. Sir, you have given me every 
objection for not answering the questions that is in the books, 
and I appreciate it. Thank you so much. I yield back.
    Chairman Goodlatte. The time of the gentleman has expired. 
The chair recognizes the gentleman from Texas, Mr. Poe, for 5 
minutes.
    Mr. Poe. Thank you, Chairman. Thank you, Mr. Wray, for 
being here. My background, I was a former prosecutor; I was a 
judge for 22 years. During that time, in the criminal courts, I 
had always thought that the FBI had a stellar reputation.
    In the last few years, here, in Congress, I do not have 
that belief any longer, and I think your predecessor did a lot 
to damage the reputation of the FBI. I do not think that the 
FBI has come back around with that stellar reputation, and that 
is unfortunate.
    You gave us lots of statistics in the opening statement 
that you made, about what the FBI is doing. I want to talk 
about FISA, secret courts issuing secret warrants, supposedly 
to go after terrorists overseas.
    A recent Washington Post article made the comment, or 
stated, that when information is seized on bad guys, there is 
the so-called seizure of information that belongs to Americans. 
``Inadvertent,'' as it is called by the legal community.
    And in that database are Americans, and non-Americans. And 
the Washington Post article says, ``Many of them''--in this 
database--``were Americans. Ninety percent of the account 
holders whose communications were collected under 702 were not 
the intended targets, and about half of the surveillance files 
were on Americans.''
    So, you have this database that is supposed to go after the 
bad guys, and you get that information. But inadvertently, you 
pick up all of this information on Americans, who have nothing 
to do with terrorism. How many times has this database has 
queried--I call the word ``searched''--to find out if there are 
identifiers on Americans?
    How many times has the FBI or the intelligence agency, or 
government, done that?
    Mr. Wray. Congressman, I do not have numbers for you here 
today. I will tell you that the database that we are talking 
about is not bulk collection on anyone, first. Number two, it 
is a database of foreigners reasonably believed to be located 
overseas, for foreign intelligence purposes. That is what 
collected by the NSA----
    Mr. Poe. If I may interrupt you----
    Mr. Wray [continuing]. The FBI----
    Mr. Poe. Reclaiming my time. But I am talking about the 
inadvertent seizure of information based on this idea, ``We are 
going after terrorists.'' How many people have been queried, 
searched, in that big database? That is my question.
    Mr. Wray. And Congressman, I do not have the statistics for 
you. I can give you one number that may be helpful to you in 
answering your question, which is that of what the NSA 
collects, that the FBI only receives--much less queries 
against--about 4.3 percent of what the NSA collects. And the 
individuals that are incidentally collected, the U.S. person 
information that is incidentally collected, are people who are 
in communication with foreigners who are the subject of foreign 
intelligence investigations.
    So, like, an ISIS recruiter, if there is a U.S. person 
picked up, that person would have been an email contact, for 
example----
    Mr. Poe. I understand.
    Mr. Wray [continuing]. With an ISIS recruiter.
    Mr. Poe. I understand that. I am not talking about 
terrorism. I am talking about the inadvertent, where there is a 
communication with an American, and that American's information 
is seized and then later searched by the intelligence community 
or the FBI.
    The Washington Post said 90 percent of those seizures were 
on nonterrorists. Do you agree or disagree with that statistic?
    Mr. Wray. I have not reviewed the Washington Post article.
    Mr. Poe. All right. This committee has asked for a long 
time to give us that information, because we are now coming up 
with FISA reauthorization.
    My opinion is that the FBI and the intelligence service is 
back-walking that information because they know FISA comes up 
at the end of this year, and then Congress should just re-
authorize it without knowing how many Americans are searched.
    The right of privacy in the Fourth Amendment is guaranteed. 
I am sure you believe this. But it is being abused and stolen 
by government--in this situation--on what is happening to 
Americans. And the search of that database, whether it is the 
first query--which is a search--or a later specific search of 
that communication, is being done in secret by our government. 
And Congress, the Judiciary Committee, is entitled to that 
information.
    And I will disagree with what you said about, ``Well, it is 
classified. I cannot tell you that.'' That is ridiculous. 
Congress is entitled. Members of Congress are entitled to every 
classified piece of information that is in your possession. 
That is our position. That is our right as Members of Congress. 
So, government cannot have classified information and say, ``We 
are not going to tell you because it is classified.''
    We are entitled to it in some type of setting. So, I 
totally disagree with you on that. I hope you could provide us 
that information before we reauthorize FISA. Otherwise, I am 
going to vote against FISA. And I will yield back to the 
chairman.
    Mr. Wray. Mr. Chairman, may I briefly respond?
    Chairman Goodlatte. The director may respond.
    Mr. Wray. First off, as to classified information, we are 
engaged with the intelligence committees, and we share 
classified information with the intelligence committees all the 
time. And then, under certain circumstances, as the chairman 
noted, we are also sharing classified information with the 
authorizing committees, like the two judiciary committees.
    As to the question of abuses, every court--every court--to 
have looked at the way in which section 702 is handled, 
including the querying, has concluded that it is being done 
consistent with the Fourth Amendment, as has the independent 
Privacy and Civil Liberties Oversight Board.
    And there has been no abuse found in the 702 program, 
despite oversight by the inspector general, multiple sections 
of oversight within the executive branch, oversight by the 
Federal FISA court, and oversight by the intelligence 
communities.
    Mr. Poe. And I disagree with the secret courts on their 
interpretation of the Fourth Amendment, as does many other 
members of Congress. Thank you, Mr. Chairman.
    Chairman Goodlatte. The chair thanks the gentleman, whose 
times has expired.
    I just want to reiterate, as with the other request, this 
is a reasonable request by the gentleman from Texas. It has 
been made in varying forms by this committee in a bipartisan 
way in the past, and we have not yet received the answers to 
those questions. So, I would again point out that this 
committee has oversight responsibility of both the Foreign 
Intelligence Surveillance Court and the Federal Bureau of 
Investigation.
    And we have a very nice skiff, where this all can be 
discussed in a classified setting, where documents can be 
examined in a classified setting, and we think that you need to 
be forthcoming on this. So, thank you, Director.
    The chair recognizes the gentleman from Florida, Mr. 
Deutch, for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman. Director, I thank you 
for being here today and thank you for your service to our 
country.
    Director, as you know, what separates the United States 
from oligarchies and despots around the world is the American 
commitment to the rule of law. That means that powerful people 
do not get to write their own rules. It means that the 
President does not direct law enforcement to target political 
enemies or to go easy on political friends; and it means that 
judges, police officers, and the FBI agents are not intimidated 
by demands, or tweets, or whispers coming out of the White 
House.
    Director Wray, I want to commend your commitment to the 
independence of the FBI and to the rule of law. As to the 
President's tweet over the weekend, that the reputation of the 
FBI is in ``tatters,'' the worst in history--which sadly seems 
to be shared by many of my colleagues on this committee--I 
would like to just take a moment to thank the women and men of 
the FBI for their hard work, for the work they do investigating 
threats of terrorism, public corruption, organized crime, 
cybercrime, white collar crime. I would like to thank you and 
them for the work they do to combat violent crime. And I would 
like to thank you for the work they do to enforce our civil 
rights laws.
    I also want to thank your agents that are working with the 
Mueller investigation, an inquiry that has already delivered 
serious charges against the President's campaign manager and a 
guilty plea from the President's National Security Advisor.
    Back in September, you reviewed the classified reports 
compiled by U.S. intelligence agencies that concluded that 
Russia interfered in the 2016 election and tried to tilt it in 
Donald Trump's favor. You said, at the time, ``I have no reason 
to doubt the conclusions the hardworking people who put that 
together came to.'' Do you still have that view?
    Mr. Wray. I still believe, fundamentally, that the 
conclusions of the ICA area accurate.
    Mr. Deutch. And the FBI continues to focus on the threats 
posed by Russian interference in future elections?
    Mr. Wray. Yes. As I was mentioning earlier, the special 
counsel, of course, is looking backwards. We are looking 
forward. We are focused on trying to make sure that any effort 
by any foreign power to interfere with our elections is 
something that we can try to get in front of, investigate, and 
prevent as best we can.
    Mr. Deutch. When the special counsel looks backwards on 
what happens, it is important that special counsel be able to 
do his job. There is legislation, bipartisan legislation, that 
has been introduced that, as I understand it, codifies existing 
DOJ regulations that a special counsel may only be removed for 
misconduct, dereliction of duty, incapacity, conflict of 
interest, or other good cause. Is that how you understand the 
DOJ regulations?
    Mr. Wray. I am not intimately familiar with the exact 
wording of the regulations, but I have no reason to doubt your 
summary of them.
    Mr. Deutch. Which is why, Mr. Chairman, we ought to be 
doing exactly that. We have sat here for almost 2 hours and 
have heard nary a word from my Republican colleagues about 
Russian interference in our election or about the efforts of 
the Mueller investigation to get to the bottom of it.
    And based on the talking points that we have heard that 
sound so eerily familiar to those coming from the President of 
the United States, it is more apparent than ever that this 
bipartisan legislation to protect the special counsel, to 
ensure that the special counsel can do his job and can pursue 
ultimately the truth, wherever it takes him, has to be brought 
up in this committee--must be.
    I would urge my colleagues, who are as concerned about the 
Russian interference in our last election and the potential 
Russian interference in future elections, who are as concerned 
as Director Wray and the FBI, and so many of us are to let us 
protect the special counsel.
    Director Wray, you also said in September--and I quote--
now, you said that you saw no evidence of White House 
interference in the probe, the Mueller probe. And you said, ``I 
can say very confidently that I have not detected any whiff of 
interference with that investigation.'' I want to make sure 
that that continues to be your position.
    Mr. Wray. Certainly, Congressman. Since I have been on the 
job, there has been no effort, that I have seen--going forward, 
here--any effort to interfere with Special Counsel Mueller's 
investigation.
    Mr. Deutch. Director Wray, if the President of the United 
States fired Special Counsel Mueller, would that constitute 
interference with Special Counsel Mueller's investigation?
    Mr. Wray. You know, I am not going to engage in a 
discussion of hypotheticals. It would obviously depend on the 
circumstances surrounding the firing.
    Mr. Deutch. If the President fired the special counsel 
without satisfying any of the requirements that currently are 
in DOJ regulations, without doing it for cause, but only 
because he was concerned about the special counsel getting too 
close to him, or his closest advisors, or his family--I think 
the answer to that is clear to anyone who is watching today, 
and that is exactly why, at this moment, Mr. Chairman, we have 
to protect the special counsel. There is legislation to do it.
    History is being written at this moment, and what it is 
seeing is efforts to obscure the very reality that is taking 
place in this country, which is the President's efforts to try 
to avoid the special counsel getting too close to him. We can 
do something about that to protect this investigation on behalf 
of the American people, and I do hope that we will, and I yield 
back.
    Chairman Goodlatte. The time of the gentleman has expired. 
The gentleman from Texas, Mr. Gohmert, is recognized for 5 
minutes.
    Mr. Gohmert. Thank you, Mr. Chairman. And Director, we 
appreciate you being here. I was so thrilled when I first got 
to question Director Comey. I did not realize what direction 
that would take. But you are taking an FBI department that was 
weakened by Mueller's time. And I am not asking for a comment 
on that. But I know, from his 5 year up-or-out policy, as the 
Wall Street Journal pointed out, he got rid of thousands and 
thousands of years of experience, I came to believe, because he 
wanted younger people that were more ``yes'' men.
    And so, he got rid of people that could have advised him 
against some of the poor decisions he made, whether it is 
squandering millions of dollars on software that did not work 
and would not work, and people he got rid of knew that. But all 
kinds of things. And I came to understand, as a young 
prosecutor who knew the law better than some of the older 
lawyers, that there is something to be gained from experience.
    And so, we lost thousands of years of experience, and Comey 
took over a weakened FBI because of what Mueller did. And 
Mueller made a lot of mistakes he would not have otherwise. So, 
that was rather sad.
    Oh, and I will be glad to have my friend across the aisle 
know that I am outraged by the government's collusion with 
Russia. I was outraged. I did not think President Bush and our 
State Department went far enough in condemning the invasion 
into Georgia by Putin and the Russians, but they did take some 
strong actions to make known their discomfort and their upset 
over that.
    And of course, the response by the Obama administration was 
to send over a plastic reset button with the wrong Russian word 
on it. But they made clear, nonetheless, that ``We are not 
bothered by your invasion of Georgia. You can invade anybody 
you want.'' That was the message the Russians took. And I am 
really outraged at the allowing of Russia to buy our uranium, 
even though the FBI and the Justice Department had already 
found out that they were trying to get our uranium illegally 
with bribes, and violating the law, and that has not been 
addressed. So, yes, I am outraged.
    But as you are aware, Deputy Director McCabe was involved 
in highly charged political cases that have been controversial 
due to his political leanings. So, I want to ask you if you are 
aware of any other senior FBI executives that are aligned with 
McCabe's political views. Yes or no? Are you aware of any other 
senior FBI executives?
    Mr. Wray. I am not aware of any senior FBI executives who 
are allowing improper political considerations to affect their 
work with me right now.
    Mr. Gohmert. Okay. Let me ask you this. I am going to ask 
about specific executives, some of whom were promoted by McCabe 
within the last few years. So, my question to you, Director, is 
are you aware of any of the following people openly aligning 
themselves with the political bias expressed by McCabe or 
openly speaking against this administration? First, Carl 
Ghattas. Yes or no?
    Mr. Wray. My experience with Executive Assistant Director 
Ghattas has been very positive, and he has been a complete 
professional in all my interaction with him.
    Mr. Gohmert. But are you aware of him openly aligning 
himself with the political bias that McCabe expressed?
    Mr. Wray. Well, I am going to quarrel a little bit with the 
premise of your question about Deputy Director McCabe.
    Mr. Gohmert. All right.
    Mr. Wray. But as far as Executive Assistant Director 
Ghattas, as I said, he has been a complete professional. And by 
that, I mean to include----
    Mr. Gohmert. Have you heard him openly----
    Mr. Wray [continuing]. Apolitical in interaction with me.
    Mr. Gohmert [continuing]. Aligning himself with political 
bias against the Trump administration?
    Mr. Wray. No.
    Mr. Gohmert. Mike McGarrity?
    Mr. Wray. No.
    Mr. Gohmert. Same question. And I will take McCabe out of 
it. Are you aware of him openly aligning himself with political 
bias against the Trump administration?
    Mr. Wray. No.
    Mr. Gohmert. Josh Skule.
    Mr. Wray. No.
    Mr. Gohmert. Larissa Mincer.
    Mr. Wray. I actually do not know who that is.
    Mr. Gohmert. Okay. All right. Thank you. Fair enough. Bryan 
Paarmann.
    Mr. Wray. No.
    Mr. Gohmert. All right. Thank you. And I know you appointed 
Bryan Paarmann to the New York field office, counter-terrorism 
division, so it is important that we have fair-minded people.
    And there has never been a requirement that anybody not be 
able to vote or have political beliefs, just that they not let 
them affect their output. Well, I got a lot more to ask. But 
thank you for your work. I want to be your best friend as long 
as you stay on the straight and narrow. Thank you, Director.
    Mr. Wray. Thank you, sir.
    Chairman Goodlatte. The chair recognizes the gentlewoman 
from California, Ms. Bass, for 5 minutes.
    Ms. Bass. Thank you very much, Mr. Chair, and thank you, 
Mr. Director, for being here with us today. And I also want to 
thank you for the time that you spent a week or so ago with 
representatives of the Congressional Black Caucus, following-up 
on the black identity extremists.
    And I would like to ask you questions following up from 
that meeting. We raised a number of concerns; the idea that 
that document was distributed to law enforcement nationwide. 
And also the concern that the message that that sends to many 
local law enforcement agencies and how you distinguish between 
what might be problematic behavior, and also what is people 
just exercising their First Amendment rights.
    And so, one of the questions that we asked you that I 
wanted to follow-up on is if you have learned any more about 
what criteria, evidence, methodology that was used to even come 
up with that category of ``Black identity extremists?''
    Mr. Wray. Congresswoman, as I think I may have mentioned in 
our meeting, the analysis that occurred there involved--which 
is our standard practice for one of these products, and we 
issue them across all of our various program categories--is to 
take both so-called open source information, which is what the 
intelligence community would call it----
    Ms. Bass. Right.
    Mr. Wray [continuing]. And our own ongoing investigations, 
of which there are many, and mesh the two together, with other 
information, and try to make sure that the information that we 
are speaking on, that those two things align. As to your 
concerns--and we discussed them, and I hope--I found the 
conversation constructive hearing your concerns and I hope you 
did too. We take respect for the First Amendment very 
seriously. And in this context, as in every other domestic 
terrorism context, we want to be very clear with people, and 
all the American people, that we do not investigate rhetoric, 
ideology, opinion----
    Ms. Bass. Right.
    Mr. Wray. No matter who might consider it extremist. What 
we do investigate is when rhetoric, ideology, opinion takes 
that next step into the category of Federal crime, and a 
particular violence.
    Ms. Bass. Exactly. And I did find our conversation 
constructive. There did seem to be several things that I know 
you were going to follow-up on. And so, you were clear about 
the three categories that were reasons for investigation. And 
one of the things that I mentioned to you is the difference--
and we talked about this--the difference between an 
investigation and surveillance. So, you have the surveillance 
activity that may or may not lead to an investigation.
    And so, what a number of activists are complaining about 
around the country is the increase of surveillance, being 
visited by FBI agents, having FBI agents come to their house, 
leaving their business cards. And so that, you know, was a 
concern. And what was that really based on? So, these are 
activists that are protesting because of community-police 
relations, because of killings that might have happened, a 
variety of reasons. Some of this--it might be the, you know, 
protests that have taken place in Baltimore, in several of the 
cities around the country.
    And so, I want to know if there is any additional 
information that you have found from that? What is happening in 
your offices around the country, where activists are 
complaining of this?
    Mr. Wray. After our meeting, I did farm out a whole number 
of follow-up questions to people. I will confess that I have 
been fairly busy lately and have not yet gotten the results of 
those, but we will continue to look into those questions.
    Ms. Bass. Okay. We really need to do that, because let me 
just explain to you that one of the things that all of us would 
like to take place in our communities is for our communities to 
cooperate with law enforcement.
    But at this point in time, to have FBI agents come by 
people's house after peaceful demonstrations, I know I cannot 
recommend that they speak to the FBI. I have to tell them that 
they cannot speak to the FBI. Because if you do say something 
and you innocently say something that might not be true, then 
that person feels as though they might be entrapped, because 
they could be charged with lying to an FBI agent.
    And so, to find the information out, as soon as possible, I 
think, is really important. I want our community to 
participate, but we cannot participate if it is not really 
clear, where the FBI is coming from. So, many organizations 
have called for the withdrawal of the BIE designation, in 
particular, NOBLE; which is the National Organization of Black 
Law Enforcement Executives.
    And so, in light of the public outcry, including from law 
enforcement, I want to know if part of the follow-up from our 
meeting is if you are considering retracting that category of 
Black identity extremists, and then sending our clarification 
to law enforcement around the country that that category really 
does not exist.
    Mr. Wray. I think what we are doing right now is what we 
would normally do with any intelligence assessment, which is we 
continue to evaluate the data as it rolls in.
    The intelligence assessment in question was a snapshot in 
time. And as we get more information that comes in from all 
corners, considering all sorts of information, I expect that we 
will update that information in an appropriate way. And 
depending on what the information shows, it could be anything 
from a reaffirmance, to a retraction, to a clarification. It 
just depends on what the information shows.
    Ms. Bass. Okay.
    Mr. Wray. But the one thing we will not do is withdraw 
intelligence assessments based on public outcry. I am sure you 
can understand why that is not an approach that ultimately will 
stand us----
    Ms. Bass. Okay. Well, I want to continue to be in contact 
with you for this, because I think one of the points that we 
made to you--and I really hope you take it seriously--is the 
harm that that document is causing. Because it sends a chill to 
activists around the country, and my big concern is that local 
law enforcement will misinterpret that and will clamp down on 
people exercising their First Amendment right.
    Chairman Goodlatte. The time of the gentlewoman has 
expired. The chair recognizes the gentleman from South 
Carolina, the chairman of the Oversight and Government Reform 
Committee, Mr. Gowdy, for 5 minutes.
    Mr. Gowdy. Thank you, Chairman Goodlatte. Director Wray, 
somewhere today, a group of our fellow citizens will be asked 
if they could be fair, impartial, free of bias before they sit 
in judgment of others on a jury--even in the smallest of 
courtrooms, where there are nothing but empty seats and no 
television cameras.
    Somewhere today, those selected to sit in judgment of their 
fellow citizens will be told that they must wait until the very 
last witness testifies and the last piece of evidence has been 
introduced before they can even begin to deliberate on an 
outcome.
    So, if our fellow citizens should be impartial and free of 
bias, and if our fellow citizens must wait until the last piece 
of evidence is introduced--the last witness is called--before 
they can reach a verdict, a conclusion, and outcome, then I do 
not think it is asking too much that the Department of Justice 
and the FBI do the same thing.
    There is no Member of Congress who holds the Department and 
the Bureau in higher esteem than I do. There are others who 
hold you in high esteem, but I would take second place to no 
one. And I have defended the Department and the Bureau when, 
frankly, it was pretty damn lonely to do so.
    When my Democrat friends were asking that Jim Comey be 
prosecuted for a Hatch Act violation about this time last 
year--they now want him canonized--but this time last year, 
they wanted him prosecuted for a Hatch Act violation. When your 
predecessor sat right where you are sitting, it was embroiled 
in a fight with this little tiny start-up company called Apple. 
I was on the side of Bureau.
    When there are calls for special counsel, even today, I 
reject them because I trust the women and men of the Department 
of Justice and the Bureau, the professionals that we hired, to 
do their job. And the vast majority of line prosecutors and 
line agents are exactly what you described in your opening 
statement. They are exactly what you described. But 
unfortunately, the last 2 years that have not been good years 
for the Bureau and they have not been good years for the 
Department.
    We had an Attorney General meet with the spouse of a target 
of an investigation on the tarmac, and asked that an 
investigation be called something other than investigation, but 
be called a ``matter.'' We have had an Attorney General recuse 
himself from the largest, most significant investigation 
currently in his office.
    We had the director of the FBI appropriate a major charging 
decision away from the Department of Justice, because he was 
concerned that the public would not have confidence if the 
Department of Justice handled that decision themselves. We had 
an FBI Director write two politically-volatile letters weeks 
before an election.
    We had an FBI Director memorialize conversations he had 
with the President of the United States because he did not 
trust the President's recall of those conversations.
    And I think what frustrates some folks is when Director 
Comey wanted special counsel for President Trump, he leaked one 
of those memos. When he did not have confidence in Loretta 
Lynch, we did not hear a word about it. There were no leaks 
that prompted special counsel when he did not trust Loretta 
Lynch. There were leaks when he decided he did not trust 
President Trump.
    We have had an Acting AG fired; had the director of the FBI 
fired. And we cannot manage to find prosecutors who have not 
donated to presidential candidates. Out of all the universal 
prosecutors that you used to work with; that I used to work 
with, and Johnny Ratcliffe used to work with. We cannot find a 
dozen and that have not donated to major political candidates.
    And now we have Special Agent Strzok. It was the inspector 
general--not the Department of Justice, not the Bureau who 
found these texts. It was the inspector general and I share 
your confidence in his objectivity; I share it. But it should 
not have been the inspector general that had to bring this to 
our attention 12 months after it happened. And that same Agent 
is the one who reportedly interviewed Secretary Clinton in an 
interview that you and I have never seen conducted that way 
before. To have potential witnesses and potential targets sit 
in on a witness interview.
    I appreciate your professionalism and your unwillingness to 
want to say how unprecedented that is, so I am not going to ask 
you--I will just tell you. It is unprecedented. And that same 
Agent is alleged to have been the one that changed the 
language.
    You are right; they are synonyms. ``Extremely careless'' is 
a synonym for ``grossly negligent'' which begs the question, 
``Why change it?'' But you and I know why it was changed. It 
was changed because the Statute says, ``grossly negligent.'' 
And if you are not going to charge someone, God knows you do 
not want to track the Statute with the language that you use. 
That would be stupid.
    What is also stupid is to do that memo 2 months before you 
have interviewed the target. That memo was drafted before the 
last witness was interviewed. Director, it was drafted before 
the target of the investigation was even interviewed which 
makes people wonder was the decision made before the interviews 
were finished?
    And now, we believe that that same agent is also involved 
in the investigation into President Trump in his campaign and 
may have interviewed Michael Flynn. That has not been confirmed 
and we do not know what role, if any, he took in the 
preparation of documents for court filings.
    So, I am going to say this because I am out of time and I 
appreciate the chairman's patience with me. You have a really 
important job. When all else fails in this country, we want to 
be able to look to the FBI. We want to be able to look to the 
Department of Justice. All the other institutions we trust, 
including Congress, appear to be broken. We want to be able to 
look to you. It has been a really bad 2 years.
    I am counting on you to help answer our questions to 
Congress, our fellow citizens' questions. But I am more than 
anything counting on you to go back to work for that 
blindfolded woman holding a set of scales. It really does not 
give a whit about politics. That is the FBI that I want.
    Chairman Goodlatte. Gentleman has expired.
    Ms. Jackson Lee. Mr. Chairman?
    Chairman Goodlatte. The director's----
    Ms. Jackson Lee. Mr. Chairman, I----
    Chairman Goodlatte [continuing]. Going to respond.
    Mr. Wray. Just a 30 second response. First, let me say 
Congressman Gowdy, I am well aware of your longstanding support 
for the Bureau and the Department, and I want you know we 
appreciate it.
    And second, I want to assure you and every other member of 
this committee that there is no scenario under which would have 
taken the President's nomination, if I were not committed to 
the kind of independent, impartial, objective, and professional 
pursuit of the facts. I would not be here if I were not 
committed to that; and I can give this committee that 
commitment.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Louisiana, Mr. Richmond, for 5 minutes.
    Mr. Richmond. Director Wray, let me thank you for being 
here, but also thank you for the meeting we had a couple weeks 
ago.
    Let me ask you a question. Because as I think about our 
approach to opioid addiction and how we combat this awful 
crisis, I also have to think back to our response to the crack 
epidemic and how we responded to the crack epidemic, which was 
mandatory minimum sentences which led to mass incarceration.
    But one thing and a specific example is that when we found 
grandchildren in public housing that may have had crack cocaine 
or cocaine, we filed eviction notices with housing authorities 
to remove them from public housing. That is not what we are 
doing with opioid addiction and people that we find in 
possession of opioids.
    Do you see and are you concerned about a double standard in 
our approach to opioid; in our response to crack? And should we 
address that in criminal justice reforms so that we treat 
substance abuse addiction as the mental health crisis that it 
is and that the President declared with his opioid crisis?
    So, the question is, should we go back and look at how we 
treated crack and reform our old drug laws to better represent 
the mental health crisis?
    Mr. Wray. Well, Congressman, questions of sentencing 
reform, criminal justice reform, I think are better directed to 
the other side of the street of the Justice Department than to 
the FBI where we, largely, focus on trying to do the 
investigations and the intelligence assessments.
    But I will tell you that in the context of the opioid 
epidemic which is upon us now, that it has become a 
sufficiently big scourge on all communities in the United 
States that it is clearly going to require a whole of 
government type response that involves not just criminal 
justice steps; progressive investigation and prosecution, but 
all sorts of other outreach, mental health, treatment.
    There might have been a time when we could have 
investigated and prosecuted our way out of the problem, and 
that is clearly going to be a major part of it, but it has 
become too big now. We are going to have to do something that 
is much more holistic and multidisciplinary.
    Mr. Richmond. And, you know, life experiences mean a lot. 
And I heard my colleagues on the other side talk about how 
great the FBI has been. And how it is held in high esteem, 
except for the past 8 years under President Obama; and for my 
friend, Congressman Gowdy, he said the last 2 years.
    It just amazes me how we just missed the whole COINTELPRO 
history of the FBI. And that has to be one of its darkest 
moments when it did illegal surveillance and initiated 
propaganda in the media to discredit civil rights activists who 
were trying to make the country a better place. So, let me just 
go there for a second.
    First of all--and I know that we just released a batch of 
documents from the Church Committee on JFK's assassination--but 
have we released and made public, in your knowledge, all of the 
documents and actions of the FBI during those COINTELPRO years?
    Mr. Wray. Congressman, I do not actually know what 
information, specifically, has been provided on the COINTELPRO 
era. I know that hearings were conducted, books have been 
written, lots and lots of discussion has been had about it.
    Certainly, I will tell you that I think I--and everybody in 
the Bureau--recognizes the COINTELPRO problems, and that means 
different things to different people as one of the darker 
moments in the FBI's history. And it is something we are not 
proud of, but it also is something that we have learned from. 
And during some of the same time period, there is a lot that 
the FBI did that we can all be proud of in terms of aggressive 
investigation of various civil rights abuses among other 
things.
    So, we are human. We make mistakes. We have things that we 
have done well. We have things we have done badly, and when we 
have done things badly, we try to learn from them.
    Mr. Richmond. And I would just hope that we expose as much 
as we can, so we can learn from it. But who was the director of 
the FBI that initiated COINTELPRO and all of those programs 
that were the darker moments of the FBI's history?
    Mr. Wray. Well, I believe Director Hoover was in place at 
the time.
    Mr. Richmond. And who was your building named after?
    Mr. Wray. Director Hoover.
    Mr. Richmond. Some of the darkest times of the FBI history 
under Hoover and the building is named after him. With that, 
Mr. Chairman, I yield back.
    Mr. Wray. Mr. Chairman?
    Chairman Goodlatte. The director is permitted to respond.
    Mr. Wray. I would just say that Director Hoover, like most 
of us mortals, did some things that he is probably not proud 
of, wherever he is right now. And some things that we are all 
should be all very grateful to him for, in terms of building 
the FBI into the organization it is today. So, like most 
people, he is complicated.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Idaho, Mr. Labrador, for 5 minutes.
    Mr. Labrador. Thank you, Mr. Chairman. Director Wray, I 
really appreciated your opening statement to this committee. 
You and the great men and women of the FBI have an important 
and very difficult job.
    That is why during the time of the Clinton investigation, I 
actually refused to question the integrity of your predecessor. 
In fact, I spent dozens of town hall meetings as a Republican 
defending the integrity of your predecessor and disagreeing 
with some of my constituents about the things that they were 
saying. But now, it has become pretty clear to me that my 
belief in the integrity of your predecessor was misplaced.
    Could you please tell us what the letters FBI stand for? We 
know it stands for Federal Bureau of Investigation; but it also 
stands for something else.
    Mr. Wray. We consider FBI to stand for the words, 
``Fidelity, Bravery, and Integrity.''
    Mr. Labrador. Mr. Director, I have begun to have serious 
doubts about some in the FBI. About serious doubts about the 
integrity of some of the highest levels of the FBI because of 
actions taken by your agency over the 2 years. And that is so 
disappointing because your agency does such important work, as 
you expressed in your opening statement and that is to make 
America safe and secure and it depends upon most of the work 
that you do.
    It is a matter of public record that Hillary Clinton's 
aids, Cheryl Mills and Huma Abedin, blatantly lied to the FBI 
investigators about the existence of Hillary Clinton's private 
emails. And we know that an FBI agent, Strzok, investigated 
both Clinton and Trump. In fact, Strzok was present at many of 
these interviews.
    Director, were Cheryl Mills, Huma Abedin, or any other 
Clinton associates ever charged by the FBI for lying to them?
    Mr. Wray. Congressman, the handling of the Clinton email 
investigation, including all the other participants in that 
matter is the subject of an outside independent investigation 
which is looking into that.
    Mr. Labrador. I understand that is a simple question. Is 
what--was anybody charged for lying to the FBI?
    Mr. Wray. No charges were filed against anybody in that 
investigation.
    Mr. Labrador. How many Clinton advisors were granted 
immunity during the email server investigation?
    Mr. Wray. I do not know the answer to that.
    Mr. Labrador. But there were several Clinton advisors who 
were granted immunity. Is that not correct?
    Mr. Wray. I believe that is true, but I do not know the 
answer to that sitting here right now.
    Mr. Labrador. So, we have recently heard that Strzok was 
official who signed the documents that officially opened the 
Russia Trump collusion inquiry. How many Trump administration 
advisors have been granted immunity during the Russia special 
counsel investigation?
    Mr. Wray. For questions about the special counsel 
investigation, I would refer you to special counsel. I do not 
know the answer to that question.
    Mr. Labrador. So, if we want to believe in the integrity of 
the FBI, explain to me why the double standard? When you have 
agents and people who work for the Clinton administration who 
were granted immunity, or who lied to the FBI and they are not 
charged. Why is there a double standard today?
    Mr. Wray. Congressman, we in the FBI are committed to not 
having a double standard.
    Mr. Labrador. But you have not been committed over the last 
2 years. So, are you doing something to correct that?
    Mr. Wray. As I think I said to one of your colleagues, in 
every meeting that I go to since taking over as Director, I try 
to emphasize the importance of following the rules; following 
the process; following the law; following the Constitution; 
being faithful to our core value and not allowing political 
biases to affect our decisionmaking.
    Mr. Labrador. I only have----
    Mr. Wray. And where there have been situations where there 
is----
    Mr. Labrador. I only have----
    Mr. Wray [continuing]. Question there is an inspector 
general investigation.
    Mr. Labrador. Okay, briefly--one more time. I only have one 
more minute left. So can you tell me definitively, whether 
Michael Flynn violated the Logan Act?
    Mr. Wray. That is not a question I can answer.
    Mr. Labrador. I actually believe that the Logan Act is 
unconstitutional, by the way. But if we are not going to have a 
double standard, can you tell me whether the FBI is 
investigating former President Barack Obama for violating the 
Logan Act?
    He has been spending the last couple of weeks travelling 
the whole world complaining about the foreign policy of the 
United States. Is the FBI currently investigating the former 
President of the United States for violating the Logan Act?
    Mr. Wray. Congressman, as you may know, we will not confirm 
or deny the existence of any ongoing investigation.
    Mr. Labrador. Do you think we should investigate minority 
leader, Pelosi, for meeting with Assad, despite objections 
from, then sitting, President Bush and Vice President Chaney in 
2007?
    Mr. Wray. Again, I am not going to comment on speculate 
about whether or not there is----
    Mr. Labrador. Let's not use----
    Mr. Wray [continuing]. An active investigation.
    Mr. Labrador [continuing]. An elected official. Should we 
investigate Dennis Rodman who went to meet with the North 
Koreans? Should we investigate him for that?
    Mr. Wray. Same answer.
    Mr. Labrador. All right. I want you to help me bring back 
the integrity of the FBI to the United States. I love the FBI. 
I even considered as a young attorney to join the FBI. I grew 
up on the show. And I have great love for the work that men and 
women of the FBI do. And I hope that we can do something over 
the next 2 years that will counteract what happened over the 
last 2 years of the----
    Mrs. Roby [presiding]. The gentleman's time has expired. 
The gentleman from Rhode Island is recognized for 5 minutes.
    Mr. Cicilline. Thank you. Thank you, Mr. Director for your 
service and for the extraordinary service of the men and women 
at the FBI who are serving our country and who do important and 
dangerous work and risk their lives often in that work.
    You hold, in particular, a very solemn responsibility to 
protect the integrity and the reputation of the FBI. And you 
are clearly proud, as you should be, to lead this agency. And I 
think we are seeing an administration which will continue to 
challenge the independence of the FBI and in many ways, our 
country is relying on your strength and your integrity to 
resist that. So, I thank you.
    I want to just begin with a couple of short questions. One 
is, there has been a lot of question about obstruction of 
justice. You are, of course, aware obstruction of justice is a 
criminal statute in our Federal law?
    Mr. Wray. Yes.
    Mr. Cicilline. And there is no exemption in it for the 
President, or any other person in the United States? It applies 
to every person in this country?
    Mr. Wray. I am not aware of any statutory----
    Mr. Cicilline. Exemption?
    Mr. Wray [continuing]. Copout.
    Mr. Cicilline. Okay. And I would next like to turn to the 
issue of hate crimes. There is Republican report from June of 
this year that identified at least 120 Federal agencies that 
are not uploading information to the FBI's National Hate Crimes 
database.
    And I am wondering whether or not the FBI has reached out 
to these agencies, so far? If so, how many? Whether your plan 
is to reach out to all of them so that this information is 
being properly collected? And I would be delighted to work with 
you on ways that Congress can help support that work.
    Mr. Wray. Thank you, Congressman. We do believe strongly 
that more and complete data is really essential to having an 
informed dialogue on that topic, just like in other areas of 
law enforcement. As you may know, providing that kind of 
information is generally voluntary on the part of the State or 
locality. We do have all manner of outreach to various agencies 
to try to encourage them to provide information.
    Mr. Cicilline. This is actually 120 Federal agencies. These 
are not local; these are Federal agencies.
    Mr. Wray. Oh, you are only asking about the Federal 
agencies?
    Mr. Cicilline. Yeah.
    Mr. Wray. Right.
    Mr. Cicilline. So it is not voluntary. I mean, they are, 
they are required to do this reporting.
    Mr. Wray. Right. So we have interaction with all sorts of 
Federal agencies to try to collect their information.
    Mr. Cicilline. Right. My question really is, I hope you are 
putting together a plan now to reach out to those 120 agencies 
to be sure that they are complying with this reporting 
requirement. I am happy to work with you in ways that we can 
help support that.
    Next, I would like to turn to the NICS system, the 
background check system. The Pentagon's Office of inspector 
general just released a report identifying serious deficiencies 
in the reporting system with officials in all four branches 
failing to submit final disposition reports in 31 of those 
cases. And we have seen a recent incident where that allowed 
someone who should not have been able to buy a gun, to buy a 
gun and kill a great number of people. Has the Bureau begun to 
coordinate with the Department of Defense to fix this very 
serious problem?
    Mr. Wray. Yes, Congressman, we have been in sort of active 
engagement with the Department of Defense. And already a very 
significant amount of new records have come to the FBI, and the 
number of transactions have already been denied as a result.
    Mr. Cicilline. Thank you, Mr. Director. Under Federal law, 
Director Wray, those individuals who are fugitives from justice 
cannot lawfully possess a firearm. After a 2016 inspector 
general's report, the Obama administration agreed that the FBI 
would use ATS interpretation of the term ``fugitives from 
justice,'' an individual with an outstanding warrant who has 
travelled across State lines.
    Since taking office, Attorney General Sessions says narrow 
this definition to include only those who have fled across 
State lines to avoid prosecution for a crime, or to avoid 
giving testimony in a criminal proceeding. This change resulted 
in the removal of almost 500,000 entries from the NICS 
database; with only 758 fugitives remaining. Do you agree with 
the narrowing of this definition? And do you think Congress 
should take steps to define ``fugitive from justice'' to avoid 
this kind of action?
    Mr. Wray. A couple things. First off, I actually think the 
change occurred before the change in administration. And there 
was a letter written by the Justice Department under the prior 
administration to Congress notifying them of the change, and 
essentially inviting legislative attention to the issue.
    Mr. Cicilline. But do you do you agree with that?
    Mr. Wray. Then the second--as I said, the FBI's position 
for years and years have been that the fugitive from justice 
interpretation did not require crossing of State lines. I 
gather there has been a legal interpretation, which I will 
defer to the lawyers on.
    I will tell you, though, that as to the 500,000 point, 
there has been a little bit of confusion in the reporting on 
that. It removed it from one part of the NICS database, but it 
is still in the State's warrants database.
    Mr. Cicilline. Okay, my final question, Mr. Director. Last 
month, a Las Vegas shooting used a bump stock device to 
accelerate the reign of the assault weapon discharged that 
killed 58 people and injured about 500. Do you support the 
bipartisan effort in Congress to ban bump stocks?
    Mr. Wray. I have not reviewed the legislation, but 
obviously we are deeply concerned about the bump stock issue.
    Mr. Cicilline. Do you generally support a prohibition?
    Mr. Wray. Well, the FBI does not normally take positions 
unless we, sort of, provide operational assessment and I have 
worked for the Justice Department on that.
    Mr. Cicilline. Thank you. And Madam Chair, just before I 
yield back. I just want to say, Mr. Director, that the rule of 
law is really the guardian of our democracy and the President 
and this administration are going to continue to test our 
commitment as a Nation to this. And you are going to play a 
very critical role in defending that; and our country is really 
depending on you. And I trust that you will continue to uphold 
the integrity of the FBI and the rule of law in this country 
because the very foundations of our democracy depend on it. And 
with that, I yield back.
    Mrs. Roby. The gentleman's time is expired. The gentleman 
from Florida, Mr. DeSantis, is now recognized for 5 minutes.
    Mr. DeSantis. Welcome, Director. Secretary Clinton's emails 
were backed up on a cloud by DATO, Inc. and they are now 
subject to an order by U.S. District Judge Moss in case brought 
by judicial watch. My question is, why did the FBI not search 
the DATO device in its possession for Hillary's deleted emails?
    Mr. Wray. I believe decisions made in the course of the 
Clinton email investigation are all the subject of the----
    Mr. DeSantis. But why----
    Mr. Wray [continuing]. The inspector general's review.
    Mr. DeSantis. Do you know why the FBI did not disclose that 
such device was in its possession?
    Mr. Wray. I do not know the answer to that.
    Mr. DeSantis. Okay. Was Attorney General Lynch's airplane 
cabin monitored when she met with Bill Clinton on 27 June 2016 
on the tarmac in Phoenix?
    Mr. Wray. I do not know the answer to that and I think that 
the tarmac meeting, I think, is part of, or related to the 
inspector general's outside and independent investigation.
    Mr. DeSantis. Do you know how the meeting came about 
though? It is not, like, you are just bump someone in the 
shopping mall that you met on a private plane or a plane. Do 
you, do you have any insight into that?
    Mr. Wray. I would not say that I have any constructive 
insight to offer to that. I have read some of the same 
newspaper coverage that you have. But as I said, that whole 
episode is wrapped up in the inspector general's ongoing 
investigation.
    Mr. DeSantis. How did the Russia investigation start? Did 
Peter Strzok start it?
    Mr. Wray. I am not aware of who started the investigation 
within the FBI.
    Mr. DeSantis. Was it started because the dossier was 
presented to somebody in the FBI?
    Mr. Wray. I do not have the answer to that question.
    Mr. DeSantis. Okay. Can you get the answer to that question 
for us?
    Mr. Wray. Well, if there is information that we can provide 
without compromising the ongoing special counsel investigation, 
I am happy to see what there is that we can do to be 
responsive.
    Mr. DeSantis. Was Peter Strzok involved in coming up with 
the conclusion that the FBI reached about Russia, whatever 
involvement they had when they issued a report after the 
election?
    Mr. Wray. That is a question that goes right to the heart 
of the special counsel investigation, and I do not think it 
would be appropriate for me to speculate or comment on that.
    Mr. DeSantis. So here is, I think, the problem that you 
have. I think you are walking into a contempt of Congress. I 
mean, the idea that we cannot conduct oversight over how the 
FBI is handling things that are very sensitive, and then you 
are going to come to us and say we should reauthorize all these 
programs willy-nilly. I just think you are wrong on that and I 
do not think you are trying.
    I do not know what advice you have got, but we do have a 
right to conduct oversight over this. We all can deal with 
classified information all the time. So, we have a question 
about how this dossier was generated for political purposes. It 
ended up in the FBI's possession. What did the FBI do with it? 
And your answer to us is you will not give us any information 
on that today?
    Mr. Wray. My answer has a couple parts to it. Of the 
various questions that have been asked here today, there is 
some topics that I think it is not appropriate to discuss in 
open forum. There is some topics that are----
    Mr. DeSantis. This would not----
    Mr. Wray [continuing]. Classified, or----
    Mr. DeSantis. Whether you use it or though is not 
classified. Go ahead.
    Mr. Wray. There are some topics where even though the 
information is classified, we can and do and will share it with 
the Committees in an appropriate setting. And then, there are 
some topics--it is not just a question of classification--that 
goes straight to access to sensitive sources and methods, which 
is something that all of us as Americans have to take very, 
very seriously.
    Mr. DeSantis. Would you--but the chairman of the 
Intelligence Committee has a right to that, and you will not 
even produce it to the chairman of the Intelligence Committee.
    So, here is the problem. Whether Strzok was involved in 
this, that needs to be disclosed to Congress. Whether the 
dossier was used to generate surveillance with the FISA Court 
on a Trump associate, that needs to be disclosed to Congress. I 
do not care about the sources and methods, man. We know where 
the sources and methods: it was the Democratic Party paying 
Fusion GPS to get the dossier. So, we know that.
    The question is, how did your organization use it? You were 
not there during that time, but if they were getting this 
information from a political party, and then using it for 
surveillance against an opposition party candidate; that is a 
problem. Do you agree that that would be a problem for the 
American people?
    Mr. Wray. I do agree, Congressman, that any inappropriate 
use of the FISA process for political purposes is something 
that we should all be very concerned about and take very 
seriously.
    Mr. DeSantis. So, we need the answers to that. It is very, 
very important. Let me ask you this. Independence from 
politics, I agree. But the FBI, like all agencies, need to be 
accountable to someone. So let me ask you this. Would it have 
been inappropriate of President Kennedy ordered Director Hoover 
to stop surveilling Martin Luther King Jr., in say 1962, if he 
believed that surveillance was illegitimate?
    Mr. Wray. No.
    Mr. DeSantis. Right. So, you would be accountable. Is 
customary to draft an exoneration memo long before interviewing 
all relevant witnesses, including the target, of that 
investigation?
    Mr. Wray. Well, I do believe that in any investigation, 
final decisions and conclusions should wait until, as 
Congressman Gowdy said, until the last witness has been 
reached. On the other hand, I also know from having done 
investigations--both for the government and in the private 
side--that as the investigation develops, you start forming 
views about what you are finding; all subject to revision, and 
in some cases, withdrawal until you are done.
    Mr. DeSantis. Fair enough. Is it acceptable practice for 
FBI agents to leak official work product to the media?
    Mr. Wray. No.
    Mr. DeSantis. Thank you. I yield back.
    Mrs. Roby. The gentleman's time has expired. The gentleman 
from California, Mr. Swalwell, is now recognized for 5 minutes.
    Mr. Swalwell. Welcome, Director Wray. Congratulations on 
your appointment, and thank you and your agents for their 
service to our country. I think there are fair questions, as 
you pointed out, about prior investigations and if there is 
evidence of any misconduct, they should be held to account. But 
it is sickening to sit here and listen to the good names of 
people, like Bob Mueller and James Comey, just be smeared. And 
that the work of your agents has become politicized because I 
do not believe that is the case. And what I have observed on 
the Intelligence Committee and what I have observed just as a 
former prosecutor who has had FBI agents on the stand.
    But I would like to look forward. And our House 
Intelligence Committee investigation, it is early, but it has 
yielded some key takeaways, which is that our social media was 
weaponized by the Russians. That senior presidential campaign 
aides were approached by Russians in a variety of ways to offer 
dirt on a political opponent. And that our government response 
from the very top to our intelligence officials was probably 
not sufficient in how Congress was notified, or how the public 
was notified.
    Knowing that we have an election coming up in November 
2018, what does the FBI plan to do? Whether it is Russia, or 
any of the other adversaries that you identify, who would love 
to interfere, meddle, or influence an election?
    Mr. Wray. Well, Congressman, any effort to interfere with 
our elections, whether it is by Russia or any other nation 
state, or, really by any nonstate act is something that we, at 
the FBI take extremely seriously; and I know our counterparts 
throughout the government do, as well.
    We are--as I think I may have mentioned--like you, focus on 
looking forward. We have created a few months ago, a Foreign 
Influence Task Force to ensure that we are bringing the right 
kind of focus and discipline to the process. Because we think 
this is a multidisciplinary problem, it combines both the 
Counter Intelligence Division, and the Cyber Division, and the 
Criminal Division and some other parts of the FBI as well.
    Our focus is on trying to look for, sniff out, determine 
whether or not there are any efforts to interfere with the 
upcoming elections. We are, in that effort, coordinating 
closely with the Department of Homeland Security, which has a 
similar type of body on its end. And----
    Mr. Swalwell. Would you be open to working with Congress on 
a duty to report law? Whether it is social media companies who 
observe interference on their platforms before the FBI does? 
Or, whether it is individuals who were contacted by foreign 
nationals offering ill-gotten evidence against another 
campaign? That there would be a duty to report that to law 
enforcement? Would that be helpful for the FBI?
    Mr. Wray. I would be happy to have our staff coordinate 
with yours to review any legislative proposal, and to give you 
sort of an operational assessment of how that might or might 
not be helpful.
    Mr. Swalwell. Director, again, looking forward, but being 
informed by prior conduct: in uncontradicted sworn testimony to 
Congress, former Director James Comey described multiple 
efforts by President Trump to influence the FBI's Russian 
investigation. And that is the only sworn testimony the record 
has. Director Comey memorialized President Trump's 
inappropriate conduct in a series of memos. Couple of questions 
for you. Since being sworn in, have you met one on one with 
President Trump?
    Mr. Wray. No.
    Mr. Swalwell. Has he called you where just the two of you 
have talked?
    Mr. Wray. I have gotten, maybe one congratulatory phone 
call. You know, for example, the day of my installation 
ceremony.
    Mr. Swalwell. But you have not had to break a date with 
your wife?
    Mr. Wray. I have not had a, sort of, substantive engagement 
that way.
    Mr. Swalwell. Now, knowing the prior efforts by the 
President to influence a past investigation, going forward, how 
will you memorialize or report to Congress, or the public any 
improper effort by any President to influence an ongoing 
investigation? Have you thought about procedures or methods 
that you would take?
    Mr. Wray. I would evaluate each situation on its own 
merits. I am acutely aware of the importance of trying to take 
careful track of conversations; especially important, sensitive 
conversations. Exactly what I would memorialize and how and 
whether; again, it would depend on the circumstances of the 
particular situation.
    But you can be confident that in all of those situations, I 
would, as I said to the Committee earlier, be guided by my 
unwavering commitment to following my duty and my adherence to 
the Constitution and the rule of law. And there is not a person 
on this planet that can get me to drop a properly predicated 
investigation, or start an investigation that is not properly 
predicated.
    Mr. Swalwell. Do you believe that President Trump is above 
the law?
    Mr. Wray. I do not believe anybody is above the law.
    Mr. Swalwell. Thank you. I yield back.
    Mrs. Roby. The gentleman yields back. The gentleman from 
Colorado is recognized for 5 minutes.
    Mr. Buck. Thank you. And thank you, Director Wray, for your 
testimony today. You have heard a lot about the appearance of 
impropriety, or possible conflict of interest, or the 
perception that there are some that are tainted in their views. 
There is a statute that was enacted years ago that deals with 
this, in part, and it is the Hatch Act. And as the former 
Assistant Attorney General for the Criminal Division and now 
the FBI Director, I am assuming that you are familiar with the 
Hatch Act?
    Mr. Wray. Generally familiar, sure.
    Mr. Buck. All right. And as a former Federal prosecutor: 
before you started in the Department, the Hatch Act was amended 
and it allowed Assistant U.S. attorneys and others to 
participate more fully in the political process. But it 
specifically did not allow that enhanced participation to apply 
to the prosecutors in the Criminal Division and FBI agents. At 
least, that is my memory. Are you familiar with that?
    Mr. Wray. I would say, I am generally aware that, as you 
say, that there were some changes; some loosening under the 
Hatch Act at some point. I cannot remember exactly when that 
was, relative to my time as a baby prosecutor. And so, the 
particulars of exactly when it applies and when it does not and 
to whom, unfortunately, I just do not have that committed to 
memory here.
    Mr. Buck. So, I think it was '93, but I think, again, the 
Criminal Division and the FBI, the rules were not loosened as 
to those two organizations. And in one of the prohibitions is 
against individuals contributing to a partisan political 
candidate. And I am, again, I am asking you, are you familiar 
with that prohibition? And is that a prohibition that applies 
to FBI agents today?
    Mr. Wray. I do not know that I can recall right off the top 
of my head exactly what the restrictions are on political 
participation under the Hatch Act for FBI agents and criminal 
division prosecutors. So, unfortunately, I would have to look 
at that and see. I can get back to you, if you would like me 
to.
    Mr. Buck. Or a member of your staff would be, would be 
great. I would be interested in that. There is at least one 
prosecutor on the Mueller team that was at the criminal 
division and donated to Hillary for America, according to a 
record that I am looking at right now. And there are a number 
of the prosecutors on the Mueller team now that have prosecuted 
in the past. I am not sure that they were criminal division 
employees at the time they prosecuted.
    But my question really is whether we need to amend the 
Hatch Act and make it more clear, in light of the perception by 
members of the public that there are individuals that are 
investigating President Trump and they have an agenda, an 
unfair agenda in their investigation. They are a spouse of a 
Senior FBI employee, received a large amount of money from the 
Democratic Party to run for office in Virginia.
    And then, my understanding is the Hatch Act does not apply 
to spouses, and has not applied to spouses, and was never 
intended to apply to spouses, but it does raise the issue of 
whether we should have further restrictions to make sure that 
the public has faith and trust in the process that you and I 
hold dear. I am just wondering if you would be willing to 
comment on that?
    Mr. Wray. Well, any specific legislative reform is 
something that I would have to look at more closely. I think 
the fundamental underlying principle of your point is one that 
you and I share, which is that investigations need to be 
conducted in a way that political bias does not taint. How much 
of that is done through the Hatch Act? How much of that is done 
through policies and procedures, and staffing? How much of that 
is done through recruiting the right people; training and 
promoting the right people? I think it is all of the above.
    Mr. Buck. And I think that is a great point. In order to 
staff a case in a way that would assure the public that there 
was not bias going into the case, you would need to know who 
had donated to who, who had participated in some political 
activity. Should there be, at least internally--maybe not as a 
matter of public record, but internally--within the FBI, a 
process where if someone complies with the Hatch Act, but is 
still involved in some activity, that they disclose that. So, 
that if there is a staffing decision to be made, that the 
staffing decision can be made with the assurance of supervisors 
that people are not tainted in some way or at least the 
perception is they are not tainted.
    Mr. Wray. I would have to think about the First Amendment 
implications of that. I certainly take the point. You know, my 
guess, though, is that you could encounter similar concerns 
when you look at individuals charitable contributions, too, 
right? You have contributions to particular organizations, 
501(c)(3) organizations that have a particular social view, for 
example.
    So, I think questions of bias and objectivity, back and 
forth, and questions of appearance of bias and objectivity, 
back and forth, have to be taken very seriously, and I think 
you and I share that view. But I also want to make sure that 
whenever I am doing it, I am doing it in a way that is 
consistent with respecting the fact that FBI employees, just 
like all Americans, have a right to have views, both about 
politics and about social issues.
    Mr. Buck. And thank you----
    Mrs. Roby. The gentleman's time has expired.
    Mr. Buck. Thank you.
    Mrs. Roby. Now, recognize the gentleman from California, 
Mr. Lieu, for 5 minutes.
    Mr. Lieu. Thank you, Madam Chair. Thank you, Director Wray 
for being here. I want the American people to know that when 
you served in administration of President George W. Bush, you 
received the Edmund J. Randolph Award, the highest award that 
the Department of Justice gives for leadership and public 
service. Not only have you served the American people; you have 
served us well. Thank you.
    Earlier today, you stated that Donald Trump has not asked 
you to take a loyalty oath. If Donald Trump were to ask you 
later today, or sometime in the future to take a loyalty oath 
to him, would you do so?
    Mr. Wray. The only loyalty oath I take is the one that I 
took when I was sworn into this job, which is a loyalty to the 
Constitution and the laws of the United States.
    Mr. Lieu. Thank you. That is the right answer. I asked that 
same exact question to Attorney General Session's last month; 
he did not give that answer. I commend you for understanding 
that your loyalty is to the Constitution, the laws, and the 
American people; not to whoever happens to be President at the 
time. So, thank you for recognizing that.
    I would like to ask you about the Intelligence Committee 
assessment. I have a document here about assessing Russian 
activities and intentions in recent U.S. elections. Chairman 
Goodlatte, I would like to enter a document for the record?
    Chairman Goodlatte. No objection.
    Mr. Lieu. Thank you. I am going to ask you about 3 specific 
findings. This report was released earlier this year. It 
states--and this is the FBI, CIA, NSA and others--``We assessed 
Russian President Vladimir Putin ordered and influenced 
campaign in 2016 aimed at the U.S. presidential election. 
Russia's goals were to undermine public faith in the U.S. 
Democratic process; denigrate subject Clinton; and harm her 
electability and potential presidency. We further assessed 
Putin and the Russian government developed clear preference for 
President Elect Trump.'' Does by the FBI stand by that 
assessment?
    Mr. Wray. As we sit here right now, Congressman, I have not 
seen any information that would cause me to question the basic 
conclusions of the Intelligence Committee assessment, including 
that one.
    Mr. Lieu. Thank you. I am going to ask you about two more. 
``We also assessed Putin and the Russian government aspired to 
help President-elect Trump's election chances when possible by 
discrediting Secretary Clinton and publicly contrasting her 
unfavorably to him. Report notes that the FBI has high 
confidence in this judgment.'' Does that remain true today?
    Mr. Wray. Again, sitting here right now, the information 
that I have seen up to this point, would not cause me to 
question the basic conclusions of the Intelligence Committee 
assessment.
    Mr. Lieu. Thank you. And then, one more. ``Russia 
intelligence obtained and maintained access to elements of 
multiple U.S. State or local electoral boards.'' Does the FBI 
stand by assessment?
    Mr. Wray. Same answer.
    Mr. Lieu. All right, thank you. Earlier this week, the 
President of the United States attacked the dedication and 
integrity of 37,000 FBI employees. I believe that is 
outrageous. It is also factually false. I would like to go 
through with you, the extremely high-caliber of the personnel 
in your Department. As you know, there are a number of 
disqualifiers that keep the FBI from even considering to hire 
you.
    So first off, you got to be a U.S. citizen to be an FBI 
employee, correct?
    Mr. Wray. Yes.
    Mr. Lieu. If you are convicted of a felony, if you violate 
the FBI's drug policy, or fail the FBI's urinalysis test, you 
cannot be hired as an FBI employee. Correct?
    Mr. Wray. That is my understanding.
    Mr. Lieu. If you fail to pay court ordered child support; 
if you fail to file your taxes; if you even just default on a 
student loan insured by the U.S. government, you cannot be 
hired as an FBI employee. Correct?
    Mr. Wray. I believe that is right.
    Mr. Lieu. And all FBI employees, in addition of passing 
credit and record checks, have to also pass a polygraph 
examination. Correct?
    Mr. Wray. I believe polygraphs are applied to almost 
everybody in the FBI, yes.
    Mr. Lieu. Thank you. To be an FBI Special Agent, there are 
even more qualifications. You have to pass a phase one test 
that assesses reasoning and judgment. Meet in person with FBI 
officials. Pass a phase two test that includes a writing 
exercise interview with FBI special agents and pass a physical 
fitness test. Correct?
    Mr. Wray. Again, I believe that is correct.
    Mr. Lieu. And then you have to pass a 21-week course at the 
FBI Academy in Quantico, correct?
    Mr. Wray. I am sorry, what was the length?
    Mr. Lieu. You have to pass a 21-week course----
    Mr. Wray. Right.
    Mr. Lieu [continuing]. At FBI Academy.
    Mr. Wray. Twenty-one weeks, exactly. Sometimes the 
instructors will tell the new agents that is only 20 weeks and 
the agents will quickly point out, ``No, no, no. It is 21-
weeks; we know the difference.''
    Mr. Lieu. Thank you. I served on active duty in the 
military; they have been known to say that, too. Now, that is 
why if all these enormous qualifications, if you have to go 
through that. Of the 12,000 applications FBI had last year, you 
only hired approximately the top 6.3 percent to be special 
agents, correct?
    Mr. Wray. Well, I do not have the numbers, but that sounds 
generally right.
    Mr. Lieu. So, two more questions. The FBI's reputation is 
not in tatters, right?
    Chairman Goodlatte. The time of the gentleman has expired. 
The director may answer the question.
    Mr. Wray. As I said to the committee earlier, my experience 
with the FBI has been positive. I have enormous faith and 
confidence in the people who work there. I see example after 
example of fidelity and bravery and integrity everywhere I go 
inside the organization. And I could not mean more proud to be 
sitting here as one of their colleagues.
    Mr. Lieu. Thank you. I yield back.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Texas, Mr. Ratcliffe, for 5 minutes.
    Mr. Ratcliffe. Thank you, Mr. Chairman. Director Wray, good 
to see you again. Let me start off where my colleague from 
California just left off about the tweet, ``FBI in tatters.'' 
As you have pointed out, the ``I'' in FBI stands for integrity. 
I never misunderstood President Trump's tweet to be anything 
other than questioning the integrity of senior leadership at 
the FBI; not the rank and file agents within the FBI. And much 
of that swirls around the senior leadership of former FBI 
Director James Comey. Congressman Gowdy well highlighted a 
series of anomalies involving former Director Comey, as well as 
former Attorney General Lynch. Director Comey's gone.
    But now we have new questions raised this week about the 
integrity of other senior FBI officials; FBI Agent Peter 
Strzok. Agent Strzok was, until recently, the FBI's number two 
Counterintelligence official, correct?
    Mr. Wray. Well, I think he was one of the number two's in 
the Counter-intelligence Division.
    Mr. Ratcliffe. And then after some--approximately 10,000 
texts--some of which included anti-Trump, or pro-Clinton 
sentiments--he was reassigned to the Human Resources Division 
of the FBI, correct?
    Mr. Wray. Correct.
    Mr. Ratcliffe. And so, here is what we have learned about 
Agent Strzok before that reassignment. That he headed up the 
Clinton email investigation for Director Comey. Correct?
    Mr. Wray. I know he was actively involved in the 
investigation. Who headed it up, I think I would have defer on 
that.
    Mr. Ratcliffe. From the FBI's own 302s, we know he was 
present for the interview of Hillary Clinton.
    Mr. Wray. I have heard that as well.
    Mr. Ratcliffe. Well, I have seen the actual redacted 302, 
so I will represent to you that he was present. It was 
reflected that he was present in the room. We also know that 
months before that interview of former Secretary Clinton, that 
Mr. Strzok was part of the team that wrote an exoneration memo 
and changed--as you have been questioned about--language in 
there, changing ``gross negligence'' to ``extremely careless,'' 
a legally significant change. Correct?
    Mr. Wray. Well, Congressman, as you probably recall from 
your own prior life, you can probably guess what I am about to 
say, which is that there is a very active--and I can assure you 
it is very active--outside independent investigation by the 
inspector general into the matters that you are asking about.
    Mr. Ratcliffe. I appreciate that, but I am just trying to 
highlight all of the things were Agent Strzok was involved. And 
we know that after President Trump's victory in November, it is 
believed that he may have signed off on various documents 
initiating the FBI's Russia election probe. But we know, at a 
minimum, that he interviewed Trump campaign, or was involved in 
the interview of Trump campaign advisor, Michael Flynn. 
Correct?
    Mr. Wray. Again, I am not going to discuss the facts of the 
ongoing investigation.
    Mr. Ratcliffe. And then, we know that upon the appointment 
of special counsel to look into possible Trump-Russia 
collusion, Strzok was detailed to Mueller's investigative team. 
Some reports have him as the lead investigator. Correct?
    Mr. Wray. I do not know whether he was the lead 
investigator.
    Mr. Ratcliffe. All right. Well, as has been pointed out, 
every FBI employee has and is entitled to have political 
opinions. And now, we know that there are some 10,000 texts, 
which apparently very much highlight Agent Strzok's political 
opinions, anti-Trump and pro-Clinton. I am not making 
accusations here. I am not making conclusions here.
    But you remember from law school that legal doctrine, ``The 
Fruit of the Poisonous Tree?'' It is really a legal metaphor 
that says, ``That if the source or tree is contaminated, 
biased, or prejudiced that everything that it yields and that 
it arises from that may also be, i.e., the fruit, is 
contaminated, prejudiced or biased.'' And so I think you can 
see where I have concerns about the appearance of impropriety 
here.
    Because what we have learned about FBI Agent Strzok is that 
this is the one FBI Agent that is literally at the epicenter of 
every, virtually every major decision the FBI has been involved 
in. Action and inaction about Candidate Trump, about President 
Trump and about Candidate Clinton. And if that one agent at the 
center, or source is decidedly anti-Trump, and decidedly pro-
Clinton that raises real questions about all of the conclusions 
that the FBI has reached on any and all of these matters.
    Now, to his credit, it is being reported that Special 
Counsel Mueller is the one who demoted Agent Strzok upon 
learning about these anti-Trump, pro-Clinton texts. I want to 
give him credit for that, if in fact those reports are true. 
Are they true?
    Mr. Wray. Congressman, I would not say that the individual 
in question was demoted. I would say he was removed from the 
investigation and that was something that we did from the FBI 
end in coordination with the Office of special counsel.
    Mr. Ratcliffe. Well, I want to give credit where credit is 
due. And if Special Counsel Mueller is entitled to that, I will 
certainly want to give that to him. But what I am troubled 
about is that we found out these facts months later; not from 
Special Counsel Mueller, but from Inspector General Michael 
Horowitz.
    Two weeks ago, Attorney General Sessions was in this room. 
And I asked him a question because I am part of an 
investigative team; Joint Committee from Judiciary and the 
oversight in Government Reform Committee that are looking into 
these irregularities in the 2016 election.
    Decisions that were made by the FBI and the Department of 
Justice. And I asked Attorney General Sessions, ``Will you 
allow us to go where the facts and evidence lead us in that 
investigation?'' in our oversight capacity. He assured me that 
he would. I am asking you and giving you the opportunity to 
represent to us as this oversight body and to the American 
people that you will allow us to go where the facts and 
evidence lead us?
    Chairman Goodlatte. Time for the gentleman has expired. The 
director can answer the question.
    Mr. Wray. I would want the FBI to cooperate with the 
committee's oversight and investigation in every way we 
appropriately and legally can.
    Mr. Ratcliffe. Well, Director, my time's expired. I just 
want to tell you that, as you know, we worked together at the 
Department of Justice. The FBI is an organization that I have 
revered for my entire life. Help me help you restore the FBI's 
reputation with every American. Thank you, and I yield back.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Maryland, Mr. Raskin, for 5 minutes.
    Mr. Raskin. Thank you very much. Director Wray, welcome and 
thank you for your commitment to the Rule of Law in face of 
these continuing efforts to defame your Department and its 
employees. When the White House says that your office is in 
tatters, I think it is a case of what the psychiatrists call 
``projection.''
    But I want to ask you about the crisis of gun violence in 
America. You have said that you would not rule out in any way, 
commonsense gun reform legislation. Unfortunately, we have not 
been able to have hearings on any commonsense gun reform 
legislation; like a criminal background check in the case of 
all gun sales which is supported by more than 90 percent of the 
people.
    But yesterday, the House passed something called the 
``Concealed Carry Reciprocity Act,'' which would theoretically, 
if it passes the Senate, allow for millions more guns in 
interstate traffic because it would wipe out the laws of the 
States with respect to concealed carry.
    Have you done any study or analysis, as to what it would 
mean for Federal and State and local law enforcement if this 
legislation were to pass?
    Mr. Wray. I am not aware of any such study, Congressman.
    Mr. Raskin. Do you have any thoughts on this legislation?
    Mr. Wray. I have not reviewed this legislation. I would be 
happy to take a look at it, but I think we would have to make 
an operational----
    Mr. Raskin. Do you support universal criminal background 
check? The kind that is supported by more than 90 percent of 
the American people? Is that in the interest of public safety 
in the country?
    Mr. Wray. Any legislative change to the current gun laws is 
something that I would evaluate from the standpoint of all the 
operational impacts for the FBI.
    Mr. Raskin. Mr. Director, some of my colleagues have asked 
questions about the possible politically-based targeting by the 
FBI to African-American political activists denominated as 
black identity extremists. Other colleagues across the aisle 
are asking questions about the possible politically-based 
targeting by the FBI as Republican Presidents.
    There is a lot more in the FBI's history--with J. Edgar 
Hoover and the campaign to smear and disrupt Martin Luther 
King's civil rights movement and the COINTELPRO program to 
justify Congresswoman Bass' fears, or Congressman Richmond's 
fears, and the odd fears being by our colleagues that there is 
a conspiracy to target Republican Presidents. But let me just 
ask you some basic questions that might help to clear up some 
of the confusion. Does the FBI target people for criminal 
investigation or prosecution, based on their political party?
    Mr. Wray. No.
    Mr. Raskin. Would you accept any prosecutors doing that?
    Mr. Wray. Well, first off. Prosecution is not what we do.
    Mr. Raskin. Investigators or prosecutors?
    Mr. Wray. What we do is investigate. And that is important 
that we keep straight who the investigators are and who the 
prosecutors are. We open investigations, as I said earlier, 
only when they are properly predicated, which in this context 
means credible evidence of a Federal crime; credible evidence 
of a threat of force, or violence. And both of those things 
being used to serve further political or social goal. That is 
what we investigate. We do not investigate opinion, ideology, 
political persuasion, rhetoric. We have got enough in our plate 
and we do not investigate those.
    Mr. Raskin. But we know that President Trump tried to get 
Director Comey to drop the Flynn investigation and then, fired 
Director Comey after he refused to go along with that. Other 
than the heckling and hectoring that you have experienced today 
by our colleagues, has anyone from the Trump White House tried 
to interfere with any investigations you are involved in right 
now?
    Mr. Wray. First off, I do not take any of the questions 
from any of your colleagues as heckling or hectoring. As I said 
to my team earlier in the week, Congress has an important role 
and I welcome the tough questions. I may not always be able to 
answer your questions, as you have seen here today. But you can 
count on me to do my best and that is what I will do as long as 
I sit in this chair.
    As for any effort to interfere with our investigations, to 
my knowledge, to my experience since I started in this job, 
nobody has tried to interfere improperly with any investigation 
that is under my supervision.
    Mr. Raskin. And in the face of political complaints that 
this group or that group, it does not like an investigation you 
are doing, what is the proper response of the FBI?
    Mr. Wray. I say to all of our folks as often as I can 
because I think that is what is so important--and it goes, 
frankly, right to some of the concerns that members on both 
sides have expressed--that our job is to follow the facts, 
independently and objectively wherever they may lead and to 
whom it may lead, and no matter who does not like it.
    And one of the points that I try to make over and over 
again to our audiences is that there is always going to be 
someone that does not like what we do. If you think about the 
most basic investigations that we have. If it leads to an 
arrest, I guarantee you the guy we arrest, he did not like it. 
And those situations where we bring an investigation and we 
cannot arrest somebody; more often than not, the victim is 
frustrated and disappointed and they do not like it.
    And our safe space is to follow the rules, follow the 
guidelines, follow the Constitution, follow the facts 
objectively and independently, and then let the critics go 
where they may because there will always be lots of critics of 
everything we do.
    Mr. Raskin. Thank you. And----
    Chairman Goodlatte. Time of the gentlemen has expired. The 
chair recognizes the gentlemen from Florida, Mr. Gaetz, for 5 
minutes.
    Mr. Gaetz. Thank you, Mr. Chairman. You said that your safe 
space is to follow the rules. Were the rules followed in the 
Hillary Clinton investigation?
    Mr. Wray. That is something that is being investigated 
right now by the outside inspector general. I am very much 
looking forward to seeing what he finds on that.
    Mr. Gaetz. Yeah, you and me both. Did she get special 
treatment?
    Mr. Wray. Well, again, I think when you ask about special 
treatment, I interpret that--and I may not be correctly 
interpreting your question, in which case, I am sure you will 
tell me--but I take that to be a question about whether or not 
the handling of that investigation was tainted in some way by 
improper political considerations. And that is exactly what the 
inspector general is going to tell us.
    Mr. Gaetz. So, I sent you a letter asking you to tell us 
whether or not Hillary Clinton got special treatment and your 
office's answer was that you would provide it in a classified 
setting. Why do the American people not deserve to know whether 
or not Hillary Clinton got special treatment?
    Mr. Wray. Well, I think the reference to classified 
information went to the other part of your letter, which has to 
do with the dossier issues. But the----
    Mr. Gaetz. Well, so let's talk about that.
    Mr. Wray. But on the first part, on this question of 
special treatment, what I would tell you, because I think this 
was one of the questions in your letter, is that we do not have 
at the FBI some double standard of special, not special. There 
is no formal term ``special.'' Special, as best I can tell----
    Mr. Gaetz. So it is an informal term?
    Mr. Wray. It is an informal term.
    Mr. Gaetz. Yeah. You could see how that informally 
designating something as ``special,`` signifies a double 
standard, right?
    Mr. Wray. I can see how the term ``special'' could be 
misunderstood.
    Mr. Gaetz. Of course.
    Mr. Wray. I will tell you that----
    Mr. Gaetz. Well, let me go the dossiers.
    Mr. Wray [continuing]. In my experience----
    Mr. Gaetz. I have limited time, Mr. Director. So on the 
dossiers, did the FBI pay for a dossier on the President?
    Mr. Wray. Questions about the dossier are something that 
are better taken up in separate settings.
    Mr. Gaetz. Well, do the American people not deserve to know 
whether taxpayer money was used to buy a dossier that was 
curated by a political party to discredit the President of the 
United States before and after his election?
    Mr. Wray. As I said, I understand the basis for the 
question, but I would tell you that questions on that subject 
are something that we are having lots and lots of interaction 
with multiple Congressional Committees and their staffs on in a 
classified setting.
    Mr. Gaetz. Did Bob Mueller recruit people to his probe that 
had a bias against the President?
    Mr. Wray. I cannot speak to how Director Mueller staffed or 
recruited for his team.
    Mr. Gaetz. It seems like a hell of a coincidence. I mean, 
we have got Mr. Strzok, who clearly has a bias. That is why he 
was reassigned. He is at the center of a lot of the development 
of facts. You have Mr. Weissmann, who is praising people who 
are defying the President. And then you have law firms that are 
overwhelmingly donating to the Obama campaign and the Clinton 
campaign that serve up the humans that are in that 
investigation. So, you cannot say with certainty that bias 
against the President was not a factor that brought people into 
the Mueller probe, can you?
    Mr. Wray. As I said, I am not going to weigh in on Director 
Mueller's staffing of his own team.
    Mr. Gaetz. So, we do not know whether Mr. Mueller recruited 
people as a consequence to their bias. We do not know whether 
Hillary Clinton was treated as special. We do not know whether 
the FBI used taxpayer money to go and buy a dossier to 
discredit the President.
    Now, what we do know is that you said you are an ``ask 
questions first, then act kind of guy,'' which I believe and 
appreciate. So, you would never, as an ``ask questions first 
kind of guy,'' draft an exoneration statement before 
interviewing key witnesses in an investigation, would you?
    Mr. Wray. Well, I certainly would not finalize one. I will 
say, as I said, I cannot remember if it was to Congressman 
Gowdy or one of your other colleagues, in my experience in an 
investigation you do start a form a view, but key words being 
start----
    Mr. Gaetz. But do you start drafting----
    Mr. Wray [continuing]. Key words being start.
    Mr. Gaetz [continuing]. An exoneration statement before 
conducting witness interviews?
    Mr. Wray. We sometimes would draft reports before the 
investigation was over.
    Mr. Gaetz. Exonerating someone?
    Mr. Wray. Exonerating or incriminating. But in all cases, 
in all cases, as Congressman Gowdy alluded to in his own 
comments, in my view, you would not make any kind of final 
decision about anything, exoneration or otherwise, until you 
had had all the evidence.
    Mr. Gaetz. So, we have got an exoneration statement drafted 
before the interviews are done. You have got a meeting on the 
tarmac with the spouse of someone that is being investigated. 
You have got the former FBI Director holding a press conference 
to make a determination about the outcome of an investigation. 
You have got James Clapper, when he is confronted with 
information from an intelligence inspector general saying that 
he does not want anything to be a headache for the Clinton 
campaign.
    We do not know if these taxpayer funds were used for 
opposition research. My question is what is it going to take? 
Why do we have to wait for inspector general? If I walk outside 
and it is raining, I do not need an inspector general to tell 
me to get an umbrella. With these highly aberrational 
circumstance, which almost anyone would acknowledge depart for 
the standard procedures of the FBI, why wait for an inspector 
general?
    Why not do what we know to be right and institute reforms 
that bring transparency and oversight and redundancy. So, that 
in the future, you do not have some ego maniac rogue FBI 
Director that departs from the normal procedures so the 
outcomes can be predetermined before the investigation?
    Mr. Wray. As I said before, and as Congressman Gowdy said 
in his question to me, I think it is appropriate that we wait 
in this instance until we have all the facts. Until the last 
witness, as he said, has been interviewed. And then based on 
the facts that we have, take appropriate action. I completely 
understand the reasons you are asking the question. I 
sympathize with them at times.
    Mr. Gaetz. But you see----
    Mr. Wray. I do not think----
    Mr. Gaetz [continuing]. You see the double standard.
    Chairman Goodlatte. The time of the gentleman has expired. 
The director may answer the question.
    Mr. Wray. Your concerns, which I completely sympathize with 
and understand, go to the question of whether or not proper 
process, investigative and otherwise, were followed. And I 
think the best way to get to the bottom of that is not to 
bypass proper investigative process now into those things. We 
should wait. Let the fact finding finish. The inspector 
general, as somebody who has seen the inspector general in 
action, from the Justice Department side, as a line prosecutor, 
as a defense attorney, it is not a rubber stamp. This is 
somebody who puts people through their paces. And I would look 
forward to hearing what it is he finds.
    This is not the FBI investigating itself. It is an outside 
watchdog and I look forward to seeing what that report is. But 
at that time, that is when we should look at what appropriate 
steps should be taken in response.
    Chairman Goodlatte. The chair recognizes the gentlewoman 
from Washington, Ms. Jayapal, for 5 minutes.
    Ms. Jayapal. Thank you, Mr. Chairman. Director Wray, thank 
you for being with us today, and thank you for your service to 
this country. I have a question about the FBI's 2016 Crime in 
the United States Report. It surprised many of us to see a 
drastic decrease in the amount of data available in the report.
    The report only contains 29 tables as opposed to the 80-
plus tables. That is almost a 70 percent decrease in the tables 
of the previous years. And when questioned, the Bureau 
explained that this plan had been in place since 2010, however 
State program managers were only informed of the change 
recently. Are you aware of the shift to dramatically decrease 
the amount of crime data available to the public?
    Mr. Wray. Congresswoman, I recently learned of this issue. 
I guess I could say a couple things. The first is that the 
decision to remove those particular tables was based on 
information that CJIS, which is part of our FBI, had that spoke 
to how often those tables were even being reviewed by anybody.
    Second, the information in those particular tables was 
largely just alternative views of data that was still in the 
report. But third, and probably more importantly to your 
question, we recently made a decision internally to go ahead 
and republish the information with the tables. It is going to 
take a few weeks for that to happen, however.
    Ms. Jayapal. That is great. We really appreciate that very 
much. And I did want to submit this letter for the record from 
the Crime and Justice Research Alliance about why those tables 
are so important. But we very much appreciate you doing that.
    Let me move to some questions about hate crimes and various 
ethnic and religious minority groups. California State 
University Center for the Study of Hate and Extremism found 
that biased crimes against various minorities and religious 
groups were up 20 percent since the election of Donald Trump. 
The majority of the crimes were against individuals of the 
Islamic or LGBT communities.
    Director Wray, the President has repeatedly posted tweets 
insulting various ethnic, religious, and minority groups. Most 
recently, he retweeted three videos by a discredited United 
Kingdom white separatist, ultranationalist political group. 
Videos which allegedly showed Muslims committing crimes. In the 
tense environment and climate that we operate under and with 
the frequent vilification of minorities in the public sphere, 
do you believe that the President's rhetoric and actions such 
as these tweets have an impact on the rising hate crimes that 
we are seeing?
    Mr. Wray. Congresswoman, I try to stay out of commenting on 
the business of what is being said in social media. What I 
guess I would say is that as to the question of hate crime 
statistics and the apparent rise in hate crimes: as I think was 
noted in one of the earlier exchanges, in trying to collect 
that information, especially from State and local law 
enforcement, it is voluntary.
    And so, we have challenges because it is sporadic as to 
which agencies will provide information, which ones will not, 
and how accurate and what resources they have to collect the 
information. So, it is hard for us to get an accurate take on 
the rise. We do the best we can with the information we have.
    Ms. Jayapal. Director Wray----
    Mr. Wray. I will say that my experience in dealing with 
communities as we do our investigation is that it is very 
important that we have the trust and confidence of all of the 
communities we serve throughout the United States. And all of 
the communities we serve and protect, especially, not just 
because it is the right thing to do, but because it is the 
smart thing to do.
    We need to be able to encourage sources which are the life 
blood of investigation, and we need people to come forward and 
speak up and tell us when they see something that is concerning 
so that if an investigation is appropriate, we can conduct one. 
So, I think the folks in the Bureau are acutely sensitive to 
that and intend to continue that practice and approach.
    Ms. Jayapal. I appreciate that. I feel like you are taking 
my questions right out of my mouth, because I do think that it 
is important for you as the director of the FBI to be concerned 
about anything that hurts the trust that we have with our 
communities across the country that are helping in the FBI's 
efforts. President Trump has previously warned that immigration 
from Muslim majority nations threatens the United States' 
security. Do you share that view?
    Mr. Wray. I am deeply concerned about global jihadist 
terrorism, which is a very real problem in this country----
    Ms. Jayapal. But do you believe that Muslim majority 
countries and the immigrants that come from those countries are 
a threat to our security? And before you answer that, let me 
ask you if you know who said this quote: ``Islam as practiced 
by the vast majority of people is a peaceful religions, a 
religion that respect others. Ours is a country based upon 
tolerance and we welcome people of all faiths in America.'' Do 
you know who said that, Director Wray?
    Mr. Wray. Well, I am not 100 percent certain about the 
quote, but if memory serves, it may be President George W. 
Bush----
    Ms. Jayapal. Very good. That is right.
    Mr. Wray [continuing]. Shortly after 9/11.
    Ms. Jayapal. That is right. And so I would just ask 
Director Wray again, do you share the view that immigration 
from Muslim majority nations threatens the United States 
security?
    Chairman Goodlatte. The time of the gentlewoman has 
expired. The director may answer the question.
    Mr. Wray. Thank you, Mr. Chairman. What I would say is that 
an awful lot of our terrorism investigations do also involve 
immigration violations. So, there is a close nexus between 
immigration violations and counter-terrorism investigations. 
And an awful lot of the terrorists investigations we have 
involve global jihadist rhetoric, which is disproportionally 
concentrated in certain countries.
    Chairman Goodlatte. The chairman recognizes the gentleman 
from Louisiana, Mr. Johnson, for 5 minutes.
    Mr. Johnson of Louisiana. Thank you, Mr. Chairman. Director 
Wray, thank you for being here today. I have a number of 
questions on a variety of topics and we have limited time so 
let me get right into it. First, I have always found it 
interesting that Director Comey never sought to obtain the 
hacked DNC servers, to review any digital evidence or trails 
that could definitely prove or disprove the Russian hacking 
allegation. Have you sought those servers, and if not, why not?
    Mr. Wray. The handling of that investigation, including 
access to servers or anything like that, those are 
investigative decisions made in the course of the Clinton email 
investigation, which is now the subject of a rigorous outside 
independent investigation by the inspector general. And I am 
waiting to see what he finds in order to decide what 
appropriate action might ensue from that.
    Mr. Johnson of Louisiana. Do you know if the inspector 
general is seeking the servers? Or do you have any information 
on it?
    Mr. Wray. I do not have any information on that.
    Mr. Johnson of Louisiana. The number two official on Mr. 
Mueller's team, former FBI General Counsel Andrew Weissmann, as 
you know, was just shown to have made biased comments against 
President Trump in emails sent to the since fired Acting 
Attorney General Sally Yates. As a matter of general policy, 
what happens when employees at the FBI are shown to make biased 
comments in the midst of an investigation on which they serve?
    Mr. Wray. It is hard to generalize, it depends on the 
situation. It depends on how severe the bias. It depends on 
lots and lots of different circumstances. So, it is hard for me 
to make one sweeping statement. Certainly in some instances, we 
would, as has been alluded to earlier, remove somebody from the 
investigation.
    Mr. Johnson of Louisiana. Who makes that decision? I mean, 
what is the criteria? Is that ultimately your unilateral 
authority, or?
    Mr. Wray. It would not have to rise to my level. It would 
depend on the investigation I would suppose.
    Mr. Johnson of Louisiana. With regard to terrorism, the 
Department of Homeland Security has recently indicated the 
threat environment in the U.S. is perhaps the most serious 
since the 9/11 attacks. In your opening statement today, of 
course, you noted that the FBI is currently investigating about 
1,000 ISIS-related threats in all 50 States.
    Is the threat evolving now that ISIS is losing ground in 
Iraq and Syria and has the threat grown as that organization 
has become more decentralized?
    Mr. Wray. That is a very good question. I think what I 
would say is that the threat is different. Some people would 
say is it better or worse? The good news is, you know, the 
caliphate is crumbling and that is positive for all of us. The 
bad news is ISIS is encouraging some of its recruits and 
potential recruits to stay where they are and commit attacks 
right in the homeland.
    So, in addition to the thousand or thereabouts ISIS 
investigations, which I would define as sort of ISIS-directed 
investigations, we have a lot of what we would call home-grown 
violent extremist investigations, which are individuals more 
kind of a lone wolf types, who are motivated and inspired by 
ISIS to commit attacks. And that is, I think, the threat that 
in our view, is growing, not just in the U.S. but in a lot of 
our allied countries as well.
    Mr. Johnson of Louisiana. I wish we had time to unpack that 
further. But let me ask you specifically regarding ISIS and 
current investigations. Can you confirm for us today that the 
Las Vegas killer, Steven Paddock, did not have any ties to 
international terrorism, despite the fact that ISIS is claiming 
responsibility?
    Mr. Wray. I have seen the same claims of responsibility 
that you have, Congressman. I would tell you that so far in our 
investigation, we have not seen any evidence to support those 
claims of responsibility.
    Mr. Johnson of Louisiana. Thanks for that. In September, I 
led a letter with 17 members of Congress from Texas and 
Louisiana to Attorney General Sessions to request a thorough 
investigation into Planned Parenthood Gulf Coast's actions of 
selling aborted fetal tissue for financial gain. If, indeed, 
that activity has shown to have taken place, is that a crime?
    Mr. Wray. I do not know the legal answer, as I said before, 
I consider myself now a reformed lawyer. But I will tell you 
that we are aware of the request, and we have farmed it out to 
the appropriate field offices and parts of the Bureau to take a 
look at the information provided.
    Mr. Johnson of Louisiana. Last month, we got information 
the FBI requested from the Senate Judiciary Committee documents 
that were obtained from those abortion providers regarding that 
probe. And so, on behalf of all of our delegations and those in 
the region, I want to thank you for that and will look forward 
to the outcome of it. I appreciate you being here and your 
service to the country, sir. And I yield back.
    Mr. Wray. Thank you, sir.
    Chairman Goodlatte. The chairman recognizes the gentleman 
from New York, Mr. Jeffries, for 5 minutes.
    Mr. Jeffries. Thank you, Mr. Chairman. Thank you, Director 
Wray, for your service to the country. WikiLeaks has repeatedly 
published information designed to damage the United States, is 
that correct?
    Mr. Wray. I think that is correct.
    Mr. Jeffries. And there is reason to believe that WikiLeaks 
works closely with Russian intelligence agents and spies, is 
that right?
    Mr. Wray. I have seen some of the same information. 
Certainly, we are concerned about WikiLeaks.
    Mr. Jeffries. Donald Trump, Jr. had multiple conversations 
with WikiLeaks between September 2016 and July 2017, is that 
correct?
    Mr. Wray. That one, I do not know. But I think now you are 
getting into the territory that I believe is right in the heart 
of what the special counsel has on his plate.
    Mr. Jeffries. Okay. I think, for example, on October 3, 
Donald Trump, Jr. asked WikiLeaks, ``What is behind this 
Wednesday leak I keep reading about?'' Are you familiar with 
that?
    Mr. Wray. I am not going to comment on anything that might 
be part of the special counsel's investigation.
    Mr. Jeffries. Okay. And on October 12th, WikiLeaks 
contacted Donald Trump, Jr. saying, ``Great to see you and your 
dad talking about our publications. And by the way, we just 
released Podesta emails part four.'' Let me ask you this 
question, Donald Trump, Jr. never informed the FBI or other law 
enforcement agencies that a known Russian collaborator had been 
in communication with him about matters related to the United 
States presidential election, is that right?
    Mr. Wray. Again, Congressman, I am not going to comment on 
anything that might be part of the special counsel's ongoing 
investigation.
    Mr. Jeffries. Okay. Well, an apparent existence of a 
triangular relationship between the Trump campaign, Russian 
spies, and WikiLeaks seems to me to be something we should all 
be deeply troubled about. Now, in 1974, the House Judiciary 
Committee adopted Articles of Impeachment against President 
Richard Nixon, correct?
    Mr. Wray. That sounds right.
    Mr. Jeffries. One of those articles of impeachment related 
to obstruction of justice, is that right?
    Mr. Wray. That I do not remember specifically. It has been 
a while since I studied that episode.
    Mr. Jeffries. Okay, 1998, more recently, the House of 
Representatives adopted articles of impeachment against 
President Bill Clinton, true?
    Mr. Wray. Yes.
    Mr. Jeffries. And one of those articles of impeachment 
related to obstruction of justice, is that correct?
    Mr. Wray. I believe that is correct.
    Mr. Jeffries. So, the President of the United States can 
commit obstruction of justice. Is that not correct?
    Mr. Wray. Well, again, that gets into a legal question that 
I am not going to try to take on here.
    Mr. Jeffries. Okay. Sally Yates served as Acting Attorney 
General in January prior to the confirmation of Jeff Sessions, 
true?
    Mr. Wray. Yes.
    Mr. Jeffries. And while serving as Acting Attorney General, 
she warned the White House that National Security Advisor 
Michael Flynn could be a Russian asset, is that correct?
    Mr. Wray. Now, you are into something that I think is part 
of the special counsel's investigation.
    Mr. Jeffries. Okay. And 4 days after informing the White 
House at the Department of Justice was aware of Michael Flynn's 
indiscretions related to Russia, Donald Trump fired Sally 
Yates, is that a fact?
    Mr. Wray. Again, I do not want to talk about something that 
might be wrapped up in the special counsel's investigation.
    Mr. Jeffries. Okay, but she was fired on January 30th by 
Donald Trump, true?
    Mr. Wray. Yes, she was fired by the President, and I cannot 
remember the exact date. But I do not have any reason to 
question your understanding of what the date is.
    Mr. Jeffries. Okay, thank you. And Preet Bharara served as 
the U.S. Attorney for the Southern District of New York when 
Donald Trump was first selected, correct?
    Mr. Wray. Yes.
    Mr. Jeffries. And Donald Trump met with Preet Bharara on 
November 30th and told Mr. Bharara he could keep his job, is 
that true?
    Mr. Wray. That I do not know.
    Mr. Jeffries. Okay. Now, Preet Bharara's prosecutorial 
office in the Southern District of New York has jurisdiction of 
the Trump Towers, correct?
    Mr. Wray. Yes.
    Mr. Jeffries. And at some point this year it became clear 
that Preet Bharara's office was investigating close allies of 
the Trump administration, correct?
    Mr. Wray. That I do not know.
    Mr. Jeffries. It has been publicly reported that the 
President's lawyer Marc Kasowitz warned Donald Trump, ``This 
guy is going to get you.'' Is that true?
    Mr. Wray. I have no idea whether that is true.
    Mr. Jeffries. Donald Trump fired Preet Bharara on March 
11th, correct?
    Mr. Wray. I know that he was, along with the other U.S. 
attorneys in place that were holdover U.S. Attorneys, let go 
and that date may be right. I do not know.
    Mr. Jeffries. James Comey was your predecessor as FBI 
Director, is that right?
    Mr. Wray. Well, he was my Senate-confirmed predecessor. 
Acting Director McCabe was in between.
    Mr. Jeffries. And he is widely regarded as a first-rate, 
talented law enforcement professional, true?
    Mr. Wray. As I said earlier in response to a question 
during my interaction with him, especially during the early 
2000s, that was my experience.
    Mr. Jeffries. And in February, Donald Trump asked James 
Comey to drop the investigation into Michael Flynn, is that 
correct?
    Mr. Wray. I do not know whether that is correct. I believe 
that is something that is part of the special counsel's 
investigation.
    Mr. Jeffries. Donald Trump also asked James Comey to bow 
down and take a loyalty pledge to the President, correct?
    Mr. Wray. I have no idea whether that is true, and again, I 
do not want to comment on anything that is subject to the 
special counsel's investigation.
    Mr. Jeffries. And on March 20, James Comey testified before 
Congress and publicly stated the Trump campaign was under 
criminal investigation, is that right?
    Mr. Wray. I do not know whether that is correct.
    Mr. Jeffries. FBI Director James Comey led that criminal 
investigation into the Trump campaign, true?
    Mr. Wray. Again, I am not sure I can comment on that.
    Mr. Jeffries. Donald Trump fired James Comey on March 9th, 
is that correct?
    Mr. Wray. I do not think it was March 9th.
    Mr. Jeffries. I am sorry, May 9th.
    Mr. Wray. May 9th.
    Mr. Jeffries. Is that correct?
    Mr. Wray. I believe he was fired on May 9th.
    Chairman Goodlatte. Time of the gentleman has expired.
    Mr. Jeffries. So, Donald Trump fired Sally Yates without 
justification, fired Donald Trump, fired Preet Bharara without 
justification, fired James Comey without justification. It 
feels like obstruction of justice, sounds like obstruction of 
justice, looks like obstruction of justice. I think the 
American people, Mr. Chairman, can reasonably conclude it is 
obstruction of justice.
    Chairman Goodlatte. One thing to conclude is the 
gentleman's time has expired. And the chair recognizes the 
gentleman from Arizona, Mr. Biggs, for 5 minutes.
    Mr. Biggs. Thank you, Mr. Chairman, and thank you, Director 
Wray for being here with us today. I want to just ask some 
questions to follow up on some things that you previously 
testified to today. Particularly when Mr. Issa was talking to 
you and then several other people got in on that exchange just 
a little bit.
    One of the things you said, and I am going to paraphrase 
part of it, and then I will quote part of it. You said if there 
was undue political considerations, if the IG finds there was 
undue political considerations at play in the original Clinton 
investigations, then the FBI would have to determine and then 
you said, ``How to unring the bell.''
    And I guess my question is, multiple there, I mean, what 
did you mean when you said, ``unring the bell.'' And let's just 
start there.
    Mr. Wray. It is hard for me to speculate about what I would 
do at that point. I think it would depend a lot on the 
particulars of what the inspector general found. I would not 
rule out anything appropriate that would be in response to the 
inspector general's findings. Sometimes there may be 
recommendations that come with the inspector general's report, 
in my experience.
    So, that is something we would take into account. It could 
range from anything from changes to our policies, our 
structures. It could be personnel decisions that come out of 
it. There could be follow-up that we need to engage in as a 
result of things that we learned from the inspector general's 
report. So, it is hard for me to give kind of an exhaustive 
list, but those are a few of the kinds of things that I can 
imagine.
    Mr. Biggs. Well, the first two things that you mentioned 
there were really kind of internal, you know, processes, 
personnel, maybe somebody needs to be corrected, maybe they 
need to be disciplined. Beyond that, though, I am wondering if 
there is additional options that might include even reopening 
the investigation, taking a harder look and is that a potential 
option?
    Mr. Wray. Well, I think what I would say to you there, 
Congressman, is something that I believe is true really in any 
situation, which is if we find, for example, new information or 
new evidence that would cause us to want to reopen an 
investigation, assuming we do not have a statute of limitations 
problem or something, that is something we would consider. And 
likewise, if the information we receive from the inspector 
general suggests that that is something that would be 
appropriate, then that is something we would consider.
    Mr. Biggs. And you also indicated that--is his name Mr. 
Strzok? I want to get the pronunciation right. I have heard it 
about five different ways today. Is it Strzok?
    Mr. Wray. Strzok.
    Mr. Biggs. Okay. So, Mr. Strzok was reassigned and you said 
that was not a disciplinary move. It just seems like an odd 
lateral move. So, are you telling us all that that was a 
lateral move for him?
    Mr. Wray. The individual in question was reassigned away 
from the special counsel investigation to the human resources 
department. I understand that that may sound to some of you 
like a demotion. But I can assure you that in a 37,000 person 
organization with a $9 billion budget and offices all around 
the country and in 80 countries around the world, that I think 
our human resources department is extremely important and a lot 
of what they do is cutting edge, best-practice stuff. So, it is 
a very different kind of assignment, certainly, but that is why 
I do not consider it disciplinary or a demotion.
    Mr. Biggs. Okay. And so, with regard to the attorneys that 
are on the Mueller team, did the FBI vet them at all? And if 
so, what was the vetting process?
    Mr. Wray. I am not aware of what vetting may or may not 
have been done in the staffing of Director Mueller's team. Of 
course, all FBI agents, when they join, are subject to an 
excruciatingly detailed background investigation, and then over 
the course of their trajectory, especially because of their 
access to classified information, there are re-up 
investigations that occur over the life of an agent's career. 
But as far as specific vetting, I am not sure exactly what you 
mean by that for purposes of, you know----
    Mr. Biggs. Well, I will not mince words. So, what we have 
talked about today is appearance of conflict or bias. And 
everything from donating rather large sums of money to 
candidates, some of which who have been perhaps even under 
investigation by the FBI at some point or another. 
Communication widely critical of this administration or highly 
supportive of another administration or candidates that, again, 
may have been under investigation at some point.
    What is the process there? Is there an official process 
that goes into determining whether someone is compromised or 
has a bias in their investigation or is this like in the 
Department of Justice when we had Attorney General Sessions 
here, he said, ``Well, we do not have a process. It is up to 
each attorney to basically decide whether they have a conflict 
of interest.'' Which is not the way it is in private sector, 
just so you know. So, I am wondering, what would be your 
process in determining whether the bias was too great? Because 
you said earlier that the bias----
    Chairman Goodlatte. The time of the gentleman has expired.
    Mr. Biggs. Thank you.
    Chairman Goodlatte. The director can answer the question.
    Mr. Wray. We do not do political scrubbing of our agents. 
And, of course, a lot of the questions today have gone to 
prosecutors, which, again, we devote agents and staff to the 
special counsel investigation, but not to the prosecutor side.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Illinois, Mr. Schneider, for 5 minutes.
    Mr. Schneider. Thank you and Director Wray, thank you for 
your time, your patience here in answering all of our 
questions, and your service to our country. It is all very, 
very much appreciated. Today, you gave us testimony this 
morning, a summary, 15 pages describing the programs and 
priorities of the FBI and the Bureau.
    You do not mention in this, at all, some of the work you 
have talked about later, which is protecting our elections. And 
I think I do not want to put exact words, but you talked about 
protecting the integrity of our elections, and it is critical 
to the foundations of our democracy. In fact, election security 
is national security.
    However, 2 months ago, Attorney General Sessions, 
testifying before the Senate Judiciary Committee, said that the 
Department of Justice had not yet taken any actions towards 
protecting our elections from foreign interference. It would be 
a gross understatement to say that I was deeply concerned about 
his remarks when he came a few weeks later to this committee. I 
asked him what had been done and I was astounded at his answer 
to say, ``We had not done anything.'' But I was grateful that 
he said he would take action and work with us.
    I understand that the FBI is making this a priority, that 
you have created a taskforce within the FBI. What was it that 
prompted the development of the taskforce? What void does that 
fill? What is its mission, and who are its members?
    Mr. Wray. Well, first off, I think, if I might, I think the 
fact that the Attorney General did not mention the efforts that 
we have under way is simply a reflection of the fact that there 
is lots and lots and lots of things that happen in a gigantic 
Justice Department and some of them, you know, may not have 
been briefed to him as promptly as we should have.
    The Attorney General, I know, cares deeply about this issue 
and in my view, is a great man and a great public servant. I 
will say that in the context of foreign influence in our 
elections, that was prompted, in part, by our concerns growing 
out of all the dust-up with the ICA. We knew from that combined 
with what we saw from talking with some of our foreign partners 
that efforts to interfere, not just with our elections, but 
with other countries' elections is a real thing. We know that 
that was true not just in the last election, but that that is 
something the Russians have tried to do in prior elections, 
even before the last election.
    Mr. Schneider. They have done it before, we have to expect 
they will do it again.
    Mr. Wray. I think we all expect that. And so, our foreign 
influence taskforce is a blend of people from the 
counterintelligence division, the cyber division, the criminal 
division, and other parts of the department. A lot of it is 
work that we were already doing. But I think putting them 
together in a single taskforce is a time-honored way to 
increase the focus, the discipline, the prioritization, the 
coordination. And it allows us to pursue those concerns with 
greater vigor and focus.
    Mr. Schneider. If I may talk about you doing that within 
the Bureau, you mentioned coordinating with DHS, but this is a 
complex issue. It cuts across many agencies. How is the 
taskforce working with the other departments, the other 
agencies, to make sure that we are prepared to protect the 
integrity of our elections next year?
    Mr. Wray. The taskforce has a variety of contacts with not 
just DHS. I mention them because they are so critical to the 
election infrastructure in the country. But I did not mean to 
leave out, in particular, other members of the intelligence 
community. There is regular contact there. And I want to make 
sure I do not overlook our contact with our foreign 
counterparts, where we are comparing notes there as well.
    The State election bodies, which, of course, are an 
important part of it as well, that happens really more 
indirectly through DHS and our coordination with DHS. And then, 
of course, as Congresswoman Handel knows well from her prior 
life, there are private companies that are an important part of 
the election infrastructure. And we have some interaction with 
the private sector as part of this as well.
    Mr. Schneider. When we are 11 months away from our next 
national election, primaries are starting in the couple months 
ahead, what gives you the confidence that we will be able to 
protect our elections next year?
    Mr. Wray. Well, what I can tell you is I am confident that 
we are working very hard on the issue. We are going to continue 
working very hard on the issue. We are going to be continually 
looking at how we can get even better at working on the issue. 
But I long ago gave up the idea of making predictions about 
whether or not we are going to bat 1,000. But that is our goal.
    Mr. Schneider. So, let me close with the question I asked 
the Attorney General when he was here. Are you willing to work 
with the members of this committee? Will you commit to briefing 
us whether in public or in classified briefings and can you 
give us a point of contact with who we should be communicating 
with in your department?
    Mr. Wray. I would be happy to follow up with your staff on 
that.
    Mr. Schneider. Thank you very much. I yield back.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Florida, Mr. Rutherford, for 5 minutes.
    Mr. Rutherford. Thank you, Mr. Chairman. Director Wray, 
first, let me say thank you for coming in and appearing before 
the committee today for quite a while. So, thank you very much. 
Listen, your appearance here is critical to us doing our job 
and holding the Federal Bureau of Investigations accountable 
for the people.
    And I know that is something that you, as the newly 
appointed Director, are also very interested in. And I have to 
tell you, as one member of Congress, I am very encouraged by 
the fact that you are now sitting in that chair. So, I want to 
start with the fact that, you know, as a former law enforcement 
officer myself, I often thought about and still think about the 
perceived or actual politicization of law enforcement agencies 
by the acts of officers within our agencies.
    And I share my colleagues' concerns regarding the private 
communications by FBI personnel who were tasked with conducting 
the Clinton investigation. And certainly those types of biases 
and other forms of biases go against the ethics of the FBI and 
other law enforcement agencies if and when they begin to affect 
the fair and influence the fair enforcement of the law through 
political consideration.
    And I know earlier it was mentioned. And so, rather than 
repeat what my colleagues have all gone through, I want to ask 
the question, how does the FBI fight against the partisan bias 
that can naturally exist in agents? We all know that. But 
specifically, how does the Bureau monitor your agents? And 
whether that be over social media or other private messaging, 
does the FBI have a formal guidance or policy on how this is 
conducted? Just answer that one first, please.
    Mr. Wray. Well, I think an in-depth answer would require 
more of a follow on briefing of some sort. But what I would say 
is that we try to address the kinds of concerns that you are 
highlighting, which are important to me, too. I think we share 
that.
    Mr. Rutherford. Right.
    Mr. Wray. We do it through everything from making sure that 
we recruit the right people, from making sure that we train 
them in the 21-week training that I described earlier. We make 
sure that we have policies that remind them about the 
importance of playing it straight, going by the book----
    Mr. Rutherford. Are----
    Mr. Wray [continuing]. Et cetera.
    Mr. Rutherford. Excuse me. Are there policies, then, that 
specifically address context that they can put out publicly? 
Understanding their First Amendment rights, but also 
understanding the influence that it can have on the reputation 
of the agency. And I understand until it begins to affect an 
investigation, which I think in the case of Special Agent 
Strzok, it certainly did.
    I mean, when we are looking at what was previously called 
the ``unprecedented actions,'' of not only giving immunity, but 
not recording potential criminal depositions, that is 
unprecedented, I think, that you would combine the two of 
those. To give immunity is not unusual. And so, if I were to 
ask you, did anyone lie during the Clinton email deposition, 
how would you answer that?
    Mr. Wray. I am not sure what deposition you are referring 
to. But I would say that questions about the handling of the 
Clinton email investigation and, in particular, whether or not 
certain decisions made over the life of that investigation were 
in any way tainted or influenced, as you say, by improper 
considerations, is something that has been referred to and is 
very deeply under investigation by the outside, independent 
inspector general.
    Mr. Rutherford. Let me ask very quickly because my time is 
about to run out. So, the inspector general has his 
investigation going, but does the FBI, do you conduct your own 
internal investigation as well? I mean, surely, it does not 
take an IG investigation to terminate an employee. That is 
certainly within your purview, correct, as a Director?
    Mr. Wray. You know, these are career civil servants. We 
have a process. And as I said earlier, I prefer to ask 
questions first, and then act later. And in----
    Mr. Rutherford. Exactly.
    Mr. Wray [continuing]. This situation, we would not 
normally be conducting a parallel internal investigation while 
the inspector general is doing his. And the reason for that is 
because, and this is something that is a best practice across 
investigations, we want to be sure that we are not doing 
something that would be viewed as interfering with heads.
    Mr. Rutherford. Interfering with others. I understand. My 
time has expired, sir.
    Chairman Goodlatte. The committee is advised that we have 
votes on the floor. We have, Director Wray, a great 
appreciation for the 3 hours and 45 minutes you put in so far, 
but we do have about a half dozen more members that will come 
back immediately after these votes. So, you can get a bite to 
eat or whatever. I expect it to be 35, 40 minutes and we will 
be back again to complete the hearing. And the committee will 
stand in recess.
    [Recess.]
    Chairman Goodlatte. The committee will reconvene. When the 
committee recessed, we were in the questioning period with the 
director of the FBI, and the chair recognizes the gentlewoman 
from Georgia, Mrs. Handel, for 5 minutes.
    Mrs. Handel. Thank you, Mr. Chairman and Director Wray. It 
is wonderful to see you. And I would just like to say that, 
given your distinguished and exemplary record of service 
throughout your career, I frankly am on the extraordinarily 
optimistic side that, under your leadership, we really will see 
a heightened degree of integrity going forward in the agency. 
So, I look forward to that.
    I wanted to ask a couple of questions round terrorism and 
ISIS. You mentioned in your opening testimony that the agency 
has some 1,000 active terrorism-related investigations. How is 
that volume of terrorism-investigative cases continuing or not 
continuing to strain the agency in terms of resources and your 
breadth of be able to cover other investigations?
    Mr. Wray. It is a good question. In addition to those 1,000 
ISIS-related investigations, we have, you know, probably a 
closely similar number of what we would classify as ``homegrown 
violent extremists,'' which we would define as not so much 
ISIS-directed but ISIS-inspired. You know, lone wolves here who 
see sermons and videos and things like that and decide they 
want to act.
    And then, of course, we have quite a fair number still, 
even now, in 2017, of al-Qaeda-related investigations, 
Hezbollah-related investigations, and then a number of other 
terrorist groups. And then that is not even talking about the 
domestic terrorism investigations.
    So, our counter-terrorism division and our JTTFs, our Joint 
Terrorism Task Forces, around the country, are extremely busy. 
We have, I think, matured to a point where we are not having to 
redivert agents from the more traditional criminal programs, 
except in rare situations where there is a sudden attack or 
something, and then we will surge. But there is no question 
that we are spread very thin, and we are doing the best we can 
with what we have.
    I said to somebody very recently, everywhere I turn in the 
country, I find people who want the FBI to do more of 
something. And I have yet to find a person who has identified 
something that they want the FBI to do less of, but I would 
love to, someday.
    Mrs. Handel. There you go. So, you brought up the homegrown 
terrorists and ISIS-inspired terrorists. What ability does the 
FBI have to actually investigate publicly-available information 
that is posted online specifically on various social media 
sites, and Facebooks, et cetera about individuals who would be 
terrorist sympathizers?
    Mr. Wray. We do not, as a matter of course, just sit and 
sort of monitor social media. We do, however, in the context of 
specific properly-predicated investigations, look at all 
available sources, including publicly available information, 
which could include the kinds of information that you are 
describing.
    So, it is definitely true that social media becomes a major 
part of a lot of our terrorism investigations, but we do not 
really have the means or really the authority to just kind of 
sit and troll social media looking for problems.
    Mrs. Handel. Right, but if you have a case that you are 
working, do you have the authority to further those 
investigations?
    Mr. Wray. Yes, yes.
    Mrs. Handel. Okay, good. Good, all right. You mentioned 
also, earlier, in one of your responses, about many terrorist 
investigations are also linked to immigration violations. I 
wanted to talk about the diversity visa. As you know, it has 
been reported that the suspect in a New York City attack on 
Halloween entered the U.S. on a diversity visa.
    In the course of the investigations, can you just talk a 
little bit more about the abuse of the immigration system, in 
particular visa security issues that are being exploited by 
individuals who are the subjects of investigations? And are 
there changes to that process, that vetting, that you could 
recommend to us?
    Mr. Wray. Well, I think most changes to the immigration or 
visa program are really better directed to the Department of 
Homeland Security and the Department of State, which have the 
responsibility for those two aspects of enforcement.
    I think I can say this, because it is public record in the 
charging documents, that, in the New York attack, the 
individual in question, although he did come in through the 
diversity visa program, he radicalized, at least, according to 
him, a little bit after he got here. In other words, he was not 
already radicalized when he came in, it would appear.
    Some of the visa concerns that we have going forward are, 
as the Caliphate collapses and as fighters from overseas fan 
out to other countries, they could well end up in visa-waiver 
countries and then end up in the U.S., right? So, a lot of 
people worry, well, are they going to, when the Caliphate 
falls, all come, you know, to the U.S.?
    You know, another scenario that is a little more worrisome 
and maybe a little more likely is that they flee Syria or Iraq 
and go to some other country, some third country and are there 
for a while and then come into the U.S., maybe a year from now, 
18 months from now, 2 years from now. And that is something 
that concerns us.
    Mrs. Handel. Okay, great. Thank you. And my time is up. 
Thank you, and I yield back, Mr. Chairman.
    Chairman Goodlatte. Thank you. The chair recognizes the 
gentleman from Texas, Mr. Farenthold, for 5 minutes.
    Mr. Farenthold. Thank you very much, Director. Thank you 
for being here, and I know this has been touched on a couple of 
times, and I just want to reiterate something that I hear 
regularly from my constituents in South Texas, and that is a 
concern we have a special counsel investigating the Trump 
administration, but it seems like no one is addressing the 
Clinton administration. I know the chairman touched on this, as 
did some of the other questions. And I really do not have a 
question here, other than to reiterate that it is a pretty 
strong concern of a lot of the folks that I represent.
    And I know you do not comment on whether or not there is an 
ongoing investigation or is not. But as we start seeing results 
of the special counsel's investigation coming to fruition with 
publicly-announced indictments and the like, if there are 
investigations going on with the FBI--and I hope they are--the 
time is getting ripe to see some results for that. And I think 
the other piece of that is, a lot of my constituents say it is 
not fair we have a special counsel investigating one side and 
not the other. So, I just put that out there.
    Now, that I am finished on my soap box, I do want to talk a 
little bit about section 702. During our DOJ oversight hearing 
a couple weeks ago with the Attorney General, he indicated the 
DOJ finds it problematic to require a warrant from the FISC 
court before accessing or disseminating contents of 
communications that are not related to foreign intelligence. 
And, listen, I have a great deal of respect for Attorney 
General Sessions, but I have to say, I was not totally 
satisfied with the answer to this question.
    So, I want to ask again: is it fair to say that requiring a 
court order to view content and limited circumstances after a 
702 database was queried, specifically to return evidence of a 
crime, dismantles the 702 program, a national security tool 
designed to protect from terrorists, not common criminals?
    Mr. Wray. Congressman, the ``dismantles'' language, I 
think, comes from the Office of the Director of National 
Intelligence's response to the bill, and that is the 
intelligence community's view about the bill in its totality. 
You know, all the different changes, not just the querying part 
of it that you referred to, but some of the others.
    We do believe very strongly that we are using the tool 
lawfully and appropriately. That has been consistently found by 
the courts that have looked at the issue and by the Privacy and 
Civil Liberties Oversight Board, and by all the different 
oversight mechanisms that have existed. We do believe that--
when there is no constitutional requirement to do so, and that 
is, in my mind, quite clear--that adding additional burdens and 
hoops for agents to jump through at that really early stage, 
that is when 702 is so important.
    At the very early stage, when tips are coming in, we are 
getting flooded with leads, and we are trying to evaluate, ``Is 
this a lead that has something that is important?'' It may come 
in, it may turn out to be foreign intelligence information, it 
may turn out to be some other kind of crime. At that point, we 
do not know, and all we want to be able to do is query, which 
is running a database check of information that we already have 
constitutionally in our possession.
    Mr. Farenthold. Again, my concern is, I understand the need 
to protect us from crime, but the Fourth Amendment is in the 
Constitution for a reason, and I have a great deal of respect 
for that.
    On a similar note, I have introduced legislation 
criminalizing improper unmasking. It is actually calling the 
Wrongful Unmasking Prevention Act, which establishes a penalty 
of 10 years imprisonment for anyone who knowingly makes an 
unmasking request for any reason other than to understand 
foreign intelligence information, to assess the importance of 
foreign intelligence information, or to determine whether 
classified information is evidence of a crime which has been, 
is being, or is about to be committed. The idea behind this is, 
you do not want folks unmasking stuff for political purposes or 
to check up on their girlfriend or their neighbor, for some 
other improper reason.
    Now, obviously, this is just a bill, but from an agency 
perspective, does the FBI now investigate unmasking claims that 
might be improper?
    Mr. Wray. There are situations where the request could lead 
to an investigation. Merely somebody making an unmasking 
request and having it denied, for example, would not be enough. 
But if we have evidence that somebody obtained--which, in that 
case, for example, be classified information for an improper 
purpose, you know, that is something that we would investigate.
    A lot of times, the unmasking concerns are linked to and 
less about the unmasking itself, and more about, in my mind, a 
very serious issue, which is leaks of the information, whether 
it is through unmasking or something else. And that is 
something that we are trying to be very aggressive on. You 
know, I think the department, the intelligence community, the 
FBI, are open to working with you and the committee on the 
unmasking issue. I think, ideally, it would be separated from 
702, which we think is an incredibly important tool needing 
renewal. Yeah.
    Mr. Farenthold. That is fine as a piece of legislation. I 
see my time has expired. Thank you, Mr. Chairman.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Georgia, Mr. Collins, for 5 minutes.
    Mr. Collins. Thank you, Mr. Chairman. Thanks for staying. 
Sometimes we get here a little bit later, and we go earlier, 
and many have left, but sometimes you get to stay until the 
end. I think it has been good today, because there is something 
that you had said earlier. The chairman brought it up. Well, 
one, from Northeast Georgia, it is good to, you know, be back.
    I know you travelled to Gainesville and Judge Kelly's 
court, and everybody else up there for a while. But I think the 
interesting thing here is something that was said earlier, 
especially about when asking for stuff, and it was the 
determination, ``I am not going to share that here.'' I just 
have a general question to start with. What is your belief, 
personally, in how much you have to cooperate with this 
committee?
    Mr. Wray. My own view is that we should be trying to do 
everything to cooperate with this committee that we legally and 
appropriately can.
    Mr. Collins. Okay. And when you come here, you are under 
oath; you are still under oath. It is something we take very 
seriously, but I have also been here 5 years. And I am going to 
put them in perspective, because there are some things I just 
want to put for the record is, we have a good relationship 
starting forward, because I think you bring a great breath of 
fresh air, hopefully, to this, you know, agency, as I believe. 
My dad was state trooper. I come from a law enforcement 
background. We have got to have this trust.
    But just a few years ago, right before I got here in July 
6th of 2011, in a draft letter that was circulated within the 
Department of Justice, a department official Faith Burton 
wrote, ``I would stay away from the representation that we will 
fully cooperate in the future.'' This was in dealing with 
``Fast and Furious.'' So, you have got to understand, the 
members up here doing our constitutional job are sometimes 
skeptical of what has been said here.
    And I have had interesting, you know, back and forth with 
the former Attorney General, with the former FBI Director. So, 
I just have a few questions, if we could. One: recently there 
have been some problems, and I want to hear from you, of 
unprecedented leak of information of about FISA wiretaps. We 
got into FISA a little bit ago. Specifically, there was a leak 
of information related to the FISA wiretap of Paul Manafort. 
Leaking information about FISA warrants is a felony, is it not?
    Mr. Wray. I am sorry, leaking information about FISA 
warrants?
    Mr. Collins. FISA warrants is a felony, is it not?
    Mr. Wray. Yes, I would think it would be.
    Mr. Collins. What is the FBI currently doing to identify 
the leakers of that information?
    Mr. Wray. Well, I am not going to comment on, or confirm, 
or deny, the existence of any specific investigation. I will 
say that, we have, at the moment, quite a number of active 
investigations into unauthorized disclosures of classified 
information.
    Mr. Collins. Is this something that you would say that you 
would put a high priority on? Finding out who leaks and holding 
them accountable?
    Mr. Wray. I will say that I believe that finding out who 
has leaked classified information is something that is 
extremely important. I will say also, having been somebody who 
has had responsibility for a lot of leak investigations, not 
just now but when I was an assistant attorney general and had 
both Criminal Division and what is now the National Security 
Division, leak investigations are breathtakingly difficult to 
pursue.
    Mr. Collins. Well, I think----
    Mr. Wray. And so, that does not mean we should not pursue 
them. And, in fact, I am big believer in the idea that we 
should even if we may be pessimistic about our ability 
ultimately to be able to find somebody to charge, because the 
mere fact of conducting those investigations sends a strong 
signal that we will not tolerate people leaking classified 
information.
    Mr. Collins. And I agree with that, and I think it has got 
to start with you. And I think, frankly, there has not been 
that leadership in that department for a while.
    Well, let's go back to FISA, because earlier on there was a 
discussion. They came across, as you were not going to provide 
that or provide that in this setting, or, we did not have a 
right to that. So, I just have a few questions. So, what 
information or documents related to FISA do you think the FBI 
can withhold from the committee? Can it withhold FISA warrants?
    Mr. Wray. Well, I think there is a couple different stages 
of cooperation here, right? So, one is a question of, can we 
provide an open setting? And then, one is, can we provide----
    Mr. Collins. Well, let me help you out.
    Mr. Wray. Right.
    Mr. Collins. Because your time is more valuable than mine. 
We will just assume it is the proper setting, proper format. 
But what I was concerned about was actually said earlier, was, 
there may be some issues. So, if properly asked for a FISA 
warrant, is there any reason why you would withhold that 
information, legally, that you can?
    Mr. Wray. There are situations where information related to 
a FISA application involves sensitive sources and methods that 
are, in my experience, not shared with committees of Congress.
    Mr. Collins. Okay. Information that is formed as the basis 
for a FISA warrant, or a legal memorandum regarding FBI's 
interpretation of FISA?
    Mr. Wray. Well, the FBI's legal interpretation of FISA is, 
unless it is asking for attorney/client privileged information, 
I would think is something we could discuss with the committee.
    Mr. Collins. Again, I think that is the concern that I 
have. And, looking at this is, as the chairman said earlier, I 
am backing up the chairman and the jurisdiction of this 
committee on both sides. This has become one of the biggest 
issues that we have here, and I have been here on different 
committees, asking different agencies, under a Republican 
administration now and a Democratic administration, is, there 
is a belief that you can withhold from this oversight. And, 
especially on FISA, this is the primary, so I will clear up the 
uncertainty you might have.
    The committee has the authority to demand any document or 
piece of information related to the FISA program, and there are 
many things that we would like to see and be a part of, and I 
think you indicated your willingness to do that. We need to 
continue that openness in this thing, otherwise you are going 
to continue to have the discussions and innuendo and everything 
else, because at the end of the day, this is a problem.
    But my last question has one concern. You may have 
mentioned it earlier, and I think it was sort of interesting. 
You said that Mr. Strzok was not demoted. I am not sure, 
frankly--and this is just a good North Georgia boy looking at 
this--how do you take the number two counterintelligence person 
who is on one of the highest-profile is special investigative 
committees that has been a long time in this town, and take him 
and put him in a random slot in human resources? Not offensive 
to human resources; they got a big job.
    But I do not think there is a pressing need for your number 
two person here in counterintelligence who is on the highest-
profile investigation going on this hill to all of a sudden 
say, ``You know, there is a big need in human resources; let's 
move him over here.''
    I have a bigger concern that if some of the issues that 
have fallen out with Mr. Strzok, why would you put him in human 
resources where he could have an oversight or even teaching 
responsibilities for what other agents would be a part of? I 
think you need to be careful, maybe just from an example part, 
of how we say that that was not a demotion or a transfer or 
something that did not have proper, at least on the appearance, 
of what happened in this case. And with that, Mr. Chairman, I 
yield back.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Pennsylvania, Mr. Marino, for 5 minutes.
    Mr. Marino. Thank you, Chairman. Director, it is good to 
see you again. It is always a pleasure. I got to tell you a 
little something: when I got out of high school, I did not go 
right to college but I wanted to be an FBI agent. So, I got a 
job many, many years ago, as a clerk in the Department of 
Justice. I was there for a short period of time until we found 
out that I was colorblind and would not make a very good agent 
if I could not tell the color of a car or the color of 
clothing. So, I came back home, I worked in a factory for a 
while.
    When I was a district attorney and U.S. attorney, I was 
threatened a couple of times. And the FBI and the U.S. Marshals 
were right there to watch my back. But what was more important: 
they were there to watch my family during these threats. And I 
will never forget that, and I deeply appreciate it.
    I have the utmost faith in you, in the Bureau; we are part 
of the same honorable profession. You, Jim Comey, and I worked 
very well together. We got a lot of good work done, and the 
agents and the staff of the middle district of Pennsylvania--
that would be Harrisburg, Scranton, and Williamsport--they made 
me look good, and I appreciate that.
    I know how proffers work; I have used them many times. I 
know how immunity works; I know what a 302 report is and how 
that works. Let's put it this way: rarely, in my humble 
opinion, should we be using special or independent counsel; we 
know there is a strict criteria for that if there is a 
conflict.
    The reason is because I trust the 99.9 percent of our 
agents, the scientists, and staff a bit more than I trust 
Congress. And I know you will follow the FBI and DOJ 
procedures, regardless of what happened in the past.
    If you ever need anything from me, do not hesitate to call 
upon me. Thank you very much for your service, and I yield 
back.
    Mr. Wray. Thank you, Congressman Marino; I really enjoyed 
our time working in the Department together, and I know you are 
committed to supporting law enforcement, and it is very much 
appreciated.
    Chairman Goodlatte. The chair thanks the gentleman, and 
recognizes the gentlewoman from Alabama, Mrs. Roby, for 5 
minutes.
    Mrs. Roby. I thought I heard the chairman say that, since I 
was last, I could go as long as I wanted to, but I will not; I 
will stick to the 5-minute rule. Thank you for your time spent 
with us today, and I appreciate you staying through the last 
vote series. Have you read the U.S. Liberty Act, which was our 
bill to renew section 702 of the FISA Amendments Act, which 
this committee approved 27-8 last month?
    Mr. Wray. I would not say I reviewed it word for word, but 
I have read through it.
    Mrs. Roby. Okay. And will you commit working with this 
committee to reauthorize section 702 in a way that protects 
American civil liberties as well as our national security?
    Mr. Wray. I am absolutely committed, in fact, eager, to 
work with the committee to try to make sure that get 702 
reauthorized in a way that is not only constitutional but that 
also protects our national security. Obviously, as you have 
gathered from some of my responses, I have very clear and very 
specific views about what that is, and I have tried very hard 
in order to be responsible to this committee to really get into 
the weeds with the agents about how we actually use 702.
    I have actually sat at terminals with both kinds of agents, 
national security agents and criminal agents in this role as 
Director, rolling up my sleeves, looking at the screen, 
watching what happens when they tap the keyboard.
    So, I feel like I have a pretty good handle on it, and I 
just implore the Congress to be really careful here. And I 
worry that we are heading down a road that we will all regret, 
and I just hope lives are not put at risk as a result.
    Mrs. Roby. Well, I mean, I agree with you as well, but I 
just want to make sure that we can continue to work together, 
and I have heard you say that, so, thank you.
    Mr. Wray. Yes. Thank you.
    Mrs. Roby. As you well know, we have an epidemic of human 
trafficking in this country, including the trafficking of 
children, and the internet plays a huge role in that. Section 
230 of the Communications Decency Act shields some websites 
from legal liability regarding content posted by their users. I 
have serious concerns about this. Under existing law, do you 
believe that legal action can be taken against websites that 
enable--that is a key word, enable--this horrible behavior?
    Mr. Wray. Well, as I mentioned at some of the earlier 
questions in different context, I now consider myself a 
reformed, former lawyer, almost. So, I would have to look 
closely at the law to study the law in this area. I will say 
that there are situations where we have been able to bring 
cases against, what I would call, third parties for aiding and 
abetting some of things that we are talking about here.
    Mrs. Roby. Right.
    Mr. Wray. Payment processors, things like that. So, maybe 
there is a scenario where that kind of approach would work.
    Certainly, I am deeply concerned, as I know you are, about 
human trafficking, especially with respect to kids, but not 
only kids. And, as I mentioned at my opening, that is something 
that we are very aggressively pursuing. So, I would be happy to 
look at, and then have somebody sit down with you on the 
subject.
    Mrs. Roby. Yeah, and, I mean, we would welcome any of your 
thoughts or your recommendations on improving our laws. Of 
course, we have several bills in front of the Senate and the 
House today, where we are, again, trying to balance making sure 
that those that are enabling this type of horrific behavior are 
held liable.
    But at the same time, protecting innovation on the internet 
and the use of the internet. But, I think, at the end of the 
day, what we all can agree on is that we have got to come up 
with a solution that works so that we can protect these 
precious young people and adults from being subjected to this 
type of abuse.
    So, real quickly, given the decision by General Services 
Administration to scrap plans for the new FBI headquarters, I 
would be interested in your thoughts as to where we go from 
here. While the Obama administration requested $1.4 billion for 
the construction, Congress appropriated $523 million, leaving 
an $882 million funding gap. So, the total cost of the proposed 
headquarters was a hefty $2.5 billion. And I understand that 
the existing building is in a state of disrepair; however, I 
would be interested in your ideas about how to reduce costs.
    Mr. Wray. Well, when I say, ``went back to the drawing 
board,'' we are considering all options; we are working very 
hard with GSA, and I think there is a report due to another 
committee in late January about some of our progress. We are 
looking not just at different building permutations and 
locations but also at funding permutations, which I think could 
be a change, maybe, in the way we go about getting to a good 
answer. Just trying to look at how we might pay for it first, 
and then see what flows from that, as opposed to the other way 
around.
    I will tell you that, as somebody who has now spent four 
months back in the building, I remember the last time I was in 
the building in 2005, the place seemed like it was not in good 
shape then, and I can assure you it has not gotten better in 
the years that passed. So, we do need to find a solution. I 
think the men and women of the FBI deserve a building that is 
in better shape than this one is, but I am not ruling out any 
particular approach to that. But I do want to make sure we get 
an upgrade.
    Chairman Goodlatte. If the gentlewoman will yield, I 
completely agree with the director on that, and we have some 
excellent real estate in Virginia that would serve your purpose 
exceedingly well, just across the river.
    Mrs. Roby. Well, my time has expired, but I just want to 
take the opportunity to tell you and your family, thank you for 
your service to our country. But also all of the men and women 
who serve at the FBI. We really appreciate all the hard work 
that is done. So, thank you for being here.
    Mr. Wray. Well, thank you, and on behalf of the men and 
women at the Bureau and their families, we really appreciate 
it.
    Chairman Goodlatte. Thank you, Mrs. Roby. Director Wray, 
thank you very much. I do have one additional question: have 
you personally seen any of the Strzok texts that we have been 
talking about here at length today?
    Mr. Wray. Yes.
    Chairman Goodlatte. Can you characterize for us your 
impression of whether those do, indeed, constitute the kind 
of--going beyond just expressing opinion--but political 
activism that does not befit an FBI agent?
    Mr. Wray. Mr. Chairman, I really would prefer not to do 
that at this point, because of the investigation that is 
ongoing and also because of whatever might come out of that, I 
do not think it would be responsible for me to be offering an 
opinion at this stage.
    Chairman Goodlatte. I respect that. Let me just close by 
saying that I very much appreciate your testimony here today; 
not just that you are here for 5 hours, but that you have 
answered questions with a great deal of candor when you can. 
And I respect the fact that you cannot answer all of our 
questions, particularly in a public setting, regarding some 
ongoing investigations.
    However, I think that Members of the committee have made it 
very clear that there are deep concerns about what has been 
happening at the FBI. Not under your watch, but now under your 
responsibility to repair that reputation of what I truly think 
is the world's finest law enforcement organization. And that is 
going to take your testifying before committees and responding 
to various inquiries, but it is also going to take more than 
that.
    It is going to take some action, there are going to need to 
be some personnel changes. We have had a number of names in 
high-ranking positions at the Bureau mentioned in passing here, 
without getting into tremendous detail. Again, the inspector 
general's investigation and the investigation being conducted 
by this committee will probably reveal more that needs to be 
done there.
    I also think that a renewed effort to be fully responsive 
and timely responsive to the inquiries of this committee and 
other committees, but particularly this committee, which has 
oversight responsibility, and, in lieu of a second special 
counsel, is conducting an investigation that, if there were a 
special council, we would not feel the need to engage in that. 
We need to have the information that we are requesting, and we 
need it promptly. And we have no intention of interfering with 
the investigation being conducted by the inspector general. In 
fact, we think his investigation is very important and very 
helpful, and we have been working with him in that regard.
    So, those sorts of actions, and probably some changes in 
protocol regarding how agents conduct themselves and how they 
view some of the actions that have been revealed in the media 
and during the hearing today, do not reflect well on the 
Department, and create in the minds of many Americans a 
misimpression of how the overwhelming majority of FBI line 
agents and others conduct themselves.
    But because these people are in positions of great 
responsibility at the highest levels of the agency, I think 
that those who stay need to get some new protocols on how to 
represent the agency. Some need to go, and all of this needs to 
be made available to the appropriate committees that are 
investigating.
    I thank you very much, sir. If there is anything you would 
like to add, we would welcome it. With that, the hearing is 
concluded. Oh, one more thing: we will be submitting additional 
questions in writing, based upon some of the questions that 
members submitted and some issues that have come up that we 
think may be more suited to submitting questions to you in 
writing; we hope that you will answer those promptly as well.
    Again, I thank you for your participation. Without 
objection, all members will have 5 legislative days to submit 
additional written questions for the witness, or additional 
materials for the record, and this hearing is adjourned.
    [Whereupon, at 3:08 p.m., the committee was adjourned.]

                                  <all>
</pre></body></html>
